<html>
<title> - DEPARTMENT OF HOMELAND SECURITY PREPAREDNESS GRANTS: RISK BASED OR GUESS WORK?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




                    DEPARTMENT OF HOMELAND SECURITY
             PREPAREDNESS GRANTS: RISK BASED OR GUESS WORK?

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2006

                               __________

                           Serial No. 109-86

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2007
 33-785

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Peter T. King, a Representativein Congress From the 
  State of New York, and Chairman, Committee on Homeland Security     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     3
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    68
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    30
The Honorable Vito Fossella, a Representative in Congress From 
  the State of New York..........................................     4
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada................................................    38
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas:
  Oral Statement.................................................    45
  Prepared Statement.............................................    78
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    35
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    64
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas........................................    44
The Honorable Eleanor Holmes Norton, a Representative in Congress 
  From the District of Columbia..................................    40
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey...................................    49
The Honorable Dave G. Reichert, a Representative in Congress From 
  the State of Washington........................................    47
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    27
The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut...........................................    32

                               WITNESSES

The Honorable Michael Bloomberg, Mayor, City of New York, New 
  York:
  Oral Statement.................................................     5
  Prepared Statement.............................................     8
Acccompanied by:
  Police Commissioner Raymond W. Kelly...........................    20
The Honorable Anthony Williams, Mayor, City of Washington, 
  District of Columbia:
  Oral Statement.................................................    14
  Prepared Statement.............................................    17
Accompanied by:
  Deputy Mayor Ed Reiskin........................................    28
  Police Chief Charles Ramsey....................................    22
Mike Smith, Director Sacramento Regional Office of Homeland 
  Security:
  Prepared Statement for the Record..............................    26
The Honorable George Foresman, Under Secretary for Preparedness, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    51
  Prepared Statement.............................................    54

                                APPENDIX

Questions and Responses:
Under Secretary George Foresman Responses to the Honorable Bennie 
  G. Thompson Questions..........................................    83

 
                    DEPARTMENT OF HOMELAND SECURITY
             PREPAREDNESS GRANTS: RISK BASED OR GUESS WORK?

                              ----------                              


                        Wednesday, June 21, 2006

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:00 a.m., in Room 
311, Cannon House Office Building, Hon. Peter King [chairman of 
the committee] presiding.
    Present: Representatives King, Shays, Linder, Lungren, 
Gibbons, Simmons, Rogers, Reichert, McCaul, Dent, Brown-Waite, 
Thompson, Sanchez, Markey, Dicks, Harman, Lowey, Norton, 
Zofgren, Jackson Lee, Pascrell, Christensen, Etheridge, and 
Langevin.
    Also Present: Representatives Fossella, Crowley, and 
Weiner.
    Chairman King. Morning. The Committee on Homeland Security 
will come to order. The committee is meeting today to hear 
testimony on the reduction of terrorism preparedness grants and 
its potential effects on New York City, the National Capital 
Region, and our Nation.
    I will make a brief opening statement then I will ask the 
Ranking Member, Mr. Thompson, to make a statement and then we 
will proceed immediately to our witnesses on the first panel.
    I think this morning's hearing is as important as any 
hearing this committee is going to have, because to me it goes 
right to the heart of what the purpose of the Department of 
Homeland Security is and whether or not the Department of 
Homeland Security is equipped to meet the threats which face 
our Nation today.
    I happen to be from New York, and I actually have a very 
personal interest in what happens to the city of New York, but 
this goes far beyond New York City, it goes far beyond 
Washington, D.C., which is obviously where I also spend a good 
deal of time, and where I am also a very close neighbor of 
Mayor Williams. But it goes beyond all this personal--it 
involves the country as a whole, because on September 11 and 
since then, the city of New York and Washington, D.C. have 
symbolized the very essence of threat and risk in our Nation. 
New York City has been attacked twice, and New York City, as 
Mayor Bloomberg and Commissioner Kelly will point out, a series 
of at least 18 attacks or threats against the City of New York 
over the last decade. This indicates to me and indicates to any 
rational person that New York City is clearly the number one 
city at risk in our Nation today. And yet this year the 
Department of Homeland Security, in making its grants, its 
homeland security funding, cut the city of New York by 40%. I 
said then and I say now, this is a stab in the back to the city 
of New York. It is indefensible. It was indefensible. It was 
disgraceful. And to me it raises very, very real questions 
about the competency of this Department in determining how it 
is going to protect America.
    We have heard one, two, three, four, five, six, seven 
different explanations, maybe more than that I lost count at 
seven--as to why the funding was reduced. The bottom line is 
when you have a city which by the Department's own accounts is 
the number one city at risk in the Nation today, and then you 
cut that funding by 40%, that is indefensible.
    The Department is entrusted with finding a way to secure 
the lives of Americans who are most at risk, and when they 
acknowledge that New York City is the most at risk and then 
can't find a way to get funding to that city, to me that is a 
failure and an abdication of responsibility, especially since 
the city of New York is acknowledged to have one of the 
foremost police departments in the world, one of the foremost 
fire departments in the world.
    As the Mayor will point out, in the city of New York, we 
have police officers and Federal officers from all over the 
country coming to the NYPD for training and counterterrorism. 
In spite of that, the applications of the city, the fire 
department, the police department, were ranked almost near the 
bottom, and yet these are two departments which by all accounts 
should be at the top, or very near the top in my mind. They are 
clearly at the top, in deference to Chief Ramsey.
    I am not going to pursue the point, but the fact is NYPD 
and FDNY are certainly examples to the entire world. I know 
this past January a number of us traveled to Europe, going to 
London, to Rome, to Madrid. All of the homeland security 
officials we met with in those countries pointed to New York as 
the example of what they look for as finding ways to cope with 
the terrorism. And when I think of all of the money, all of the 
effort that New York City puts in, day after day after day, and 
to see them cut by 40%, I have said then and I say now, this is 
to me a dark day in the Department of Homeland Security. It is 
one from which I am not certain the current leadership can 
recover. I think it is, just again, totally indefensible.
    So I look forward to the hearing today because Mayor 
Bloomberg accompanied by Commissioner Kelly, and Mayor Williams 
accompanied by Chief Ramsey, will lay out exactly what the 
cities have gone through, what their cities are doing in an 
attempt to stave off threat of international terrorism, and how 
as a result of this arbitrary and wrong decision by the 
Department of Homeland Security they are going to be impacted 
both this year and over the next several years. So I look 
forward to the testimony.
    I really thank Mayor Bloomberg and Mayor Williams for being 
here. Chief Ramsey, Commissioner Kelly, thank you for what you 
are doing to protect the citizens that you represent. And, 
again, I want you to know that you have very, very strong 
support from, I believe it is fair to say, a majority of 
members of this committee and even in the United States 
Congress as to what happened last month when those funding cuts 
were enacted.
    And with that, I will now recognize the gentleman from 
Mississippi, the Ranking Member of the full committee, Mr. 
Thompson.
    Mr. Thompson. Thank you very much, Mr. King. And I welcome 
the witnesses to this very important hearing today. Mr. 
Chairman, ever since its inception, the Department of Homeland 
Security has been tinkering with the formula it uses to dole 
out homeland security dollars, hoping to get it right. 
Unfortunately, as this hearing will demonstrate, the Department 
has not yet gotten it right.
    Mr. Chairman, America can't wait for the Department to use 
a ``try and try again'' approach to homeland security. This is 
especially true in the grant-making process. Many of us knew 
that the Department was on the road to failing again when it 
announced the cities eligible for the Urban Areas Security 
Initiative program. Large, high-risk cities such as Las Vegas 
and San Diego were not among the top 35 cities eligible. With 
everything we have heard from this administration about the 
terrorists, how they hate the United States for our values and 
they want to pick targets that are of symbolic value, you would 
think that Las Vegas, the entertainment capital of our country, 
would at least make the top 35.
    With all the recent talk coming from many in this House 
about security risks we face on illegal immigrants coming 
across our southern border, you would think that San Diego, 20 
miles from the world's busiest port of entry, would make the 
top 35.
    One excuse that Secretary Chertoff has used for explaining 
the cuts is to blame Congress. Now, George Washington Carver 
once said that 99 percent of the failures come from people who 
have a habit of making excuses. The Department probably is to 
blame for 99 percent of the Washington grant fiasco, but I 
think Congress has some responsibility here too. The Urban 
Areas Security Initiative program was cut by $120 million in 
fiscal year 2006. The State Homeland Security Grant program was 
slashed by $550 million. It seems to me that regardless of what 
formula we use, if we don't properly fund these programs, our 
first responders are not going to have what they need to do 
their job.
    Finally, I think the Department's blunders are completely 
out of control and growing. Last week, Mr. Chairman, I 
requested that Mr. Chertoff and Mr. Jackson be called before 
this committee to explain the massive waste, fraud, and abuse 
and incompetence at the Department. I want to repeat that 
request today. They should not be allowed a free pass when 
lower-level officials, both political and career, are put on 
the hot seat. Just last week we have seen the Department claim 
that a letter didn't exist, only to find the letter Friday 
afternoon after Congress had adjourned.
    We have seen a Department tepidly defend itself against the 
findings of a GAO report which said that there were many 
excesses of $100 billion in individual assistance fraud in the 
wake of Hurricane Katrina and Rita. This report did not include 
the hundreds of millions of dollars in no-bid contracts the 
Department gave to its friends. And now the Department is 
defending a process which challenges conventional wisdom.
    Given the factors of the Department's poor track record, 
this committee must conduct aggressive oversight and bring the 
leadership responsible for the Department's problem before us. 
Otherwise, it will look like the Department is just doing bad 
business, as usual.
    Thank you, Mr. Chairman. And I look forward to the 
speakers, but I also look forward to having our Secretary and/
or his deputy before this committee to answer some questions. 
And I yield back.
    Chairman King. I thank you, Mr. Thompson, and I would 
assure you that we will be calling Secretary Chertoff before 
this committee for a number of issues, including Shirlington 
Limousine which is a separate issue, but you and I have 
discussed it, and I believe it is a very, very significant 
issue.
    Chairman King. I would now like to ask the gentleman from 
Staten Island, Brooklyn, Congressman Fossella, to introduce 
Mayor Bloomberg.
    Mr. Fossella. Thank you, Chairman King and Ranking Member 
Thompson, all members of the Homeland Security Committee. 
First, let me thank you, Mr. Chairman, Mr. Thompson. Mr. 
Chairman, you have been a great spokesperson and a great leader 
on all issues relating to homeland security, especially the 
recent debacle as has been referenced in terms of homeland 
security funding.
    It is my pleasure to introduce to the committee the Mayor 
of the city of New York, the Honorable Michael Bloomberg. Mayor 
Bloomberg is a tireless advocate for New York City and has done 
a tremendous job ensuring New Yorkers can go about their daily 
lives without living under the constant fear of another 
terrorist attack. Mayor Bloomberg's vigilance has been 
confirmed in the recent conviction of the Herald Square bombing 
plot. Furthermore, the Mayor has been a leader in the struggle 
for more rational distribution of homeland security funds since 
day one. He, working with the entire New York delegation and 
others, helped get the Urban Security Initiative program 
started to begin with.
    I know the Mayor has come to Washington many times to meet 
with both Congress and the executive branch to push for risk-
based homeland security funding because lives are truly at 
risk; not just the millions of people who live in New York 
City, but the many, many more millions who come and visit on an 
annual basis. I am confident the testimony today will bring 
light for the committee and for the country, while New York 
deserves its full and fair share of homeland security funding.
    Also, I would like to introduce Commissioner Ray Kelly, the 
Police Commissioner of the City of New York, as someone who 
represents, as you mentioned Staten Island and Brooklyn, home 
to thousands of police officers, the greatest in the country. I 
know that Mayor Kelly--Commissioner Kelly has done an 
outstanding job standing side by side with Mayor Bloomberg. 
Appointed by Mayor Bloomberg, Commissioner Kelly is the first 
person to hold the post for the second separate tenure. Among 
his many duties, Commissioner Kelly oversees the police 
department's antiterrorism efforts through both the 
counterterrorism unit and intelligence unit of the New York 
City Police Department.
    Among many operations and exercises, Operation Atlas 
enables the police department to mount a coordinated defense of 
the city. I applaud his efforts in leading New York City Police 
Department to be recognized as the best antiterror police force 
in the country, and, I would say, the world. No city faces the 
risk that New York City does. The Mayor and Police Commissioner 
deserve our thanks for creating innovative strategies to 
prevent terrorist attacks, to keeping the boots on the ground, 
and I look forward to their testimony. Thank you, Mr. Chairman.
    Chairman King. Thank you, Congressman Fossella.
    Chairman King. I will now recognize Mayor Bloomberg. Mayor 
Bloomberg, we generally have a 5-minute rule here, but I have 
discussed this with the Ranking Member, and due to the 
importance of this topic, you and Mayor Williams will allow--it 
is your discretion as to how long you wish to testify. And then 
we will proceed to ask you questions.
    Anyway, the Chair is now privileged to recognize Michael 
Bloomberg. The Mayor of the city of New York is recognized.

  STATEMENT OF THE HON. MICHAEL BLOOMBERG, MAYOR, CITY OF NEW 
                         YORK, NEW YORK

    Mayor Bloomberg. Chairman King and Congressman Thompson, 
members of the committee, thank you and good morning. I promise 
I won't talk for more than an hour and a half.
    One thing that Congressman Fossella failed to mention when 
he described Police Commissioner Kelly's experience, he not 
only has been the Commissioner of the NYPD twice, he has held 
every single rank in the New York City Police Department, 
starting out as a cop on the beat and working his way up. So 
certainly his experience in how to provide the kind of security 
the city needs is without parallel.
    Let me thank you, Chairman King, for calling this hearing. 
It is more evidence, I think, of your long standing principled 
determination to make risk and threat the basis for homeland 
security funding. Today's hearing is entitled, ``DHS 
Preparedness Grants: Risk-Based or Guess-Work?'' That question 
I think certainly captures the sense of bafflement produced by 
DHS's recent allocation of Urban Areas Security Initiative 
funds, or AISI funds, for fiscal year 2006.
    New York City and Washington, D.C, represented this morning 
by my colleague and copanelist and friend, Mayor Anthony 
Williams, have been and continue to be the Nation's prime 
targets for terrorist attack. New York is the Nation's 
financial capital, its media center, and the headquarters of 
the United Nations, for which the NYPD provides security and 
for which services our city is currently owed some $75 million 
by the U.S. State Department. This is debt that has accumulated 
over the years. Perhaps this is what the critics of the United 
Nations are referring to when they rile against deadbeats at 
the United Nations.
    Our prominence explains why the streets of lower Manhattan 
were the first battleground, and the war on terror and New York 
City and the Nation's Capital remain the only American cities 
to have sustained terrorist attacks originating from overseas.
    The written testimony that I am submitting to the committee 
discusses 18 separate planned, attempted, or successful attacks 
in New York City, 18 in our city's history with terrorism. They 
go back to 1990, and include al Qaeda's abortive plot, 
according to recent reports, to release deadly cyanide gas in 
our subway system in early 2003.
    Yet, despite this history, DHS's grant allocation reduces 
Federal support for vital antiterrorist activities in New York 
City by 40 percent. This is $83 million less than we received 
from DHS last year. The logic of that is, to borrow the words 
of Winston Churchill, truly a riddle wrapped in a mystery 
inside an enigma. That is not because there has been any 
shortage of explanations from DHS. On the contrary, we have 
heard an abundance of them. But none has satisfactorily 
answered the question: How could a rational process produce 
such a dysfunctional conclusion?
    The Department of Homeland Security was created in November 
2002. From the outset, New York City has energetically taken 
the lead before Congress, at the White House, and in testimony 
to the 9/11 Commission. In arguing DHS grants, the localities 
should be allocated solely on the basis of threat and risk. 
Former DHS Secretary Tom Ridge repeatedly told us that those 
were the criteria he would apply to local funding if he were 
freed from congressional restrictions, that DHS funds be 
allocated using a per capita formula.
    In response to our arguments, the UASI program was 
established in fiscal year 2003. It has always been intended 
for high-threat cities. New York City and Washington, D.C. were 
originally on a list of just seven such high-risk cities. But 
in typical fashion, that number subsequently ballooned to 50, 
and, in this fiscal year, stands at 46. Is this the spirit of 
high-threat allocation? No. Instead, it makes the program the 
exact kind of political pork barrel it was specifically 
designed to avoid, contributing to the preposterous 
underfunding of homeland security in New York City for the 
current fiscal year.
    It is a typical example of say one thing for the press 
avail and do something quite different. And it makes the fiscal 
year 2005 Department Secretary's discretion to avoid 60 percent 
of homeland security block grant money based on risk a sad 
joke. This was to be a step forward, although we continue to 
believe that all homeland security grants should be based 
solely on risk, but the redefining of risk to include something 
for everyone leads us right back where we started.
    Now, I applaud this committee's decision to review the 
entire decision-making process and methodology used by DHS in 
awarding its grants, because it is a process that appears to be 
fundamentally broken. I suggest you take a wide-ranging 
approach to reassess the example for--to reassess, for example, 
the role of the peer review panels that evaluated funding 
applications. I urge you to ask if by reviewing requests to 
protect more than a quarter million critical infrastructure 
facilities across the Nation, the DHS committed the classic 
error of losing sight of the forest for all those trees. Just 
because a facility is critical doesn't make it a likely target, 
and that is the test that ought to be met in allocating high-
risk funds.
    I also hope you will also revisit Congress's prohibition on 
using DHS funds for so-called target-hardening construction 
projects that would make infrastructure installations less 
vulnerable to attack. Isn't prevention what we should be 
striving for in response to a fallback position?
    I would especially ask you to focus on DHS's clearly and 
frequently stated predisposition against providing grants to 
support recurring costs, what they choose to call supplanting 
local effort. For New York City, this is really the heart of 
the matter. This bias on the part of DHS penalizes us for our 
aggressiveness and diligence in protecting our city. To better 
protect New York City, we will invest close to a billion 
dollars over the next 4 years in counterterrorism initiatives. 
From hardening our bridges and upgrading our communications 
infrastructure to implementing a comprehensive security plan 
for the lower Manhattan financial district, these projects are 
crucial to protecting all New Yorkers.
    In addition, to guard our city against terrorist attacks, 
we already spend more than $250 million per year of our 
taxpayers' money in annual operating expenses. In the face of 
such substantial needs, DHS's refusal to pay recurring costs 
puts unnecessary burdens on our city.
    After 9/11, for example, New York City very sensibly 
increased aerial surveillance of our watershed reservoirs, but 
DHS has denied requests for funds to support this program on 
the grounds that since New York City has been covering the 
costs ourselves, we can just continue to do so. Under that 
reasoning, if we had been negligent and had not stepped up 
these surveillance flights, than we would now be eligible for 
Federal funds to start them, a prime example of dysfunctional 
bureaucratic logic.
    As I have said repeatedly, we will do everything possible 
to protect our city and then find a way to pay for it. But 
having the Federal Government penalize us for doing what is 
right is hardly a sensible national policy. DHS's bias against 
supporting recurring local costs punishes New York City for the 
effectiveness of all of our locally funded counterterrorism and 
intelligence activities, efforts which have been deemed models 
for the Nation by former Secretary Ridge, FBI Director Robert 
Mueller, and other leaders in the counterterrorism community, 
both inside and outside of government. I would argue that they 
are better qualified to judge the effectiveness of our efforts 
than are members of a peer review panel who may not live in 
major urban areas.
    In particular, consider two of the NYPD's key initiatives. 
First, its Counterterrorism Bureau, which is so highly regarded 
that it has provided training to more than 800 Federal 
employees including employees of the Department of Homeland 
Security. And second, there is Operation Atlas, which deploys 
specifically trained and specially equipped patrol units to 
protect the city's landmarks and critical transportation and 
financial infrastructure.
    The effectiveness of such security was demonstrated in 
2003. After repeated reconnaissance, an al Qaeda operative 
called off the attempted sabotage of the Brooklyn Bridge, 
telling his controllers that ``the weather is too hot,'' a 
coded reference to the intense security on the bridge and in 
the waters of the East River. That plot was not foiled by 
satellite-guided technology or other high-tech equipment. What 
protected our city was good old-fashioned boots on the ground. 
And that is precisely why we continue to assign approximately 
1,000 of NYPD's best officers to the Department's 
counterterrorism and insurance--intelligence divisions.
    This year we asked DHS to support both the Counterterrorism 
Bureau and Operation Atlas, but unfortunately we have been told 
that the Department does not intend to help cover such day-to-
day personal expenses. Members of the committee, I hardly know 
where to begin in stating my disagreement. But essentially the 
question is whether you think, as we do, that investment in 
people is as valuable as purchases of hardware and protecting 
our country. There is no doubt in my mind what the answer is. 
Nor is there doubt in the minds of Commissioner Kelly or other 
experts in the realm of counterterrorism and 
counterintelligence or terrorism, or in the minds of the 
American people. The only doubt seems to arise from the 
bureaucratic ``group think'' at DHS which has produced such a 
nonsensical conclusion. Time and again, human intelligence has 
disrupted terrorism planning from a plot to bomb a major subway 
station in our city during the 2004 National Republican 
Convention to the conspiracy revealed earlier this month to 
attack targets in Ontario, Canada.
    To make the most of human intelligence, we must train 
police officers throughout their careers how to contend with 
emerging threats and how to use the equipment that Federal 
funds may purchase, and we need ongoing Federal partnership in 
that effort.
    It is clear to me that we are still too slow in learning 
the most basic lesson of 9/11, that we now live in a 
fundamentally altered world, one requiring that we think anew 
and act anew. In the area of homeland security, that means 
establishing a dynamic partnership for the long haul between 
Federal and local authorities. We must, for example, recognize 
that the ongoing and painstaking work of training intelligence 
analysts in the NYPD is a shared responsibility, one vital to 
all Americans.
    Over the years, we have fought long and hard for the 
rational allocation of homeland security funds on the basis of 
risk. Now, sadly, we are losing the ground that we had gained. 
I hope this hearing begins the process of setting things right 
again. Thank you very much.
    Chairman King. Thank you, Mayor Bloomberg.
    [The statement of Mayor Bloomberg follows:]

     Prepared Statement of the Honorable Mayor Michael R. Bloomberg

    Chairman King; Congressman Thompson; members of the committee: Good 
morning. Thank you for inviting me to testify before you, and let me 
introduce to the members of the committee New York City's Police 
Commissioner, Raymond Kelly.
    I want to thank you, Chairman King, for calling this hearing. It's 
more evidence of your longstanding, principled determination to make 
risk and threat the basis for Homeland Security funding.
    Today's hearing is entitled "DHS Preparedness Grants: Risk-Based or 
Guesswork?" That question certainly captures the sense of bafflement 
produced by DHS's recent allocation of Urban Area Security Initiative, 
or "UASI," funds for Fiscal Year 2006.
    New York City and Washington DC-represented this morning by my 
colleague and co-panelist, Mayor Anthony Williams-have been, and 
continue to be, the nation's prime targets for terrorist attack.
    New York is the nation's financial capital. its media center. and 
the headquarters city of the United Nations, for which the NYPD 
provides security, and for which services our city is currently owed 
some $75 million by the U.S. State Department. This is debt that has 
accumulated for years; talk about "deadbeats" at the UN!
    Our prominence explains why the streets of Lower Manhattan were the 
first battleground in the war on terror. And New York City and the 
nation's capital remain the only American cities to have sustained 
terrorist attack originating from overseas.
    The written testimony that I am submitting to the committee 
discusses 18 separate planned, attempted, or successful attacks in New 
York City-18 chapters in our city's history with terrorism. They go 
back to 1990, and include al-Qaeda's aborted plot-according to recent 
reports-to release deadly cyanide gas in our subway system in early 
2003.
    Yet despite this history, DHS's grant allocation reduces Federal 
support for vital anti-terrorist activities in New York City by 40%. 
This is $83 million less than we received from DHS last year.
    The logic of that is, to borrow the words of Winston Churchill, 
truly "a riddle, wrapped in a mystery, inside an enigma."
    That's not because there has been any shortage of explanations from 
DHS; on the contrary, we've heard an abundance of them. But none has 
satisfactorily answered the question: "How could a rational process 
produce such a dysfunctional conclusion?"
    The Department of Homeland Security was created in November, 2002. 
From the outset, New York City has energetically taken the lead-before 
Congress, at the White House, and in testimony to the 9/11 Commission-
in arguing that DHS grants to localities should be allocated solely on 
the basis of risk and threat.
    Former DHS Secretary Tom Ridge repeatedly told us that those were 
the criteria he would apply to local funding if he were freed from 
Congressional restrictions that DHS funds be allocated using a per 
capita formula.
    In response to our arguments, the UASI program was established in 
Fiscal Year 2003. It has always been intended for "high-threat" cities. 
New York City and Washington DC were originally on a list of just seven 
such high-risk cities.
    But, in typical fashion, that number subsequently ballooned to 50, 
and, in this fiscal year stands at 46. Is this the spirit of "high-
threat" allocation? No! Instead, it makes the program the kind of 
political pork barrel it was specifically designed to avoid, 
contributing to the preposterous under-funding of Homeland Security in 
New York City for the current fiscal year.
    Also because of our efforts, in Fiscal Year 2005, the Department's 
Secretary was given discretion to award 60% of Homeland Security block-
grant money based on risk. This was a step forward, although we 
continue to believe that all Homeland Security grants should be based 
solely on risk.
    I applaud this committee's decision to review the entire decision-
making procedure and methodology used by DHS in awarding its grants, 
because it is a process that appears to be fundamentally broken.
    I suggest you take a wide-ranging approach-to reassess, for 
example, the role of the peer review panels that evaluated funding 
applications.
    I hope you will also revisit Congress's prohibition on using DHS 
funds for so-called "target hardening" construction projects that would 
make infrastructure installations less vulnerable to attack.
    I urge you to ask if, by reviewing requests to protect more than a 
quarter-million "critical" infrastructure facilities across the nation, 
DHS committed the classic error of losing sight of the forest for all 
those trees. Just because a facility is "critical" doesn't make it a 
likely target-and that's the test that ought to be met in allocating 
"high-threat" funds.
    I would especially ask you to focus on DHS's clearly and frequently 
stated predisposition against providing grants to support recurring 
costs-what they choose to call "supplanting" local effort.
    For New York City, this is the heart of the matter. This bias on 
the part of DHS penalizes us for our aggressiveness and diligence in 
protecting our city.
    To guard our city against terrorist attack, we spend more than $250 
million per year of our taxpayers' money in annual operating expenses. 
In addition, to better protect New York City, we need to invest close 
to $1 billion over the next four years in counter-terrorism 
initiatives. From hardening our bridges and upgrading our 
communications infrastructure to implementing a comprehensive security 
plan for the Lower Manhattan financial district, these projects are 
crucial to protecting all New Yorkers.
    In the face of such substantial needs, DHS's refusal to pay 
recurring costs puts unnecessary burdens on our city. After 9/11, for 
example, New York City very sensibly increased aerial surveillance of 
our watershed reservoirs. But DHS has denied requests for funds to 
support this program on the grounds that, since New York City has been 
covering the costs ourselves, we can just continue to do so.
    Under that reasoning, if we'd been negligent, and not stepped up 
these surveillance flights, then we'd now be eligible for Federal funds 
to start them-a prime example of dysfunctional bureaucratic logic.
    DHS's bias against supporting recurring local costs punishes New 
York City for the effectiveness of all our locally funded counter-
terrorism and intelligence activities-
    Efforts which have been deemed models for the nation by former 
Secretary Ridge, FBI Director Robert Mueller, and other leaders in the 
counter-terrorism community, both inside and outside of government. I 
would argue that they're better qualified to judge the effectiveness of 
our efforts than are members of a peer review panel who may not live in 
major urban areas.
    In particular, consider two of the NYPD's key initiatives: First, 
its Counter-Terrorism Bureau, which is so highly regarded that it has 
provided training to more than 800 Federal employees-including 
employees in the Department of Homeland Security.
    And second, there is Operation Atlas, which deploys specially 
trained and equipped patrol units to protect the city's landmarks and 
critical transportation and financial infrastructure.
    The effectiveness of such security was demonstrated in 2003. After 
repeated reconnaissance, an al-Qaeda operative called off the attempted 
sabotage of the Brooklyn Bridge, telling his controllers that "the 
weather is too hot"-a coded reference to the intense security on the 
bridge and in the waters of the East River.
    That plot was not foiled by satellite-guided technology or other 
high-tech equipment; what protected our city was good old-fashioned 
"boots on the ground." And that is precisely why we continue to assign 
approximately 1,000 of the NYPD's best officers to the department's 
counter-terrorism and intelligence divisions.
    This year, we asked DHS to support both the Counter-Terrorism 
Bureau and Operation Atlas. But unfortunately, we have been told that 
the Department does not intend to help cover such day-to-day personnel 
expenses.
    Members of the committee, I hardly know where to begin in stating 
my disagreement. But essentially, the question is whether you think, as 
we do, that investments in people are as valuable as purchases of 
hardware in protecting our country.
    There is no doubt in my mind what the answer is. Nor is there doubt 
in the minds of Commissioner Kelly, or other experts in the realm of 
counter-intelligence and terrorism, or in the minds of the American 
people. The only doubt seems to arise from the bureaucratic "group 
think" at DHS, which has produced such a nonsensical conclusion.
    Time and again, human intelligence has disrupted terrorist 
planning, from the plot to bomb a major subway station in our city 
during the 2004 Republican National Convention, to the conspiracy 
revealed earlier this month to attack targets in Ontario, Canada.
    To make the most of human intelligence, we must train police 
officers throughout their careers in how to contend with emerging 
threats, and how to use the equipment that Federal funds may purchase. 
And we need ongoing Federal partnership in that effort.
    It's clear to me that we are still too slow in learning the most 
basic lesson of 9/11: That we now live in a fundamentally altered 
world, one requiring that we think anew and act anew.
    In the area of Homeland Security, that means establishing a dynamic 
partnership, for the long haul, between Federal and local authorities. 
We must, for example, recognize that the ongoing and painstaking work 
of training intelligence analysts in the NYPD is a shared 
responsibility-one vital to all Americans.
    Over the years, we have fought long and hard for the rational 
allocation of Homeland Security funds on the basis of risk. Now, sadly, 
we are losing ground we have gained. I hope that this hearing begins 
the process of setting things right.

                              Attachment 1

History of New York City and Terrorist Activities
    New York City's recent history with terror threats and attacks, as 
summarized below, belies any thought that the time has come to reduce 
our vigilance:
    1. November 5, 1990: El Sayyid Nosair shot JDL leader Meir Kahane 
in front of the Marriot East Side Hotel in Manhattan. Nosair would 
later become a co-conspirator with blind sheikh Omar Abdul Rahman in a 
plot to destroy New York City tunnels and bridges.
    2. February 26, 1993: New York City sustained the first terrorist 
attack on the World Trade Center, in which six innocent people were 
killed.
    3. In the same year, 1993, an al Qaeda plot to destroy the Holland 
and Lincoln tunnels, the George Washington Bridge, and United Nations 
Headquarters was uncovered, and the plotters successfully prosecuted.
    4. March 1, 1994: Rashid Baz, a Palestinian angered by an Orthodox 
Jew's attack on a Muslim holy site, drove his livery cab to the 
Brooklyn Bridge where he opened fire on a van occupied by Hassidic 
students, killing one of them - 16-year-old Ari Halberstam.
    5. February 23, 1997: Abu Kamel, a Palestinian residing in Florida, 
selected the Empire State Building to carry out his intent of 
"annihilating" perceived enemies. He went to the observation deck on 
the 86th floor and shot seven people, including a Danish tourist who 
was killed. Kamel then turned the gun on himself and committed suicide.
    6. July 31, 1997: the New York City Police Department stopped a 
plot at the last minute to bomb the subway complex at Atlantic Avenue 
in Brooklyn. The bombers were assembling the devices when police 
officers entered their apartment and shot and wounded them before they 
could detonate the bombs.
    7. September 11, 2001: The World Trade Center was destroyed by al 
Qaeda with the loss of 2,700 lives.
    8. October 2001: In the space of a week, employees and visitors of 
the New York Post, NBC, CBS, and ABC News in New York City fall victim 
to anthrax attacks. Later the same month a New York City woman died of 
inhalation anthrax because of cross contamination of mail she handled 
at work with that of the targeted media.
    9. June 2002: Security personnel from Iran's Mission to the United 
Nations were observed by NYPD videotaping landmarks and infrastructure. 
They were expelled from the United States by the State Department 
because of their suspicious activities.
    10. Late 2002 and early 2003: Al Qaeda operative Iyman Faris, on 
orders from his handlers overseas, twice examined the Brooklyn Bridge 
to evaluate the feasibility of destroying it.
    11. Early 2003: According to published reports, United State 
authorities were concerned that Al Qaeda operatives had made plans to 
carry out a chemical attack on the New York City subway system, but 
American intelligence authorities concluded that the plot ultimately 
had been abandoned. The alleged attack called for using an improvised 
device to release cyanide into subway cars or other public spaces.
    12. November 2003: Two more security personnel assigned to Iran's 
Mission to the United Nations were caught by the NYPD video taping 
tracks and tunnel of the Number 7 subway line as it entered the tunnel 
under the East River. They returned to Iran soon after the incident.
    13. April 10, 2004: Al Qaeda operative Mohammad Babar was arrested 
by NYPD detectives and FBI agents in Queens, New York for his role in a 
plot to bomb pubs, restaurants and train stations in London.
    14. June 2004: Once again, two more security personnel from Iran's 
Mission to the United Nations were caught - this time by the FBI - 
videotaping sensitive locations in New York. Suspected of conducting 
reconnaissance of New York City landmarks and infrastructure, they were 
again expelled by the State Department.
    15. July 2004: A laptop computer of an al Qaeda operative overseas 
is recovered. On it are detailed reconnaissance plans that show al 
Qaeda operatives had been in New York City to plan an attack on the New 
York Stock Exchange, Citigroup headquarters in mid-town Manhattan and 
the Prudential building across the river in Newark.
    16. August 2004: A week before the convening of the Republican 
National Convention two Islamic radicals from Brooklyn were arrested in 
a plot to bomb the Herald Square subway station. One pleaded guilty and 
cooperated with the investigation. The other was convicted in Federal 
court earlier this month. He was found guilty on all four counts.
    17. November 2005: Uzair Paracha, a Pakistani-born resident of New 
York City, was convicted of providing material support to al Qaeda. 
While residing in New York, Uzair posed as an al Qaeda operative who 
wanted to disguise the fact that he had entered Pakistan illegally. 
Paracha's father, who had met Osama Bin Laden, was part owner in a 
Manhattan garment district business. It was suspected that Paracha's 
ultimate goal was to use that business's shipping containers to smuggle 
weapons and explosives into New York City
    18. And finally only a few weks ago, on June 6: Syed Hashmi, a 
Queens resident active in the New York City chapter of a radical 
Islamic group known as al-Mujairoun, was arrested in London where he 
was engaged in providing material support for al Qaeda fighters in 
Afghanistan.

                              Attachment 2


----------------------------------------------------------------------------------------------------------------
            Urban Area                        2006                     2005               Percentage  Change
----------------------------------------------------------------------------------------------------------------

---------------------Phoenix-----------------$3,920,000---------------$9,996,463----------------------60.79%----
----------------------------------------------------------------------------------------------------------------
          Anaheim/Santa Ana*                 11,980,000               19,825,462                      -39.40
----------------------------------------------------------------------------------------------------------------
               Bay Area, CA*                 28,320,000               33,226,729                      -14.50
----------------------------------------------------------------------------------------------------------------
                            Los Angeles/Long 80,610,000               69,235,692                       13.80
----------------------------------------------------------------------------------------------------------------
                  Sacramento                  7,390,000                6,085,663                       17.30
----------------------------------------------------------------------------------------------------------------
                   San Diego                  7,990,000               14,784,191                         -46
----------------------------------------------------------------------------------------------------------------
                      Denver                  4,380,000                8,718,395                      -49.75
----------------------------------------------------------------------------------------------------------------
 National Capital Region--DC                 46,470,000               77,500,000                      -40.20
----------------------------------------------------------------------------------------------------------------
                        Ft. Lauderdale        9,980,000                      N/A      ..........................
----------------------------------------------------------------------------------------------------------------
                Jacksonville                  9,270,000                6,882,493                          26
----------------------------------------------------------------------------------------------------------------
                       Miami                 15,980,000               15,828,322                        0.95
----------------------------------------------------------------------------------------------------------------
                     Orlando                  9,440,000                      N/A      ..........................
----------------------------------------------------------------------------------------------------------------
                       Tampa                  8,800,000                7,772,791                       11.50
----------------------------------------------------------------------------------------------------------------
                     Atlanta                 18,660,000               13,117,499                       29.60
----------------------------------------------------------------------------------------------------------------
                    Honolulu                  4,760,000                6,454,763                      -26.47
----------------------------------------------------------------------------------------------------------------
                     Chicago                 52,260,000               45,000,000                       13.80
----------------------------------------------------------------------------------------------------------------
                Indianapolis                  4,370,000                5,664,822                      -13.10
----------------------------------------------------------------------------------------------------------------
                            Louisville        8,520,000                5,000,000                       41.20
----------------------------------------------------------------------------------------------------------------
                 Baton Rouge                  3,740,000                5,226,495                      -28.57
----------------------------------------------------------------------------------------------------------------
                 New Orleans                  4,690,000                9,305,180                      -49.50
----------------------------------------------------------------------------------------------------------------
                      Boston                 18,210,000               26,000,000                      -28.57
----------------------------------------------------------------------------------------------------------------
                   Baltimore                  9,670,000               11,305,357                      -14.53
----------------------------------------------------------------------------------------------------------------
                     Detroit                 18,630,000               17,068,580                        8.26
----------------------------------------------------------------------------------------------------------------
                 Twin Cities                  4,310,000                5,763,411                      -25.37
----------------------------------------------------------------------------------------------------------------
                 Kansas City                  9,240,000                8,213,126                       11.50
----------------------------------------------------------------------------------------------------------------
                        St. Louis             9,200,000                7,040,739                       23.66
----------------------------------------------------------------------------------------------------------------
                   Charlotte                  8,970,000                5,479,243                       39.02
----------------------------------------------------------------------------------------------------------------
                       Omaha                  8,330,000                5,148,300                       38.27
----------------------------------------------------------------------------------------------------------------
         Jersey City/Newark*                 34,330,000               19,172,120                       44.13
----------------------------------------------------------------------------------------------------------------
                            Las Vegas         7,750,000                8,456,728                       -8.26
----------------------------------------------------------------------------------------------------------------
                     Buffalo                  3,710,000                7,207,995                      -48.45
----------------------------------------------------------------------------------------------------------------
               New York City                124,450,000              207,563,211                      -40.12
----------------------------------------------------------------------------------------------------------------
                  Cincinnati                  4,660,000                5,866,214                      -20.63
----------------------------------------------------------------------------------------------------------------
                   Cleveland                  4,730,000                7,385,100                      -35.90
----------------------------------------------------------------------------------------------------------------
                    Columbus                  4,320,000                7,573,005                      -42.86
----------------------------------------------------------------------------------------------------------------
                      Toledo                  3,850,000                5,307,598                      -27.54
----------------------------------------------------------------------------------------------------------------
               Oklahoma City                  4,102,000                5,570,181                      -26.47
----------------------------------------------------------------------------------------------------------------
                    Portland                  9,360,000               10,391,037                       -9.90
----------------------------------------------------------------------------------------------------------------
                Philadelphia                 19,520,000               22,818,091                      -14.53
----------------------------------------------------------------------------------------------------------------
                  Pittsburgh                  4,870,000                9,635,991                      -49.50
----------------------------------------------------------------------------------------------------------------
                     Memphis                  4,200,000                      N/A      ..........................
----------------------------------------------------------------------------------------------------------------
           Dallas/Ft. Worth*                 13,830,000               19,283,018                     *-28.06
----------------------------------------------------------------------------------------------------------------
                     Houston                 16,670,000               18,570,464                       -9.90
----------------------------------------------------------------------------------------------------------------
                 San Antonio                  4,460,000                5,973,524                      -25.37
----------------------------------------------------------------------------------------------------------------
                     Seattle                  9,150,000               11,840,034                      -22.49
----------------------------------------------------------------------------------------------------------------
                   Milwaukee                  8,570,000                6,325,872                       25.93
----------------------------------------------------------------------------------------------------------------
                                           $710,622,000             $824,583,899
----------------------------------------------------------------------------------------------------------------
*Urban areas were combined in
        FY06, but were funded
        individually in FY05.
----------------------------------------------------------------------------------------------------------------
----------------------------------------------------------------------------------------------------------------

                              Attachment 3

New York City UASI Application Summary
    In December of 2005, OMB sent a memorandum to the affected City 
agencies explaining a new competitive process that was required by DHS 
for Federal Fiscal Year 2006 Homeland Security grant funding. Each 
agency conducted a comprehensive survey of the counter terrorism needs 
for their department, and prepared a submission.
    After receiving input from the agencies, NYC OMB prepared a total 
of 15 proposed "investments," the term used by DHS to describe the 
initiatives for which funding is sought. The City's application sought 
a total of $458.8 million. The categories of investments were:

    $81.5 million for the Lower Manhattan Security Initiative;
    $100 million for the Counter Terrorism Bureau and Operation Atlas; 
and
    $38.2 million for Counter Terrorism equipment and training.
    $27.4 million for FDNY Tiered Response Matrix for response to CBRNE 
and other disasters
    $13 million to Continue FDNY implementation of NIMS and the 
National Response Plan
    $5.5 million for FDNY Critical Resource Logistics and Grant Program 
Management
    $7.7 million for FDNY Critical Infrastructure Protection and 
Recovery
    $6 million for FDNY Strategic Management and Planning
    $12 million for FDNY: Protection of the Waterfront (Critical 
Infrastructure Protection)
    $82 million for Interoperable Communications
    $40 million for DOT East River Bridge Hazard Mitigation Program
    $21.3 million for DoHMH: Enhance Public Health Response Capacity
    $10.8 million for NYC HHC: Public Hospital Preparedness and NIMS 
Training
    $8.5 million for NYC DEP: Critical Infrastructure Protection and 
HazMat
    $3.8 million for NYC OEM Citizen Preparedness and Public Outreach
    Upon receipt of the City's grant application, the State Office of 
Homeland Security forwarded the application to DHS properly and on 
time.

    Chairman King. I now will recognize the gentlelady from the 
District of Columbia, Eleanor Holmes Norton, to introduce my 
friend and neighbor, Mayor Williams.
    Ms. Norton. Thank you very much, Mr. Chairman. Mayor Tony 
Williams was the appointed Chief Financial Officer before he 
was elected Mayor of the District of Columbia almost 8 years 
ago. That is not the usual job track to become mayor of a city 
like this. Mayor Williams intends to leave office this year, 
and he is going to leave office on the same high note he 
entered office, a high note of success, deciding not to run for 
a third term. He lives with a remarkably memorable record. 
There will be lots to remember him by in this city, and 
Members, I am not just talking about the Nationals or the new 
baseball stadium.
    Mayor Williams is going to be remembered as the mayor who 
was the chief actor in the city's rise from the virtual dust to 
become one of the hottest cities to live in and to do business 
in. And he will certainly be remembered as the 9/11 mayor for 
his strong leadership when the National Capital Region was 
attacked and for his work in helping to secure this city and 
this region.
    So I thank you, Mr. Chairman, for inviting Mayor Williams 
to offer what is surely a unique perspective on the issues 
before us today.
    Chairman King. Mayor Williams, you are recognized.

    STATEMENT OF THE HON. ANTHONY WILLIAMS, MAYOR, CITY OF 
                WASHINGTON, DISTRICT OF COLUMBIA

    Mayor Williams. Mr. Chairman, thank you for the opportunity 
to testify. Thank you for your work in this city. I have gotten 
to know you, as you say, as a friend and neighbor, admire your 
work, and certainly thank you for this opportunity.
    Ranking Member Thompson, thank you as well for your 
leadership on the committee, and certainly I want to thank my 
own Congresswoman, Eleanor Holmes Norton, for her work in this 
Congress where I think she does a fantastic job for our city, 
even though she is denied a voting role in the Congress.
    I am joined today by Ed Reiskin, my Deputy Mayor For Public 
Safety and Justice as well as Chief Charles Ramsey of the 
Metropolitan Police Department. The three of us will be 
available to answer your questions. I also want to recognize my 
colleague and friend, Mayor Bloomberg, as well as Commissioner 
Kelly, and, as I always do in whatever setting, whether I am in 
front of him or not, commend Mayor Bloomberg for the fantastic 
job I think he has done in New York City. He really is an 
example for all of us as mayors, what we can do with our 
cities. So thank you, Mayor, for the leadership you are 
providing in this area, in the area of public safety, a couple 
weeks ago with gun violence, and in so many different areas.
    Indeed, Mr. Chairman, as you have remarked and 
Congresswoman Norton has remarked, September 11, 2001 really 
did signify a new day, and with that new day came a requirement 
for a significantly heightened level of capability to respond 
to disasters and major events. This requirement was especially 
true here in the region where one of the hijacked planes struck 
its intended target in the Pentagon and here in the District 
where the fourth plane was heading. Soon thereafter, the 
targeting of the Nation's capital via the anthrax attack 
further demonstrated the risk faced by the Nation's capital; 
indeed, by the U.S. Capitol complex.
    We responded quickly and aggressively in the District, 
aided by $169 million in Federal funds. We enhanced existing 
systems and developed new capabilities to respond and to 
prevent terrorist attacks. We upgraded our operation centers 
and response plans. We purchased equipment for and provided 
training to our first responders. We expanded our radio network 
coverage so it would work throughout the District, including 
inside of buildings and even underground in the Metro system.
    In the region, I joined with the Governors of Maryland and 
Virginia in developing and signing a joint statement to pursue 
``Eight Commitments to Action,'' we called it, to improve the 
coordination in preventing, preparing for, and responding to a 
terrorist attack. The significant local and Federal funds that 
have enabled us to build and sustain capability might beg the 
question of whether more resources are needed. I think the 
answer to that question is clearly and emphatically a yes. 
Preparedness, as we have heard from Mayor Bloomberg and as I 
think this committee knows, is an ongoing dynamic and complex 
process. We have some of the most experienced professionals in 
the District and the region working every day to improve our 
safety and security, and their efforts should give comfort to 
those who live, who work, and who visit here, but we remain, 
and I emphasize this--we remain a high-risk area, and we have 
significant unmet needs.
    Much of the post-9/11 activity focused on response, but the 
recent arrests in Canada--and that is just one example--
demonstrate the importance of prevention. And I think as Mayor 
Bloomberg has pointed out the importance of prevention on a 
human scale, involving real people and intelligence, I think 
demonstrates that. And I think the current state of the city of 
New Orleans demonstrates the importance of recovery and the 
need to address systems and operations people and process 
there.
    In developing, in fact in defending our application for the 
fiscal year 2006 Homeland Security Grant program, the District 
identified over $37 million in needs including incident 
response, critical infrastructure protection, and interoperable 
communications and mass care.
    For the region, we identified more than $250 million in 
needs, which brings us to the question of risk and 
effectiveness in this process. The process we undertook to 
develop our application was defined by a new approach to 
homeland security funding developed by the Department of 
Homeland Security. That process was firmly grounded in the 
national preparedness goal, and it used what was called a risk-
based approach to allocate funds, which all of us in the 
abstract strongly support.
    Who wouldn't support a risk-based approach as opposed to a 
pork-barrel approach--door number A, risk approach; door number 
B, pork barrel objective risk approach, who wouldn't? But while 
we understood that fewer funds were available, we assumed that 
with a publicly stated commitment to a more risk-based 
approach, the District and the National Capital Region would 
receive a higher proportion, if not the amount of the funds 
than we had in previous fiscal years due to the clearly high 
level of risk that we face, which brings us to funding 
allocation results.
    We were therefore surprised, to say the least, to learn 2 
weeks ago that the awards to the District and the region were 
40 percent less than the previous year. In the District, we 
received 53.5 percent less in the main State program, the State 
Homeland Security Grant program, compared to the program's 
national decline of 50.3 percent. For the District of Columbia, 
seat of the Federal Government, the Supreme Court, the FBI 
Headquarters, Homeland Security Operations Center, the 
Washington Monument--and I could go on and on and on--and 
countless other key national installations, national icons, 
critical Federal functions, the Department determined that we 
faced less risk than 75 percent of the Nation's States and 
territories. Further, they found that our proposal was in the 
bottom 50 percent in terms of effectiveness.
    To me, the effectiveness assessments are puzzling for two 
main reasons. First, for both the District and the region, the 
information provided by the Department of Homeland Security 
showed almost every element of the proposals to be at or above 
average. And a senior Homeland Security official told a 
congressional committee last week emphatically and repeatedly 
that our proposal was sound.
    Second and more noteworthy, the experts who provided the 
analysis which led to the development of the application and 
who provided the content for it are among the most experienced 
managers, planners, and responders in the country. These 
experts--and I want to emphasize this--these experts have 
responded successfully to many incidents despite the complex 
nature of our governance and operation structure here in the 
National Capital Region due to their high-level of expertise 
and professionalism and to the extensive coordination and 
collaboration that occurs here every day.
    My conclusion, Mr. Chairman and members of the committee, 
is that we fully support the intent of the Department to a more 
objective, transparent and risk-based approach to the 
allocation of scarce resources. However, we question two 
fundamental aspects of the process. First, is a risk analysis 
used by the Department of Homeland Security adequately 
assessing the relative risks faced by cities and States of our 
country?. When analysis finds the District of Columbia to be of 
low risk, which I find astounding, which results in less 
funding than provided to any other State in the Union, 
including less populous ones, to me the viability of analysis 
is questionable.
    Second, if the area is high risk but the approach in this 
proposal was found to be less effective, would the Federal 
Government not better advance the security of the homeland by 
working with the area to improve its approach than by reducing 
its funding? So I will close with these two points.
    First, the National Capital Region will not be less safe 
and secure and will not face more risk as a result of funding 
levels considerably lower than last year. We had capabilities 
in place prior to 9/11 and we have built significant additional 
capabilities since. Generally speaking, those capabilities are 
in place and will not--and will not diminish. But second, with 
the announced funding award, we will not be able to continue to 
improve our capability and therefore our preparedness, our 
prevention, as much or as quickly or as necessarily as we had 
expected.
    Regardless of how much funding we receive, we are going to 
do our best to provide the most professional and expert 
response possible, and we will continue to endeavor daily to 
safeguard and secure the National Capital and the region. But I 
must say the amount of funding announced compared to what we 
had previously received certainly challenges us at a very, very 
high level, an unnecessary level, to do just that.
    Thank you, Mr. Chairman and members of the committee. I 
look forward, with the Chief and with Mr. Reiskin, to answer 
any questions you may have.
    Chairman King. Thank you, Mayor Williams.
    [The statement of Mayor Williams follows:]

       Prepared Statement of the Honorable Mayor Anthony Williams

    Good morning Chairperson King, Ranking Member Thompson, members of 
the Committee, staff, and members of the public. I am Anthony A. 
Williams, Mayor of the District of Columbia. Thank you for the 
opportunity to testify today on the subject of federal homeland 
security grants, a topic that is of vital importance to the District of 
Columbia.
    In order to discuss the allocation of federal homeland security 
grants, it is important to understand the context in which they are 
used. Prior to September 11,2001, we had responded to disasters and 
supported major events within the District of Columbia and throughout 
our metropolitan region, known as the National Capital Region. But like 
it did for everyone else in America and in much of the rest of the 
world, 911 signified a new day, and with that new day came a 
requirement for a new and significantly heightened level of capability. 
This requirement was especially true here in the region, where one of 
the hijacked planes struck its intended target; and here in the 
District, where the fourth plane was likely heading. Soon thereafter, 
the targeting of the nation's capital via anthrax attacks further 
demonstrated the risk faced by the District of Columbia.
    We responded quickly and aggressively. In the District, aided by 
$168.8 million in Congressionally appropriated funds, we enhanced 
existing and developed new capabilities to respond to terrorist 
attacks. We upgraded our operations centers and response plans; we 
established new emergency functions for law enforcement, fire and 
rescue, and health; we purchased equipment for and provided training to 
our first responders; we expanded our radio network coverage so that it 
would work inside of buildings and underground in the Metro system 
stations and tunnels.
    In the region, I joined with the governors of Maryland and Virginia 
in developing and signing a joint statement to pursue Eight Commitments 
to Action to improve coordination in preventing, preparing for and 
responding to a terrorist incident. By endorsing the Eight Commitments, 
we established a Senior Policy Group to provide policy and executive 
level focus to the region's homeland security concerns and to ensure 
full integration of regional activities with statewide efforts in the 
District, Virginia, and Maryland. This group was given the collective 
mandate to determine priority actions for increasing regional 
preparedness and response capabilities and reducing vulnerability to 
terrorist attacks.
    The District as a city and state, and as part of the National 
Capital Region, has since been steadily building capability to help us 
prevent, protect against, respond to, and recover from a terrorist 
attack or natural disaster. We have had opportunity to put that 
capability to the test many times since, via planned events such as the 
Presidential Inauguration, State of the Union addresses, World Bank/IMF 
meetings, as well as via unplanned events, such as Hurricane Isabel and 
the sniper attacks.

Department of Homeland Security Grant Funds
    The Department of Homeland Security, since its inception in 2003, 
has aided us in improving our preparedness in the District and in the 
region, including through the allocation of grant funds. The following 
table summarizes the grants awarded.

----------------------------------------------------------------------------------------------------------------
                                      District of Columbia                            National Capital Region
               -------------------------------------------------------------------------------------------------
                                                                                                    Percent of
                             Award                       Percent of total              Award           total
----------------------------------------------------------------------------------------------------------------
     FY 2003                            $17.9M                             O.9%          $60.5M           10.3%
     FY 2004                             18.8M                             0.9%           31.9M            4.7%
     FY 2005                             12.5M                             0.9%           77.5M            9.1%
     FY 2006                              7.4M                             0.8%           46.5M            6.3%
       Total                             56.7M                             0.9%          216.4M            7.6%
----------------------------------------------------------------------------------------------------------------

    These funds, which represent significant amounts to be sure, have 
helped and will continue to help the District and the region enhance 
preparedness. In the District, the funds have supported training and 
exercising for numerous disaster scenarios, specialized response 
vehicles and equipment, and the development of a dedicated, secure, 
wireless data network. In the region, the funds have supported citizen 
preparedness education, the development of a syndromic surveillance 
system to monitor disease in illness, hospital surge beds and 
equipment, protective gear for first responders, virtual linkage of 
operations centers, public alert systems, and the development of a 
regional dedicated, secure, robust interoperable data communications 
system.
    The foregoing examples of how we have invested federal funds to 
advance preparedness demonstrate the tangible gains the funds have 
provided. But it is important to note that the lion's share of homeland 
security funding is provided by us at the state and local level. Local 
funds primarily support the first responders in the region and their 
basic equipment. Local funds primarily support the management 
infrastructure that plans and implements homeland security policy and 
operations. Local funds primarily support the basic infrastructure upon 
which all preparedness functions reside. While federal funds provide 
the critical resources to enhance capabilities, local funds provide 
their foundation.
    The significant local and federal funds that have enabled us to 
build and sustain capability might beg the question of whether more 
resources are needed. The answer to that question is clearly yes. 
Preparedness is a dynamic and complex process. We have some of the most 
experienced professionals in the District and the region working every 
day to improve our safety and security and their efforts should give 
comfort to those who live, work, or visit here. But we remain a high-
risk area and we have significant unmet needs across all four mission 
areas of preparedness: prevention, protection, response, and recovery. 
Much of the post-911 1 activity focused on response, but the recent 
alleged terrorist arrests in Canada demonstrate the importance of 
prevention and the current state of New Orleans demonstrates the 
importance of recovery. We remain a high risk city and region and we 
consequently have significant unmet need.

Homeland Security Need
    We have worked to assess our level of preparedness in a number of 
ways so that we can continue to improve and enhance the safety and 
security of the nation's capital. Last year we undertook strategic 
planning process for both the District and the region to bring together 
stakeholders from all levels of government and from the private and 
nonprofit sectors to chart the course for future preparedness. As part 
of the grant application process, we evaluated ourselves with respect 
to over a dozen of the Target Capabilities defined in the National 
Preparedness Goal. Although the District of Columbia was among the 
first jurisdictions in the country to receive accreditation as part of 
the Emergency Management Assessment Process, the entire region recently 
underwent the assessment process to identify inter-jurisdictional gaps. 
And both the District and the region participated in the National Plan 
Review, the results of which were announced just last week, to guide 
improvements to catastrophic planning capability. As a result of all of 
these activities, we have identified significant areas of need to make 
the District and the region safer and more secure.
    It is within that larger context that we developed our applications 
for the FY 2006 Homeland Security Grant Program. We undertook 
comprehensive, exhaustive processes involving expert practitioners from 
across the District and region to articulate the priority needs to 
safeguard and secure us all. These stakeholders included police chiefs, 
fire chiefs, transportation directors, hospital managers, emergency 
management experts from the public, private, and nonprofit sectors, and 
others from all levels of government. Many of these stakeholders are 
the same people that responded to the 911 1 attack on the Pentagon, to 
the anthrax and sniper attacks, and to Hurricane Isabel. They are the 
people in whom the country places its trust for the protection of major 
national events, such as State Funerals and State of the Union 
Addresses. The effort and expertise we exerted to develop our 
applications were significant.
    In the District, we identified over $37 million in need across nine 
investment areas asfollows.


                      Investment Area                        Allocation

Incident Response.........................................        $2.65M
Citizen Preparedness......................................         1.85M
Critical Infrastructure Protection........................         1.05M
Information Sharing.......................................         3.57M
Law Enforcement Investigation & Operations................         6.43M
Mass Care.................................................         0.97M
Medical Surge and Mass Prophylaxis........................         0.63M
Planning..................................................         2.15M
    Total.................................................       $21.82M


    Specific projects within those investment areas included the 
following.
    Homeland Security official told a Congressional committee last week 
emphatically and repeatedly that our proposal was sound. Second, and 
more noteworthy, the experts who provided the analysis that led to the 
development of the application and who provided the content for it are 
among the most experienced managers, planners, and responders in the 
country: As I previously stated, these are the people who responded to 
the 911 attack on the Pentagon, to the anthrax and sniper attacks, and 
to Hurricane Isabel. These experts have responded successfully in these 
and many other incidents despite the complex nature of the National 
Capital Region due to their high level of expertise and professionalism 
and to the extensive coordination and collaboration that occurs here 
every day. That their peers from across the country couId find our 
application lacking in terms of effectiveness is therefore perplexing.

Conclusions
    We fully support the intent of the Department of Homeland Security 
to move to a more objective, transparent, and risk-based approach to 
the allocation of scarce resources to protect our homeland. The 
outcomes from this year's process, however, call the Department's 
success in meeting its intent into question. Specifically, we have to 
question two fundamental aspects of the process that led to the 
allocations that served as the impetus for the hearing.First, is the 
risk analysis used by the Department of Homeland Security adequately 
assessing the relative risks faced by the cities and states of our 
country? When analysis finds the District of Columbia to be low risk, 
which results in less funding than provided to any other state in the 
union, including less populous ones, the viability of the analysis is 
questionable.
    Second, is a peer-review process to determine effectiveness an 
appropriate basis for the allocation of funds to secure our homeland? 
Put simply, if an area is high risk, but the approach in its proposal 
was found to be less than effective; would the federal government not 
better advance the security of the homeland by working with the area to 
improve its approach than by reducing its funding?
    I will close by making two important points about the impact of the 
recently announced homeland security grant awards for the District of 
Columbia and the National Capital Region. First, the region will not be 
less safe and secure, and will not face more risk as a result of 
funding levels considerably lower than last year. We had capabilities 
in place prior to 9111 and have built significant additional 
capabilities since. Generally speaking, those capabilities are in place 
and will not diminish. But second, with the announced funding award, we 
will not be able to continue to improve our capability, and therefore 
our preparedness, as much or as quickly as we had expected. Certain 
priority improvements, such as many of those listed earlier in this 
testimony, will not get done, at least not as soon as we would have 
liked.
    Regardless of how much funding we receive, we will provide the best 
and most professional response possible and will continue to endeavor 
daily to safeguard and secure the region. The amount of funding 
announced compared to what we have previously received merely 
challenges our ability to do so.
    Chairman King. I have questions for the panel, and I am 
sure all of our members here today do as well.
    Mayor Bloomberg, following up on something that Mayor 
Williams just said as far as the Department working with the 
cities prior to the 40 percent cut being announced, had anyone 
at the Department of Homeland Security contacted you and 
offered to work with you to resolve the issue?
    Mayor Bloomberg. Maybe they contacted somebody else, but I 
have not heard that they did. And when I have talked to the 
Secretary a number of times over the last year, I tried to make 
the case of just how expensive it was to provide the level of 
security that we think is appropriate, and there is nothing I 
have seen that says that the threat level is going down. Quite 
the contrary. You pick up the newspapers every day, and there 
is cause to worry.
    And what I counsel the people who live in New York City is 
to leave it to the professionals. They should go about their 
business, and they are safe, but they are safe only because we 
have 40,000 police officers out there pounding the beat every 
day, thinking, listening, looking. And then we take the kind of 
actions in advance that one would expect to scare off anybody 
who might think about attacking our city.
    Chairman King. On the note, Commissioner, as far as 
entrusting professionals, did anyone in the Department contact 
you and tell you that the applications are being rejected and a 
40 percent cut was coming?
    Commissioner Kelly. No, we had no contact.
    Chairman King. None whatsoever?
    Commissioner Kelly. We were surprised. Perhaps someone else 
in the city government; certainly not the Police Department.
    Mayor Bloomberg. Mr. Chairman, let me just point out, that 
is what our submission was, 200 pages done by the greatest 
group of experts I think anybody has ever put together. Let me 
also point out that the application process should not be a 
test for who can write the best term paper for their college 
class. The application process should be to present the facts 
as to what is needed to keep this country safe.
    Chairman King. To put a human face on this, you mentioned 
18 terrorist attacks or threats in recent years. Can you or 
Commissioner Kelly detail some of those to show how serious 
they were; and also, Commissioner Kelly, can you describe any 
program that was denied to you in these applications such as 
the ring of steel in lower Manhattan?
    Commissioner Kelly. Well, the 18 events start in 1990, but 
I can talk to you about cases since September 11. One you 
mentioned, or the Mayor mentioned in his prepared remarks, the 
arrest of two individuals plotting to blow up the Harold Square 
subway station. We arrested them 1 week before the Republican 
National Convention.
    Just 3 weeks ago the second individual--the first 
individual pleaded guilty. The second individual was found 
guilty on all four counts in Federal court. That was a case 
that was done by the New York City Intelligence Division.
    We had another case, gentleman named Mr. Paracha, Uzair 
Paracha, where he was convicted of material support to al Qaeda 
for planning to use his father's garment business, garment 
district business, to bring in explosives into the United 
States. Again, this is another--another conviction.
    If you recall, Mr. Chairman, the so-called al-Hindi case 
that was in July of 2004 where very detailed reconnaissance 
information of New York City, of the New York Stock Exchange, 
of Citicorp, and of the World Bank in Washington, it was 
discovered on a laptop of an individual in the U.K. Again, a 
series of investigations that are--that are out there in the 
public domain.
    There are other investigations that are ongoing, of course, 
that we can't talk about here. But we have a very robust 
program. As the Mayor mentioned, our Atlas Program involves 
uniformed police officers being deployed to our sensitive 
locations throughout the city. We do it every day. We mobilize 
officers both on day tour and in our evening tours. We have a 
Counterterrorism Division that works closely with the Joint 
Terrorism Task Force, with the FBI, and I would say our 
cooperation with the FBI is better now than it has ever been. 
We are working more closely than ever.
    But we have increased our Joint Terrorist Task Force 
component from 17 on September 11, 2001, to 120 investigators 
today. We have a language program. We have identified 670 
uniformed officers with language skills and languages that we 
think are particularly appropriate these days: Arabic, Hindi 
Pashtu, Farsi. They are used in our investigations.
    Another plot, of course, that was mentioned but I think it 
is significant because it involves a bridge, and Homeland 
Security just categorized the Brooklyn Bridge being just 
another bridge. The Mayor mentioned the case in 2003 when Ayman 
Ferris was arrested, taken into custody, subsequently 
convicted, and in jail for 20 years for plotting to blow up the 
Brooklyn Bridge. So it is certainly not just another bridge. No 
other bridge in America has this track record of being in al 
Qaeda cross-hairs and having someone arrested for that.
    But these programs cost money, there is no question about 
it. Our head count has been reduced because of the impact on 
our budget as a result of 9/11, and we have to use overtime to 
a certain extent to put the boots on the ground, as the Mayor 
said. If not, an inexpensive program grants it. When you have 
to look at the consequences of--God forbid there is another 
attack in New York City. So we have I think a very 
comprehensive counterterrorism program that has received praise 
from both national and international counterterrorism experts.
    Chairman King. Yeah. For some reason, the Department ranked 
your application second from the bottom, which to me says a lot 
about the Department.
    I recognize the Ranking Member Mr. Thompson.
    Mr. Thompson. Thank you very much. In line with the 
Chairman's question, Mayor Williams, to your knowledge, was the 
District of Columbia put on any notice of a reduction in funds 
or anything of that nature?
    Mayor Williams. Congressman Thompson, just as a summary, we 
were notified. We weren't really consulted. We were notified--I 
think it was in a 24-hour time cycle before it was publicly 
announced. There really wasn't any opportunity to interchange, 
any opportunity to improve the work product.
    Mr. Thompson. Thank you.
    Mayor Bloomberg, there was some concern that New York's 
application was too personnel-heavy versus equipment? Is it 
your opinion that separating the distinction limits one's 
ability to effectively plan by saying, we will buy one but we 
won't buy the other? And if you have any thoughts on it, I 
would appreciate hearing them.
    Mayor Bloomberg. Congressman Thompson, I think I speak for 
the police commissioner but also for any expert in 
counterterrorism or in an attempt to control a scourge of crime 
in our country. The world is not what you see on CSI. The world 
is not where technology is the key component. The real ways 
that you stop the bad guys is by having well-trained, highly 
motivated people who go among the community, and who pay 
attention to what is going on and look for abnormalities. It is 
as personal a business as anybody could possibly find.
    And you keep hearing stories, even from small towns 
throughout America: Homeland Security gave us some money to buy 
a piece of equipment; I don't know what I am going to do with 
the piece of equipment.
    Now, you know, I am sure that sheriff or local police 
officer probably would prefer to have a couple of more sheriffs 
or cops going out there, walking the streets, or driving around 
town, depending on what their location is, rather than a piece 
of fancy equipment. But the fact of the matter is, fancy 
equipment gets you a photo-op and once it arrives, the real 
problem is who is going to man it and how do you train and how 
do you keep it up to date?
    I think some--unfortunately, some of these recipients of 
the Federal--or just in terms of giving technology to 
understand once they get it, the cost of maintenance which is 
equal to or greater than the cost of acquiring the device is 
invariably going to be something that they have got to pay for.
    Mr. Thompson. Thank you.
    Chief Ramsey, can you give me your experience with the 
Department? When you have had differences of opinion as to 
applications or the technical aspects of an application, have 
you been able to work them out?
    Chief Ramsey. Well, I have not been aware of problems. We 
certainly were tasked with putting together the application, 
expressing what our needs--following the format and so forth. 
But the assistance, if you will, that we got from Homeland 
Security was more explaining the process as opposed to 
commenting and providing some input or feedback on the 
application itself.
    So we as an agency provided information and filled out 
certain portions of the application at the direction of the 
deputy mayor and other agencies, of the city government did the 
same thing. But it was not a give-and-take, back-and-forth type 
exchange with the Department. We were totally surprised when we 
got word that these cuts were taking place to the extent that 
they were. We felt then and feel now that we have put together 
an application that met the needs of the District of Columbia. 
It was a good application, and certainly when you look at the 
State total, as the Mayor mentioned, certainly not one that 
should put us in the bottom 25 percent of all States and 
territories. Common sense alone would tell you that that is a 
flawed process, if that was the outcome.
    Mr. Thompson. Thank you. Mr. Chairman, I have two letters 
from Congressman--Congresswoman Matsui and Congresswoman 
Slaughter, and I would like to ask unanimous consent to enter 
them into the record.
    Chairman King. Without objection, they will be entered into 
the record.
    [The information follows:]

                             For the Record

                          House of Representatives,
                                      Washington, DC, June 21, 2006

Hon. Bennie Thompson,
Ranking Member, Committee on Homeland Security,
House of Representatives, Washington, D.C.

Dear Ranking Member Thompson:
    As you are aware, this is the first year that the Department of 
Homeland Security (DHS) used a risk- and need-based program to 
determine both eligibility and grant funding for the Urban Area 
Security Initiative (UASI). The Committee on Homeland Security's 
hearing today is an opportunity for Members of the Committee to assert 
their oversight responsibility and ask questions regarding all parts of 
the new UASI assessment process, including the scope of its new risk 
standards. While this hearing will focus entirely on the investment 
justification part of the grant process for New York and Washington, 
D.C. only, there are other aspects of this grant that raise concern. In 
particular, whether DHS's criteria and process for determining 
eligibility for the UASI grant accurately takes into account the risks 
faced by urban areas.
    The new risk- and need-based grant process puts our nation's 
security at risk. As such, I have worked closely with our local first 
responders and law enforcement to determine the effect that this may 
have on the security of Sacramento.I have collaborated extensively with 
the Director of Sacramento Regional Office of Homeland Security, Mike 
Smith. Mr. Smith is a true asset to our community, whose experience 
includes twenty-nine years in law enforcement, where he retired as the 
Assistant Sheriff of Sacramento County. Mr. Smith is also a retired 
Colonel from the California Army National Guard. For several decades, 
Mr. Smith has been working on behalf of the people of this nation and 
is an expert on safety and homeland security needs. Therefore, I 
respectfully request that you submit this letter along with the 
attached statement from Mr. Smith, for the official record for the June 
21,2006, hearing on UASI.
    Sincerely,

                                              Doris Matsui,
                                                 Member of Congress

                           House of Representatives
                                      Washington, DC, June 21, 2006

Hon.Bennie Thompson,
Ranking Member, Committee on Homeland Security,
House of Representatives, Washington, D.C.

Dear Ranking Member Thompson:
    Thank you for providing me the opportunity to highlight my concerns 
with theDepartment of Homeland Security's (DHS) decision to severely 
cut homeland securityfunding for the Buffalo-Niagara region.
    According to a new report issued by DHS last week, most urban areas 
are as unpreparedfor a catastrophe today as they were on September 11 
th. This is unacceptable and mustbe rectified immediately. A good place 
to start would be to make sure that the UrbanAreas Security Initiative 
(UASI) program actually serves the cities most vulnerable toterrorism.
    In January, the Secretary of Homeland Security, Michael Chertoff, 
rolled-out the agency's revamped UASI grant program by declaring, 
"[DHS] is investing federal funding into our communities facing the 
greatest risk and demonstrating the greatest need in order to receive 
the highest return in our nation's security."
    Many applauded this move away from awarding grants based solely on 
population statistics and toward a risk-based approach. Unfortunately, 
it has become clear six months later that the risk-based framework 
adopted by DHS is deeply flawed and in need of an overhaul. There is no 
better explanation for how Columbus, Ohio and Louisville, Kentucky have 
suddenly jumped to the top of the threat list while the Buffalo-Niagara 
region is now considered the least vulnerable to an attack out of 46 
major U.S. urban areas. UASI funding to Buffalo-Niagara was cut ffom 
$7.2 million in Fiscal Year (FY) 2005 to FY$3.7 million in 2006. DHS 
has also made clear that Buffalo-Niagara will likely lose all UASI 
funding FY 2007.
    I agree that the UASI system must be predicated on a risk-based 
system. The cities most vulnerable to terrorism ought to be the first 
in the nation to receive the resources necessary to safeguard their 
communities. However, I am convinced that the Department's risk-based 
formula does not adequately take the Buffalo region's threats and high-
risk assets into consideration. Had these assets been factored into the 
UASI equation, it would have been obvious to DHS that Buffalo should 
not see their UASI finding severely cut.
    The Buffalo-Niagara region sits on an international border and is a 
major gateway for international tourism and commerce. The region is 
home to four international bridges and two international railroad 
bridges. This includes the Peace Bridge in Buffalo, which is the 
nation's second busiest northern border crossing; $160 million in trade 
and 20,000 vehicles cross the Peace Bridge each day. Niagara County 
also hosts one of the northeast's largest producers of electricity, the 
Niagara Power Project, as well as a nuclear landfill that contains half 
of the world's radium. In addition, Niagara Falls is a world-renowned 
tourist destination that welcomes thousands of visitors each year.
    Accordingly, it is astounding that any objective model for 
assessing risk would fail to conclude that Buffalo-Niagara deserves a 
fair share of UASI funding. DHS' decision to cut Buffalo-Niagara's 
funding means that the region will have to reduce critical security 
efforts, including plans better secure the Niagara Power Project and 
develop an interagency cornmunications system.
    I have been concerned with the new UASI process and its 
consequences on Buffalo's preparedness since DHS first announced the 
changes in January. At the time, DHS declared that it was revamping the 
UASI grant process and limiting awards to 35 pre- determined cities 
that they deemed most at risk. Surprisingly, the Buffalo-Niagara region 
did not fall into the top 35 cities, meaning that they were only 
eligible to receive sustainment-funding for FY 2006. In addition, DHS 
redefined the Buffalo-Niagara eligible area to be just Buffalo and a 
10-mile buffer around the city.
    I contacted DHS to inquire how they developed the list of cities 
most at risk, and why they redefined the eligible area for Buffalo-
Niagara. I was told that the risk-assessment for the 35 city list was 
classified and that no information could be provided. Lacking 
information to the contrary, it appears that DHS arbitrarily created 
the 10 mile buffer without any empirical data to justify it. The 
redeffition of the Buffalo urban area removed key assets fiom being 
factored into the risk-based assessment, including the Niagara Power 
Project, 600 chemical and hazardous material facilities, and the 
Lewiston- Queenston bridge.
    Understanding that sensitive security information went into the 
development of the UASI process, I asked DHS in May for a classified 
briefing on Buffalo-Niagara's score on the UASI risk-assessment. 
Despite the seriousness of the issue, this request has gone unanswered. 
The first-responders and elected officials in Buffalo have similarly 
run into a brick-wall when asking DHS for explanations on their score.
    DHS' refusal to brief Members of Congress or local officials is 
unacceptable and suggests that they cannot justify their new UASI 
formula. DHS cannot expect Members of Congress or localities to embrace 
their new UASI system if they refuse to provide substantive information 
on the risk-based model and peer review process.
    It is imperative that DHS re-evaluate their formula and factor in 
critical infrastructure and assets in Buffalo-Niagara. At the same 
time, Congress has a responsibility to ensure that DHS has the federal 
dollars needed to safeguard the country's major urban areas. Let us not 
forget that Congress voted last year to decrease UASI funding by more 
than 14 percent, despite the fact that most cities remain woellly 
unprepared to respond to a catastrophe. Unless DHS retools their UASI 
formula, Buffalo-Niagara will be left without the critical resources 
needed to safeguard the region against new and emerging threats.

    I look forward to DHS explaining its new UASI system, as well as 
their reasoning for the new risk-based formula. Thank you again, 
Congressman Thompson, for allowing me to share my concerns with the 
Committee.
    Sincerely.
                                          Louise Slaughter,
                                                 Member of Congress

                             For the Record

 Prepared Statement of Mike Smith, Director Sacramento Regional Office 
                          of Homeland Security

    On December 2, 2005, the Department of Homeland Security (DHS) 
published the FY06 Homeland Security Grant Program, Program Guidance 
and Application Kit, and distributed it via the internet. In the FY06 
Guidance, DHS substantially changed the methodology of allocating funds 
from previous years. Specifically DHS wrote they were adopting a 
"common risk and need based approach to allocating funds".' "For the 
purposes of analysis, risk is defined as the product of three principal 
variables: the consequence of a specified attack to a particular asset, 
the vulnerability of that asset to that particular threat, and the 
degree of threat of that particular attack threat to that specific 
asset.
    The "need" would be assessed through a Program and Capability 
Enhancement Plan and through the submissions of Investment 
Justifications. Supplemental guidance was issued by DHS throughout 
December 2005, on the mechanics of completing the documentation. A 
deadline of March 2,2006 was established for electronically filing the 
State Enhancement Plan and Investment Justifications for States, 
Temtories and Urban Area Security Initiative (UASI) jurisdictions. 
Notwithstanding the statement, "DHS will release the list of UASI 
candidates shortly after this release of the FY 2006 HSGP pidancem4, 
UASI applicants were not identified until Office and Grants and 
Training published Infonnation Bulletin No. 200 on January 3,2006.
    With regard to UASI jurisdictions, DHS abandoned the previously 
approved UASI jurisdiction and geographical definitions. In lieu of the 
previously agreed upon UASI's, the new eligibility for inclusion 
consisted of "cities with a opulation great than 100,000 and any city 
with reported threat data during the past year." In a follow up meeting 
with Office of Grants and Training (OGT) representatives, they 
addressed the exclusion of large urban unincorporated counties. The 
rationale was that since there are not counties throughout the United 
States, they excluded these population centers from the computations.
    With regard to risk, DHS attempted to evaluate asset-based risk and 
geographically based risk. In assessing asset based risk, DHS drew a 
"10 mile buffer...from the border of thatcity or combined entity to 
establish the geographical area in which data was evaluated" and 
inventoried up to 38 Asset Types." The way of validating data were, (1) 
using assets submitted in July 2004 data call and (2) accessing 40,000 
assets collected from various public data bases. DHS also used a number 
of proprietary databases for an additional 100,000 assets8 In the 
follow up meeting with OGT representatives, the question posed was why 
DHS was looking backwards a year and half and not using their approved 
Automated Critical Assessment Management System (ACAMS) as the approved 
data base. Even though California had updated the database, it was not 
used because not all States and Territories are inputting into the 
system. During the meeting OGT representatives could not provide 
transparency on how the assets were validated. Because of outsourcing 
to non-government agencies under contractual relationships, OGT 
representatives could not provide any backup data on the validity of 
the assets counted. During the process of assessing critical 
infrastructure no one from DHS contacted the Sacramento UASI to 
reconcile critical infrastructure.
    In assessing asset risk, DHS made 8 assumptions to be used in risk 
calculations. Of particular note are two assumptions: "3. Functional 
andlor spatial dependencies andlor interdependencies do not affect 
risk. [This is clearly a false assumption, but necessary because the 
methodology for including it has yet to be developed.] and 4. 
Simultaneous or sequential attacks on more than one target do not 
affect risk. [Again, clearly false, but necessary until reasonable 
methodologies can be developed to incorporate such m0des.1" 'The 
failure of DHS to assess interdependency and cascading affects is 
not'realistic and flaws their justification of objective decisions 
based on 3.2 billion calculations. In essence the numbers of 
calculations are not relevant if the data points are not valid or 
incomplete.
    In meeting with OGT representatives, they were unable to articulate 
the threat component of the grant calculations. The key points 
discussed were that they rely on data from the other communities to 
populate the data. The issue of opening threat cases versus cases that 
have resulted in indictments, deportation or convictions and if there 
was a weighting factor was unsatisfactorily answered. What was 
determined is that threat data only looked at the previous fiscal year 
(October 1,2004-September 30,2005) for open cases, 1-94 immigration 
form destination cities and other investigations. No trend analysis was 
evaluated and there was clearly no transparency to understanding the 
information. It is my opinion that there exists an internal disconnect 
within DHS between Information and Analysis and The Directorate of 
Preparedness Risk Management Division. Until threat data is suitably 
evaluated and articulated, the information provided in the UASI 
assessment is just a black hole from which no reasonable conclusion can 
be forecasted.
    For the "need" assessment, each State, Territory and UASI were 
allowed to submit up to15 Investment Justifications for the remainder 
of non Patriot Act base distributed funds. This was to be a competitive 
process for the balance of State Homeland Security Grant Program 
(SHSGP) and Law Enforcement Terrorism Prevention Program (LETPP) funds. 
On February 8,2006, DHS Grants and Training published Information 
Bulletin 202, which discussed the review and scoring of Investment 
Justifications. Investment Justifications were broken into four 
functional areas, background, regionalization, impact and funding and 
implementation plan. Within those functional areas, there were several 
dialogue boxes to be filled out. Bulletin 202 provided the criteria for 
filling out the boxes. This was significant, as discussed infra, in the 
evaluation and scoring process during the peer review process.
    In completing the Investment Justifications there was confusion 
between instructions and the actual ability to upload information into 
the grant management tool. If applicants did get the email of late 
February 2006, then they would not have understood that only the text 
that would actually print out would be seen by the reviewer. In the 
peer review investments that I scored, several dialogue boxes exceeded 
the allowable word count and were adversely scored because the 
information they thought to be inputted was not seen by the reviewer.
    My opinion is that the Investment Justifications process needs to 
be revamped to more accurately assess need. I participated in the Peer 
Review and provided these comments, along with others, to the OGT 
representative.
    The mechanics of the Investment Justification forms were not user 
friendly and the guidance was inadequate. Examples are the word count 
and the narrative boxes would continue to accept comments well after 
the cut off. Several Investments I scored had exceeded the allotted 
space thereby making them difficult to score. My UASI found out this 
error when we printed our drafts and we made the appropriate changes 
prior to submission.
    In reviewing the Investment Justifications, the guidelines and 
narratives did not encourage nor direct respondents to talk about 
investments over a time continuum. In almost every Investment reviewed, 
our group was unable to ascertain what had been accomplished to date 
with Homeland Security funds from FY03, FY04 and W05. In essence the 
application process became a stop the clock and a one time assessment.
    Without more specific delineation in the narrative, it was 
extremely difficult to ascertain the appropriateness of the "Investment 
Funding Plan". Again, there was no beginning, middle or end to clearly 
correlate the FY06 request to what has been undertaken in FY03, FY04 
and FY05.
    My overall comment was that I felt Investment Justifications and 
the scoring process were weighted more to grant writing than actual 
need assessment. If Investment Justifications are to be used in FY07, I 
encourage DHS to constitute a working group of practitioners to help 
revamp the process.
    In conclusion my opinion is that risk was not reasonable assessed, 
notwithstanding the number of calcuiations and that "need" was also not 
reasonably assessed through the FY06 Homeland Security Grant Program.

    Mr. Thompson. And I yield back.
    Chairman King. Gentleman from Connecticut, Mr. Shays.
    Mr. Shays. Mayors, thank you for being here. I happen to 
think both of you are extraordinary mayors. And Mayor Williams, 
you will be missed. I have appreciated, as a temporary resident 
in Washington, the competence with which you have done your 
job. And Mayor Bloomberg, I just think you are an extraordinary 
man in terms of what you have accomplished in your life, and I 
am just very grateful that you were willing to serve in public 
life, given that you have been so successful in the private 
sector.
    I chaired a committee that looked at the terrorist threat 
before September 11, and we all were warned about what was 
going to happen. Basically we had three commissions that said 
we have a terrorist threat, we need to assess the terrorist 
threat, we need to have a strategy to deal with it, and then we 
need to reorganize our government to implement the strategy.
    I was a strong supporter, and am, of having a Department of 
Homeland Security, and I am not bitterly disappointed--but 
close to it--in terms of its effectiveness to date.
    I would like to know what your sense is about--and then let 
me say, the two places I am told to say if you want to help the 
Department run better, have them meet with people in D.C, but--
no disrespect to D.C., but particularly Washington--
particularly New York City. That if we only learn from what all 
of you do in New York City, we would have a much better 
Department.
    So I guess what I first want to know is, what kind of 
interaction do both of your cities have with the Department? 
What kind of contribution is the Department and Washington 
making to D.C. and to New York? Is there a constant 
interaction? Or is it, you know, not much at all?
    Mayor Williams. I would like to ask Deputy Mayor Reiskin to 
talk about our interaction, because he has really been involved 
with the Department in the grant formulation process.
    Mr. Shays. Not just in terms of the grants, in terms of 
just in general. Are they providing advice to you? Are they a 
value added? I am not trying to put you in a position where you 
get scored badly next year but I would like to know candidly if 
there is good dialogue.
    We are going down the ranks here, from mayor to chief to 
bureaucrat.
    Mr. Reiskin. Good morning, Chairman King, Congressman 
Shays. To answer your question, there are different types of 
interaction we have with the Department. In terms of the grant 
process they set this up to be a competitive process, so this 
was not about trying to help one city or State, regardless of 
their risk, fare better in that process.
    We are fortunate here in the National Capital Region. We 
are the only region in the country to have an office within the 
Department of Homeland Security specifically in place to help 
coordinate between the Department, the rest of the Federal 
Government, and the National Capital Region. So through that 
office we do get some assistance. We get some coordination 
within the Department and across the various entities, and I 
think generally the national preparedness goal that the 
Department has created for everyone to lay out a framework for 
how cities and States should prepare has been helpful.
    There was not any kind of coaching or assistance in saying, 
District of Columbia National Capital Region, you are one of 
the highest risks in the Nation, let's work together to build 
an application. That was not part of that.
    Mr. Shays. So that is clear. I am just curious as to the 
outside application. Mayor or Commissioner?
    Mayor Bloomberg. Well, the Secretary always takes my call 
and we periodically do touch base. I think what is important to 
realize here is that for big cities they fundamentally have to 
have the ability to protect themselves and to respond, in the 
case of a tragedy, the day it happens. The Federal Government's 
role is to give them the wherewithal so that they can in 
advance prepare and then perhaps later on provide moneys to 
help them recover.
    But if we have learned anything, particularly from the 
great tragedy in New Orleans, each city has just got to have on 
the ground, ready to go, the kind of preparedness personnel, 
and mainly where they can respond the day the event happens. 
Washington is not really structured to come in with the kind 
of--as fast as we would need to take care of the people. So we 
look to Homeland Security for longer-term funding, letting us 
go and keep the level of preparedness that we think is 
appropriate affordable.
    Thank you.
    Mr. Shays. Commissioner.
    Commissioner Kelly. We have an excellent working 
relationship with the operational agencies of Homeland Security 
and that is on a daily basis. We work closely with the Secret 
Service, with Customs and Border Protection, with Immigration 
and Customs Enforcement. And we have now a good working 
relationship with the intelligence components of Homeland 
Security after somewhat of a rough road when we raised our 
response to a threat that existed against our subway system in 
October of last year. We sort of worked through that. So 
operationally, on a day-to-day basis, I think we are working 
well.
    Mr. Shays. Where is not it working well?
    Commissioner Kelly. Sir?
    Mr. Shays. Where is it not working well?
    Commissioner Kelly. I think, obviously, at the headquarters 
level, you might say. We were surprised by this reduction. 
Nobody coached us how to change our application or, in fact, 
that it was necessary.
    Mr. Shays. Let me just quickly get to the area that also 
concerns me. The Cold War strategy of contain, react, and 
mutually assured destruction went out the window. It has been 
replaced by detect and prevent. Obviously you don't want to 
deal with the consequences of the tragedy. You want to protect 
it.
    And it is my understanding that New York City has got to 
spend a fortune in intelligence work, that you have to because 
you want to detect and prevent it. You do not want to have to 
deal with the consequence.
    I am just curious, if that kind of cost ever gets reflected 
in the grants, that application for it being risk-based--in 
other words, risk-based, you have got all these targets out 
there that are tempting; but it seems to me that in order to 
succeed, you have had to spend a great deal on detect and 
prevent, not react. Would you speak to that?
    Mayor Bloomberg. Congressman, to put it in perspective, New 
York city taxpayers spend $5-1/2 billion a year on our police 
department; well over another $1-1/2 billion a year on our fire 
department. They also fund a very extensive and very competent 
Department of Health and Mental Hygiene which is our first 
defense against bioterrorism. We have an Office of Emergency 
Management that has provided very valuable coordination.
    So what we are doing is we are trying to keep our city as 
safe as we possibly can, but at the same time we also have to 
prepare for what happens if the first responders have to 
respond. That is our default position. The 1,000 police 
officers that Commissioner Kelly has devoted to intelligence 
and counterterrorism, the police officers that he has put in 
major capitals around the world so that we can see firsthand 
what terrorists are doing elsewhere, and make sure that we 
understand that, and that our kind of preparedness and 
prevention are appropriate, those are things that the taxpayers 
of the city of New York have to fund every day. And it just 
means that there is less money to do other things that we would 
like to do.
    Commissioner, do you want to add anything?
    Commissioner Kelly. To answer your question directly, sir, 
we spend about anywhere from--depending on the year--from 170- 
to $200 million a year on our counterterrorism issues and our 
intelligence initiatives; and, no, we do not get compensated 
for that. There was an effort to get that in our application 
this year and that was in essence rejected by Homeland Security 
when we were given some indication that they were open to 
funding the programs that were shut off. So, no, we do not get 
that reimbursed.
    Mr. Shays. Thank you.
    Chairman King. The gentleman from Washington, Mr. Dicks.
    Mr. Dicks. I want to welcome our witnesses. And Mayor 
Williams, I have lived in the District of Columbia for 38 
years. I think you've been a good mayor. And my father was from 
New York City, so I have a great sense of feeling for New York 
City.
    Let me ask you, there is something that just jumps out at 
me when you look at these Urban Area Security Initiative 
numbers. First of all, even with this amount of money, this 
$124 million, New York will have received 19 percent of the 
entire amount of money that has gone out between 03 and 06. Let 
me go back through these numbers because I think they are 
interesting.
    In 2003 the city of New York got $149 million. In 2004 they 
got 47 million, a big decline. I don't remember all this 
concern being expressed then. And then back in 2005 you upped 
to $207.5 million. That has got to be an enormous increase. And 
then back in 2006 it drops back to 124.4 million.
    Let me ask you a couple of questions. Have you used all of 
this money and can you give us generally what you are using 
this $528 million we are talking about? What do you use it for?
    Mayor Bloomberg. Number one, yes, we have used all money. 
We have not necessarily written checks. We do not do that until 
the equipment is delivered or the training is completed or 
whatever.
    Mr. Dicks. So you have obligated the money.
    Mayor Bloomberg. We have obligated the money, and I think 
there is a feeling among a lot people that when you get federal 
moneys you just get it and you might as well spend it. It is 
free money. I don't view those moneys that way. Those are the 
moneys of the taxpayers of this country, including the people 
in New York City, and we take our responsibility to do it 
prudently and effectively and efficiently and very seriously.
    Whether or not 19 percent is--it is an interesting number, 
but the real question is what is the percentage of the target 
or a risk-weighted target list, if you will. It is probably 
true. I think most people would agree that when you talk to 
somebody from overseas and you say, ``Quickly, think about 
America; what are you picturing?'' They picture the New York 
City skyline or Washington skyline.
    Mr. Dicks. I think New York is the number one target, there 
is no question about it. I served for 8 years on the 
Intelligence Committee. There is no question about that. But 
what are you spending this money on? What are you using it for? 
Can the Chief tell us?
    Commissioner Kelly. We have in the police Department 
received $280 million out of the money that you mentioned; $115 
million of that was spent on overtime, which was the result of 
the heightened alert levels put in place by Homeland Security. 
When you go to an orange level, we get 15 percent 
reimbursements, 10 percent at yellow level, but these are alert 
levels that are generated by the Federal Government. We spent 
about another $100 million of that for equipment, and the 
remaining money was spent for training.
    And, again, some of the training costs are generated by 
overtime as well, because we have to continue to police the 
city.
    Mr. Dicks. I want to move on to the District, but let me 
say one thing. We have been told in previous testimony that one 
of the reasons you did not score as well is because you are 
using a lot of money for personnel and overtime and not for 
equipment that could be used into the future. And I think you 
have answered that question about why you believe your strategy 
is the right one.
    Let me ask Mayor Williams, let me go through the numbers 
for the District of Columbia. In 2003 you got $60.4 million. In 
2004 you got $21.9 million, another major decline. In 2005 you 
are back up to $77.5 million; and in 2006 you got 46.4, a 
decline but not as severe as the decline between 2003 and 2004.
    Again, maybe you can explain, have you utilized this $167 
million? I am not talking about 2006 now, but for the 3 
previous years, have you obligated that money and can you tell 
us what you have used it for?
    Mayor Williams. Congressman in terms of the obligation of 
money, I could not agree more with Mayor Bloomberg that our job 
is not simply to write checks. We want to make sure that the 
money is going to an intended purpose and that purpose is 
achieving real results in terms of whether it is detection, 
prevention, mitigation, recovery, whatever; and that in fact if 
you look at fiscal year 2003, all the money has been spent by 
the District; fiscal year 2004, 90 percent has been spent; 7 
percent of that has been obligated, so most of that was either 
spent or obligated.
    Mr. Dicks. What was the consequence of that major drop? You 
went from 60 down to 29. Did that cause a lot of disruption 
because you did not get as much money as you did in 2003?
    Chief Ramsey. Congressman, the biggest problem with that is 
that it just slows us down. It delays a lot of the things that 
we want to do. That is one of the consequences of the current 
drop. We are making efforts now to become a tier 1 city in 
terms of our capability, which is required by Homeland Security 
Presidential Directive 5. That slows us down in terms of 
reaching that goal and all the areas that we are supposed to.
    So you simply cut back. And that is what we did then, and 
that is what we are in the process of doing now, going back 
over those requests, reprioritizing, understanding now that it 
is going to take us longer to get to where we want to be. We 
should be there today, right now, in every single area; but, 
unfortunately, because of the way in which the funding comes 
in, you really do not know until the last minute what you are 
going to get, your priorities have to constantly shift. And it 
does cause problems, not just in police, but all the other 
areas of the government that are relying on this money for 
support.
    Mr. Dicks. Now, these are not the only funds that New York 
and Washington--you get other funds from other programs within 
Homeland Security; isn't that correct?
    Mayor Bloomberg. There are other things. In New York City's 
case, the vast bulk of the moneys we spend, it is the New York 
City taxpayer that comes up with that $5-1/2 billion, but 
moneys at the margin do matter, particularly in tough fiscal 
times, which I think every city is going through. There is an 
enormous demand to provide services, and the risks that we 
think we face from overseas, which is something local police 
departments pre-9/11 probably never thought about, those are 
very expensive. And we have 8.1 million people to protect. We 
have an enormous number of iconic structures. To say the 
Brooklyn Bridge is just a bridge is pretty ridiculous. It is to 
try to define away the Empire State Building as just a 
building, as the Statue of Liberty as not belonging to New York 
City. Yes, it does not, but I would probably--that it is 
probably the NYPD and FDNY that would respond if there was a 
problem.
    Commissioner Kelly. I would simply add that other grants 
that we have gotten before have been eliminated. The COPS grant 
and the COPS program and the Byrne grants have been eliminated 
as well. So money that you might think as coming to the 
Department in other ways simply has dried up.
    Chairman King. If I could be presumptuous enough for the 
Mayor and the Commissioner, I would invite the gentleman from 
Washington and other members of the committee to visit 
Commissioner Kelly's terrorism division and also his 
intelligence unit in New York to see just how some of this 
money is being spent and how effectively it is being spent.
    Mr. Dicks. We have had some good briefings and we have had 
a lot of good information.
    Chairman King. The gentleman from Connecticut, Mr. Simmons.
    Mr. Simmons. I thank the Chair for holding this very 
important hearing. As Representative from Connecticut, I will 
simply say that we lost many constituents on 9/11. My daughter 
is a resident of New York City, now living in Brooklyn, because 
her apartment was so damaged by that attack she could never 
return. And to Mayor Williams, my wife and I have lived two 
blocks from here for 20 years, so we thank you both for your 
service to your wonderful cities.
    Very briefly, Mr. Chairman, Connecticut received $10 
million in fiscal year 04 under the Urban Areas Security 
Initiative, was defunded in 2005 and 2006; and under recent 
program guidance, any urban area not identified as eligible 
through the risk analysis process for 2 consecutive years will 
not be eligible for continued funding under this program. This 
is crazy. The terrorism target is a moving target. And to 
defund a regional State like Connecticut and then to say ``no 
future funding,'' does not make any sense to me.
    And I would ask unanimous consent that this letter from our 
Governor, Governor Jodi Rell, be inserted in the record. We 
need to take a serious look at that program's guidance. I do 
not think it makes any logic.
    Chairman King. Without objection, the letter is made part 
of the record.
    [The information follows:]

                             For the Record

                                                      June 19, 2006
Dear Members of the Homeland Security Committee,
    As you know, the National Strategy for Homeland Security provides 
the framework to prevent and respond to acts of terrorism in our 
nation. State public agencies play a vital role in securing our country 
and U.S. Department of Homeland Security's (DHS) Urban Areas Security 
Initiatives (UASI) provides the vital funding necessary for combating 
terrorism. The UASl has recently changed the manner in which it 
evaluates the likelihood of terrorism, and those changes are 
detrimental to Connecticut.
    In FY2004, Connecticut was deemed eligible for funding by the DHS. 
The City of New Haven and its six contiguous towns (Orange, North 
Haven, West Haven, East Haven, Hamden and Woodbridge) were awarded 
$10,371,407 to enhance the area's ability to prevent, respond to, and 
recover from threats or acts of terrorism. Funding was determined by a 
formula using a combination of current threat estimates, population 
density, transit system ridership and total route miles.
    In FY2005, the funding criteria changed to include credible threat, 
presence of critical infrastructure, vulnerability, population, 
population density, law enforcement activity, and the existence of 
formal mutual aid agreements. Surprisingly, the DHS determined that New 
Haven was no longer eligible for the grant program despite its 
strategic location between New York and Boston, and its critical 
infrastructure which includes the Strategic Petroleum Reserve in New 
Haven harbor.
    In January 2006, DHS again denied Connecticut access to the UASl 
program. The FY2006 funding formula changed yet again with eligibility 
determined by a population cap of 100,000 and risk and need analysis. 
Connecticut with all of its vital assets (ports, industries, financial 
institutions, nuclear facilities and transportation services) and 
vulnerabilities was denied federal assistance, not only in FY2006, but 
potentially on a permanent basis.
    The UASl program guidance now states per DHS, Office of Grants and 
Training Bulletin No. 200, that "any Urban Area not identified as 
eligible through the risk analysis process for two consecutive years 
will not be eligible for continued funding under the UASl program." If 
Connecticut is denied the opportunity to participate in UASl in FY2007, 
it will be permanently eliminated based on the aforementioned policy. 
It is imperative that this feature of the UASl program be reexamined to 
assure that limited federal resources are most appropriately allocated 
and that potential recipients, including regions like the New Haven 
area, are given a fair chance to compete for funding.

    Sincerely,
                                               M. Jodi Rell
                                                           Governor

    Mr. Simmons. Moving quickly to New York and the District of 
Columbia, clearly key target areas. Reduced funding does not 
meet the commonsense test for me or for most Americans. I do 
not see the threat reduced. I see the vulnerability still 
there. I do not see any lessened risk.
    And I would like to focus a little bit on the issue of 
human intelligence and police on the ground. I was a CIO 
officer for a decade. Human intelligence is critically, 
critically important when it comes to terrorism, especially 
when you have got Union Station, Penn Station, Grand Central 
Station, very large areas that proposes millions of people 
almost on a daily basis. You know, you cannot just put a camera 
on the wall and say the problem is solved.
    And so the idea that we are going to degrade or some how 
reduce the priority for shoes on the street and increase the 
priority for surveillance cameras, which you may not even have 
enough people to monitor the surveillance camera, this does not 
make any sense to me when it comes to securing the urban areas 
against the terrorist threats.
    And I would like to have our witnesses elaborate a little 
bit on that aspect of this program. This seems to be an aspect 
of the program that does not make sense to me. Are we providing 
the wrong weight when it comes to these applications and when 
it comes specifically to funding human resources, which I 
consider to be critically important in this war on terrorism?
    Commissioner Kelly. Obviously, in our application, we 
looked for significant amounts of money for the human 
investment that we have made. That is both uniformed officers, 
boots on the ground, as the Mayor said, but also our 
intelligence division, our counterterrorism operation.
    We talked about the conviction we received just 3 weeks ago 
in Federal court. That was a result of, I think, a very well 
conducted investigation by our intelligence division in 
conjunction with Federal authorities of these two individuals 
who not only plotted to blow up the Helsway Subway Station, but 
made maps of three police stations in Staten Island and Fort 
Wadsworth.
    That investigation was aided by a confidential informant 
with an undercover police officer. This is open information. 
This officer was born in Bangladesh. He came here when he was 7 
years of age. He did an outstanding job in this investigation, 
but it takes that sort of focus for the Department, I think, to 
protect, obviously in our five boroughs, what we see as an 
ongoing threat.
    So we are looking for resources to enable us to continue 
this program, to also fund, I think, a very sophisticated 
civilian analyst program that we have instituted. We have 
analysts from the top schools in the country: The Columbia 
School of International Studies, the Fletcher School of 
Diplomacy; from our service academies. They have done an 
outstanding job.
    Under the formula that was put out by Homeland Security, we 
cannot get Homeland Security funds for these individuals 
because we have already done this. We have already started 
this. So if we were to pay them under Homeland Security funds, 
it would be supplanting.
    But we are able to hire new analysts, and that is true 
throughout the country. So it gets back to what the Mayor said, 
the whole notion of supplanting; we need these civilian 
analysts who are doing an outstanding job, but we are being 
penalized because we started this program in 2002.
    Mr. Simmons. I would assume the same is true for the 
District of Columbia.
    Mayor Williams. Congressman, I think technology gets 
overbilled, the hardware/software technology. I think history 
will show you far more examples of people, where they have been 
properly supported and motivated, have done extraordinary jobs, 
even if they did not have the latest technology. And there are 
probably many more examples of where you have had great 
technology but you have it invested on the ground, in people, 
and it has been a tremendous flop.
    I think that this overweight on technology, not enough on 
people on the ground who are going to be doing the journeyman 
work, is a mistake. And I think the Chief could attest to that.
    Chief Ramsey. Yes, sir, Congressman. I also think one of 
the things that I think gets overlooked oftentimes is the fact 
that day-to-day crime fighting has to continue to take place, 
and you are drawing resources from that effort when you do not 
get the kind of support from Homeland Security that we ought to 
be getting. There is a lot of talk about people. Well, we need 
people. 9/11 changed policing dramatically. Prior to 9/11, even 
though I was the Chief here in Washington, D.C. I was not 
getting regular classified briefings. I was not concerned about 
homeland security. I was concerned about day-to-day street 
crime primarily. That was my world. That is what I did every 
day. Occasionally a threat would come in or something would 
come in I had to deal with, but it was not constant like it is 
now. Yet we have to deal with this issue and we have to be 
effective at both.
    I have got 76 homicides so far this year in the District of 
Columbia; al Qaeda did not commit one of them. For the average 
citizen living in our District, the threat is street crime, yet 
we have to broaden our perspective and deal with both street 
crime and threats abroad and threats elsewhere. That is the 
real problem, is balancing the resources, and that is what is 
not taken into account here. So we have to be able to do both 
and we can only do both with constant support from the Federal 
Government.
    We can reach the level of a tier 1 city, but then you have 
to maintain your ability to be a tier 1 city. You have to 
upgrade technology. Certain equipment has a shelf life. We 
bought personal protective equipment for all of our officers 
and civilian personnel. Five-year shelf life. You have got to 
be able to replace that stuff. Where is that money going to 
come from? If it comes from the local budget, you are taking 
away from some of the efforts that could be performed out there 
in our communities.
    We need intel analysts. I also need crime analysts. It 
should not be an either/or proposition. It should be something 
that we are able to do both, and do both well.
    Mr. Simmons. Mr. Chairman, thank you. I hope you take to 
heart what we have just heard. On the Armed Services Committee, 
when a four-star general asks for troops, we do not give him 
cameras. I yield back..
    Chairman King. I thank the gentleman for his usually pithy 
insights.
    The gentlewoman from New York who is so committed on this 
issue, Mrs. Lowey.
    Mrs. Lowey. Thank you, Chairman King, for holding this 
hearing and I want to join my colleagues in welcoming Mayor 
Bloomberg and Commissioner Kelly. As a New Yorker, I want to 
tell you that I am so pleased and proud that you are 
representing us and you are in charge of the security in our 
city. I personally thank you. I welcome Mayor Williams. We 
spent some time here, too, and we really appreciate your 
leadership.
    Mayor Bloomberg, I think you, Chairman King, and I 
understand exactly why New York was so shortchanged in its 
grant allocations this year. So I really thank you for being 
here today, for discussing the impact of these cuts and our 
joint efforts to fight for adequate funds to protect the number 
one terrorist target in the Nation: New York.
    But let's be very clear here: First and foremost, this 
administration has led the effort to slash funding for the 
largest homeland security grants. The State Homeland Security 
Grant program, Law Enforcement Terrorist Prevention program, 
Urban Area Security Initiative. In fiscal year 05, the 
President requested $2.45 billion for the three programs; 
lowered it to 2.04 billion in fiscal year 06. Then, again, 
reduced the request to 1.47 billion in fiscal year 07; a 60 
percent overall cut in the pot before you even started divvying 
out the money. And each time Congress made some adjustment, but 
has failed to restore the damaging cuts to these programs.
    Frankly, this is an unacceptable insult to every official 
and first responder working day in and day out to protect New 
York.
    I am also pleased to be joined by Joe Crowley, who I am 
sure will associate himself with my remarks, from Queens 
County.
    I offered a motion when the bill came to the floor to 
recommit the fiscal year 07 spending bill to require that 
States receive no less in fiscal year 07 than the higher of the 
amounts received in fiscal year 05 and fiscal year 06. 
Unfortunately, this amendment failed. Some people like Chairman 
King supported it, but this amendment failed overwhelmingly.
    The buck stops with the President, and we need you to join 
us in pushing the President to insist that the Republican 
majority in the House and Senate restore these funds in the 
fiscal year 07 DHS appropriations bill before it completes the 
process. It has to go to the Senate, then it goes to 
conference. We cannot just say, okay, that is it. We have to 
push the White House. We have to push the majority in the House 
and Senate to get this done, because the safety of my kids, 
your kids, and all our neighbors are at stake.
    Now we know New York took its greatest hit in the UASI 
program. It was designed to help the top urban high-risk areas, 
because it has been stretched too thin. New York is protecting 
its citizens from cyanide bombs in the subway. Columbus, Ohio 
is buying bulletproof vests for the police dogs with Federal 
grant funds. Since fiscal year 03 the number of recipients for 
UASI has increased from seven cities, as you mentioned, Mayor 
Bloomberg, to 46 regions comprising 53 cities. Seven cities to 
46 regions, 53 cities.
    This year the original seven UASI cities will receive only 
50 percent of total funding. New York will receive, as you 
mentioned, 40 percent less than last year and its share of UASI 
has been cut by 30 percent.
    In addition, DHS's efforts to base funding for all the 
grants on risk just frankly failed. They created a confusing 
process that, among other things, poorly categorized critical 
infrastructure, evaluated assets that pose little to no risk of 
being attacked, and lack common sense. You referred to the 
Statue of Liberty. You referred to the Brooklyn Bridge. Just 
another bridge, just another asset.
    DHS. The Department of Homeland Security's assessment 
deemed New York Police Department's counterterrorism program, 
which has been touted by FBI Director Mueller and former 
Secretary Ridge ineffective. Ineffective. Now, I remember when 
the Chairman and I went down to meet with you, Commissioner 
Kelly, and we were impressed. You were doing counterterrorism 
when the CIA was still trying to get its act together, so we 
thank you for that. One thing is certain frankly, though; 
programs that go unfunded certainly will not be effective.
    So, as you can see, some of us get a little upset about 
this. We live in New York, we love New York, we care about New 
York. If New York is the number one threat and Washington is 
right there, too, it seems to me they should be getting the 
greatest share of the money and they should not be cutting back 
on the money that you have already gotten in the past.
    So, Mr. Mayor, Commissioner Kelly, Mayor Williams, can you 
work with us to get this change before the process is 
completed? We need you to talk to the President. We need you to 
talk to the Senate. We need you to talk to the House. They all 
happen to be of the same party. And if we can get this done, 
then you can do the job. Can you work with us, Mr. Mayor?
    Mayor Bloomberg. Congresswoman, one of the things that our 
administration has tried to do is to work with all branches of 
government at every level and all parties. We believe that if 
everybody works together we can improve this country and 
improve the level of protection. I think that there are 
certainly enough ways to improve the system that everybody can 
participate, and I would urge everybody to understand what the 
real risks are here. This is not a partisan thing. This is not 
a geographical thing. It is true that New York and Washington 
are far and away the most likely targets; but remember, if 
there is an attack on either of those two cities, it is all the 
people of this country that suffer. Even if they might not 
suffer physical damage, the economic damage and the ability for 
them to have a better life for their children is certainly 
impaired.
    Mrs. Lowey. Mr. Mayor, in closing I just want to make it 
clear this committee, led by Chairman King, has operated in a 
bipartisan way. Our delegation has operated in a bipartisan 
way. We are continuing to push for the funds in a bipartisan 
way. I also want to make it clear it is not strange, it is not 
coincidental that New York was cut 40 percent. The request from 
the White House was cut 60 percent. So the committees are 
working with less money.
    So if we are going to make a change to this process before 
it is over--this bill passed the House and Chairman King 
certainly supported the motion to recommit to get the money 
resubstituted--if we are going to make a change, and I feel it 
is a life-or-death issue, we have to address the White House, 
we have to address the House and the Senate, because the 
process is not over.
    So I hope, Mr. Mayors and Police Commissioners, that you 
will work with us to push as hard as we can. It is a life-or-
death issue in a bipartisan way with our Chairman to get this 
done.
    Mayor Bloomberg. Congresswoman, let me say when I hear you 
or the Chairman or the President all say that these moneys 
should be distributed on the basis of threat and risk, that 
puts a smile on my face and I think the three of you are 
absolutely correct.
    Mrs. Lowey. Mr. Mayor, I just want to say one other point 
and make it again. We have the bill to distribute the money 
based on risk for all of these programs passed in the House 
three times. It has not passed the Senate. We are pleased that 
they will use a risk-based formula. But if you are dealing with 
a cup of sugar and the recipe calls for six cups of sugar, you 
cannot get the six cups of sugar out of the one cup of sugar. 
So we have got to increase the pot. And before the process is 
over, I hope you will all work with us because I know how hard 
you are working in New York and in Washington to get the 
President, the House and the Senate to acknowledge that if we 
are putting, as my colleague from Connecticut said, billions of 
dollars into Iraq and we both vote for it, we cannot cut back 
on homeland security dollars because the implication is clear.
    And I thank you and I thank the chairman, and I hope we can 
all work together in a bipartisan way, Mr. Mayors, to get that 
money back. Thank you.
    Mayor Williams. You would certainly have my commitment, 
Congresswoman, to work with you on that basis with the chairman 
and Congresswoman Norton on a bipartisan basis to work on not 
only increasing the pot of sugar but the allocation for the pot 
of sugar.
    Chairman King. I would just say for the record that I only 
allowed the gentlewoman to go so far over her time because she 
was saying such good things about me.
    Mrs. Lowey. We are a good team.
    Chairman King. The gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman. Gentleman, 
thank you for your presence here today. To the Mayors, of 
course, thank you for your work in our communities around this 
country. This is a very complex formula, no doubt about it, 
whether you are looking at the funding grants or the 
discretionary grants.
    My first question to Mayor Bloomberg or Mayor Williams, do 
you fully understand the complexities of the funding formula so 
that you know and you are comfortable with your applications 
that they are meeting the needs and the expectations of those 
people in the Department of Homeland Security when they issued 
those grants?
    Mayor Bloomberg. I didn't personally write most of the 200-
page report. I have read most of it. I cannot tell you that I 
remember every single line or every single number. This is a 
compilation of work from the heads of the Police Department, 
the Fire Department, Office of Emergency Management, which 
pulled it together and all the other city agencies.
    New York City and Washington, D.C. really are different in 
the sense of the complexity, and I think one of the problems 
that some big cities always have is that if you try to write a 
request for a proposal or whatever that applies to everybody, 
it really winds up applying to nobody or certainly not applying 
to those that are different. New York city's police department 
is bigger than the next four police departments in the country 
added together. That is not to say that the other police 
departments, even some very small ones, are not very competent. 
Every city adjusts the size of their police department to what 
they think is appropriate to protect the people. Commissioner 
Kelly and I are very proud of the job that we have done in New 
York City. We have brought crime down dramatically in the last 
4 years and it is a process that sadly we have to continue. We 
will always be faced with that.
    Mr. Gibbons. Excuse me for interrupting. I think you made a 
very important point and I only have a very limited time to ask 
these questions. I think the issue is that in order to meet the 
expectations of the Department of Homeland Security in issuing 
these grants and their formula, which are very complex and 
according to the Department of Homeland Security, that the 
understanding of your communities, whether it is Washington, 
D.C., New York City or Las Vegas, Nevada are different in what 
our needs are.
    Mayor Bloomberg. Yes, Congressman, I would argue that if 
Homeland Security's obligation is to try to find how to 
distribute the funds in the most effective way to protect this 
country, to say that we are going to have a process and if you 
don't like it, tough luck, that is not their objective. It 
shouldn't be their objective. Their objective should be to get 
the best compromise possible. We have limited dollars and some 
things are subjective.
    Mr. Gibbons. That is why the formula is so difficult for 
anybody to understand. Because what would be important for New 
York City or for Washington, D.C. or Las Vegas, Nevada might 
not be the same requirement for Portland, Oregon, or for Omaha, 
Nebraska, which makes me wonder how the formula can be set in 
stone or determined on the homeland security basis to meet the 
needs of New York, Washington, Las Vegas, Omaha, Nebraska, 
wherever. That was my question. My question was do you feel 
comfortable you know what they expect out of you to get the 
right determination for getting that grant?
    Mayor Williams. Well, the chief can amplify what I am 
saying, Congressman, but I wouldn't be sitting here if I really 
knew what the risk assessment was or what the process was or 
what the allocation was.
    Mr. Gibbons. So we have to invent the wheel every time we 
apply for a grant?
    Mayor Williams. It should be an objective, transparent 
process and it isn't, I don't think.
    Chief Ramsey. Congressman, the formula no doubt is 
complicated and probably has a little bit of everything in it 
with the exception of common sense. That is the one thing that 
is missing. The other things I would say is that I am very 
pleased that we dropped to the bottom 25 percent in threat. I 
feel real good about that, but I never got a classified or 
unclassified briefing to tell me why. How could we possibly 
fall that far that quickly? Now maybe someone is just pulling 
my leg because I am constantly getting phone calls. I have a 
briefing tomorrow at the FBI about different investigations and 
so forth. I have not seen anything that would make us fall that 
far. It makes absolutely no sense.
    So whatever formula they came up with they need to rethink 
it because it will not get you to the Moon. It won't get you 
off the ground in the way in which they have calculated it 
right now. If the threat is expanded for other cities, then 
guess what, put more money in the pot and give them what they 
need, because unless we have an umbrella protection around this 
country, then we are not safe. And if one of us is not safe, 
none of us are safe.
    And I think the last thing we should do is get involved in 
who got how much money and start fighting amongst ourselves 
because the whole goal has to be homeland security, from coast 
to coast, from sea to sea. It has to be, and that is exactly 
what is failing in this entire process. The funding strength 
should be multiple years, not just one year. It should not be, 
guess what you get behind door three next year.
    What is wrong with having a spending plan that gives you a 
3-year projection so you can plan accordingly and make sure 
that you have got what you need. These are the kinds of things 
that are missing.
    But I do not want to take anything away from the master's 
degrees and doctorates and all the folks that had all these 
degrees that put together this formula. But they are missing 
something here. The cake is just not being baked properly. It 
is just one of those that just will not rise.
    Mr. Gibbons. Well, I know the frustrations are out there. 
Even in Nevada when you deal with Las Vegas and the fact that 
Las Vegas, the information that was presented to Homeland 
Security obviously did not make it into the, whatever you turn 
the cake mix with to make it work, because Las Vegas got taken 
off but when you look at their criteria for what they consider 
to be the requirements for getting this and the information was 
given to me, somehow it is not getting through the system. 
Whether the screen is too fine and the information that has got 
to go through that screen does not get there, something is 
wrong with the formula. And Mr. Chairman, I hope at some point 
we get an answer as to how the formula is actually constructed.
    Thank you.
    Chairman King. The gentleman's time has expired. The 
gentlewoman from the District of Columbia, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. Mayor 
Bloomberg, everybody seeks to identify with New York in some 
way. I do want to say at the outset that I am a native 
Washingtonian who also loves New York, and I have a lot of 
reasons for that. Both of my kids were born at Mount Sinai 
Hospital. I was an appointed commissioner in the New York City 
government. So I feel your pain in lots of ways along with our 
own.
    In fact, the question I am going to ask is based on 
something from the Mayor's testimony but it is really a 
question for you both because as we search and we scratched our 
heads, I am on another committee that also has raised the same 
question about Washington and New York. The Mayor says in his 
testimony at page 7 that we are not going to face more risk but 
we will not be able essentially to make the improvements we 
should make.
    Now, of course, we can argue about that. That is really not 
the point of my question.
    The police chief has already talked about equipment that 
has a shelf life. Everybody knows we have got to be better off 
than we were when the Pentagon was hit and when the World Trade 
Center was hit.
    But then he says the problem is we have to improve our 
capacity and that the items he listed in his testimony would 
not allow us to get it done ``at least as soon as we would have 
liked.'' Now I am really, this is the basis for my question, 
and it is a question for New York as well. I am asking a 
question essentially trying to look at a way to revise this 
formula, this cockeyed formula which may keep giving us the 
same results.
    Mayor Williams, you referred among these items, and I can 
choose any one, to explosive device response as the ones among 
the areas you identify. The fact is that we have eight bomb 
squads in this region and not one of them meets part one of the 
FEMA requirements. They all go out. They get it done. But they 
are not top, not one of them are a top bomb squad. So over time 
we will get it done. Or let's look at WMD hazardous--let's look 
at interoperability communications. This is a region unlike 
most areas. We are really talking about three States here. So 
the notion that something happens, half the Federal presence is 
in Virginia and Maryland, that there would not be instant 
communications, that would make everybody's hair stand on end.
    So in trying to figure out if these are the two top targets 
of al-Qaeda and there is this kind of unfinished business, 
should not another element of risk be the urgency of 
eliminating at least certain kinds of vulnerabilities. That is 
to say, what is the cost of delay, what is the cost of delay 
here as opposed to other places when you are talking about WMD 
hazardous materials response, Mr. Mayor. And we are talking 
about all the Federal workers getting here using WMATA and 
WMATA subway tunnels, and we not being prepared to deal with 
biological or chemical attack there.
    So my question really goes to not really only over time if 
we keep giving money will these vulnerabilities be shored up. 
It is whether or not the highest targeted places can afford to 
do anything but have the most rapid elimination of certain 
vulnerabilities in order to ensure their security, and I just 
would like you to speak to the notion of timing of what gets 
delayed and what your view is of delay when it comes to the 
places where al-Qaeda and other terrorists are most fixed upon.
    Mayor Williams. Congresswoman, I didn't mean to insinuate 
by saying that we are going to do the best we can in a 
difficult situation to imply that we are fine, do not worry 
about it. In fact, where the threat is at the same or 
increasing, if you are not improving your situation is 
deteriorating. And I think the chief can point out some 
specific instances for you.
    Chief Ramsey. Yes, ma'am. I mentioned earlier that a lot of 
what we had planned to do would be delayed. For example, an 
intelligence fusion center. We have a command center and 
operation center but it cannot receive certain classified 
information right now. It is not networked with other fusion 
centers in the region to a point where the kind of 
interoperability that exists for sharing information is there. 
We have people in the different fusion centers, we do a lot by 
telephone. We meet on a regular basis and all that. But 
electronically this money would have allowed us to be able to 
have that interoperability quicker that is going to be delayed. 
Interoperable communications, we are talking data, video, we 
are talking about the Mayor's Command Center upgrades, mobile 
communications, chemical, biological, our CBRNE response 
capabilities. It is not that we do not have this but certainly 
to try to raise to a tier one as you mentioned earlier--I mean, 
we have a very, very good, capable bomb squad, but there are 
certain requirements to be considered tier one that need to be 
met and that process gets delayed. And again that is not an 
overnight deal. A lot of training goes into an individual being 
qualified to work in a unit like that. A lot of equipment is 
needed. That equipment and technology constantly changes and 
you need to upgrade and you need to make sure that you have 
state of the art equipment.
    Our investigative response, whether it is from our 
emergency response team, our harbor branch, air support, 
whatever it might be. That is a constant effort. And one of the 
downsides of the fact that there hasn't been another attack 
since September 11 is that it becomes more and more difficult 
to keep officers focused on this aspect of police work. So you 
have to have constant training, constant exercises, things of 
that nature, so people stay sharp and that is one of the things 
that all of us have to guard against. And I think that that 
somehow sometimes gets lost.
    So the training, the exercises, all those kinds of things, 
can we do it with what we have got? We can do it but to a 
lesser degree.
    Mayor Bloomberg. Congresswoman, I think when you talk about 
spending money for security, there is no question that if we 
had a police officer in every block and a firehouse on every 
block the public would be safer. But in the real world you 
obviously cannot do that. So there is a judgmental component of 
what is an appropriate level of resources to devote to 
prevention and to training for response. In our city what I 
have said repeatedly to the public is we will do everything 
that the police commissioner and the fire commissioner and the 
other commissioners tell me we absolutely have to do to keep 
our city safe, and I will then go and worry about how to pay 
for it elsewhere.
    When you ask what have we done without because we do not 
get a particular grant, let's say from Homeland Security, the 
answer really is found in our school system, in our libraries, 
in our cultural institutions, in helping those who are less 
fortunate because in the end there is only so much money that 
we have. All of these moneys are fungible and if you say your 
number one priority is security, which I think it has to be, 
then everything else suffers.
    But we have, for example, spent the money to make our 
radios interoperable. That has become a buzz phrase. Our police 
department and fire department are able to communicate 
electronically. What is more important is they spend the money 
and we spend the moneys to get them to train together all the 
time so they know each other and their interoperability is at 
the level on the scene where the ranking police officer and the 
ranking fire officer make those life saving decisions that only 
people with experience and training and knowledge of what is 
going on right then and there can do.
    We still have a long ways to go. We would like to have more 
communications to share data as well as voice, but in the end 
the answer to your question is that we have to go, and I think 
Mayor Williams said it very well, if you do not constantly 
train and improve you fall back because the enemy is constantly 
changing and going about things in ways that they do not repeat 
the things of the past. They know we will be ready for them. 
The problem is we have got to be ready for something we have 
never seen before.
    Commissioner.
    Commissioner Kelly. One program that certainly is on hold 
and we were led to believe that we were going to receive 
funding for is our Lower Manhattan Security Initiative. We are 
putting, or at least our plan is to put increased security in 
Manhattan below Canal Street. It is an area of course that has 
had two successful terrorist attacks. New York is still the 
financial capital of the world. In that area we are going to 
have the Freedom Tower constructed, we are going to have the 
Goldman Sacks Tower constructed, the New York Stock Exchange is 
there. The American Stock Change is there. The World Financial 
Center is there, and there is a lot of construction planned for 
that area.
    We had requested moneys for that program. It would have 
involved additional cameras. There are 535 intersections in 
that area. We wanted to have cameras at half of those 
intersections. We wanted to put in license plate readers, 
physical barriers that would enable us to cut off that area if 
necessary and a coordination center where public and private 
stakeholders would man a coordination center 24 hours a day. We 
believe that is a very important initiative. That is now put on 
hold as a result of the funding that we have received from 
Homeland Security in 2006.
    Ms. Norton. Thank you. I just want to say, my point here 
was, and I think you have responded, is factoring in the cost 
of delay as a cost in security. And there are certain things 
that high targeted cities like New York and Washington would 
hate to get caught not done. And it does seem to me that 
Homeland Security figured whatever else you do, we agree that 
those things must be done, the tunnels, for example, or the 
interoperability. And I think you made it clear that there 
would be some, there would be some advantage in it. And instead 
of just looking at these things as a list and figuring out 
these things, if you do not do them now maybe it will not 
matter at all. So let's at least get those things done.
    Chairman King. The time of the gentlewoman has expired. 
Commissioner Kelly, the project you are referring to is similar 
to what is in the City of London, right, the Ring of Steel?
    Commissioner Kelly. Yes, it has similarities and we of 
course consult with them. They call it the Ring of Steel. We 
also want to enlist and bring together the private security 
personnel, particularly in that area. We are doing it generally 
throughout the city, but particularly in that area. So yes, it 
is roughly similar to the so-called Ring of Steel in London.
    Chairman King. Recognize the gentleman from Texas, Mr. 
McCaul, who was the chairman of the Investigation Subcommittee 
and former member of the Joint Terrorism Task Force. Mr. 
McCaul.
    Mr. McCaul. Thank you. It is good to see you all here 
again. I think I was just as shocked as the chairman was when 
we got the news that funding was cut nearly in half not only 
for New York, Washington, but my home State of Texas. Let me 
get your comment. One thing I heard is that landmarks were not 
considered targeted assets. I used to work at counterterrorism 
in the Justice Department. I recall in 1995 that Ramzi Yousef, 
who was the architect of the 1993 World Trade Center met with a 
guy named Khalid Sheik Mohammed, who was his uncle in Pakistan, 
and discussed with him the idea of flying airplanes into 
buildings, including landmarks, and that was the specific 
language of the reporting I saw, including landmarks, because 
of the high psychological significance of hitting a landmark. 
Like the Statue of Liberty, like the Washington Monument or 
like the United States Capitol. And of course we know Khalid 
Sheik Mohammed was the mastermind behind September 11.
    So I am just baffled and I wanted to get your feedback as 
to why a landmark of that magnitude is not considered to be a 
targeted asset, at least your understanding of talking with 
DHS.
    Mayor Bloomberg. I do not think any of us can give you a 
good answer to this. I think it goes back to what we talked 
about before where it seems to me that Homeland Security's job 
and what this committee should be ensuring that they do, and do 
well, is to figure out where the moneys should be spent, rather 
than setting up a competition and seeing who can write a better 
report or a report that pleases them or defining things one way 
or another.
    If you went to the private sector, to the insurance 
companies and said where is the risk, I do not think anybody 
doubts what they would say. It would not have New York and 
Washington way down, quite the contrary. It would have the two 
of them up there and there would be three or four other cities, 
maybe you get to seven, some number like that, and then there 
would be a gap. Because while there are clearly things 
throughout this country that are critical to the 
infrastructure, to the survival of this country, to our economy 
and our ability to live our lives, those tend not to be, most 
of them, targets. And what you are trying to do is to prevent 
an attack and so if the critical item is not a target, having 
Homeland Security moneys to protect that does not make a lot of 
sense, particularly in a world where we will never have enough 
money. Even Washington does not have enough money to do 
everything.
    What this is about is setting priorities and when you set 
priorities the easiest way is to say, well, everybody gets 
something because then nobody gets disappointed and nobody has 
to go home and explain why for this particular program they 
didn't get any money.
    Now nobody has asked me in a long time nor have I come to 
Washington to argue that New York should have more money than 
the next agriculture bill, but nevertheless I think it is very 
similar. There are places that deserve agriculture money 
because they have agriculture. There are places that should get 
the most of the Homeland Security money because they have 
targets. And the questions that you are asking us, how the 
structure, the application process is, seems to me you should 
ask them. And their obligation is to have an applications 
process that produces the results that are in the country's 
interest. Not to say, well, here is our process and if you do 
not pass, so what? The question of the applicability of their 
process is what you should be talking about.
    Mr. McCaul. Mr. Chairman, I think this is the clarion call 
to have the faster and smarter funding bill passed out of the 
Senate. It has been sitting over there. It is the reason why we 
have this result today, and it is time for this to pass.
    And if I could just ask one last question. $5 billion in 
the pipeline, unspent money in, do you understand why that 
money is being held up and why it is not being allocated to the 
States and locals?
    Mayor Williams. I have no idea, Congressman, and I would 
just echo what Mayor Bloomberg is saying. I think there is a 
risk assessment which I would question and then there is the 
process used to allocate based on that risk, and both are 
problematic.
    Mr. McCaul. I yield back the balance of my time.
    Chairman King. The gentlewoman from Texas, Ms. Jackson Lee.
    Ms. Jackson-Lee. I thank you very much, Mr. Chairman. I 
thank you and the ranking member for what I think is a 
provocative, a vital, crucial statement being made by this 
Congress and the responsibility that we have of oversight.
    I make a simple point and I hope that it is one that 
resonates with the Department of Homeland Security and also 
that fighting terrorism is not business as usual. And frankly, 
if we were to be truthful in the process, I think the simple 
questions of the applicants should be how do we protect the 
homeland from terrorism in the homeland? That is one question. 
And how do we fight the terrorists? And if cities who are at 
risk with targets can enunciate and detail those particular 
questions, which I think is what we are asking you to do, then 
my question to DHS in a very fair and hopeful objective and 
factual seeking manner is why.
    I noticed that there was quite an array that fall on this 
list and they are all attractive cities, and I might say that 
Houston is included. And so I certainly would not want to pull 
any off the list and give any commentary about whether they 
need more agricultural money, but I might agree with you, Mayor 
Bloomberg, that some of these might be more apt to get more 
funding in agriculture. And this is not to denigrate the 
interest of cities across America.
    As I speak about where we are and whether we need the 
furtherance of the many legislation that my good friend has 
spoken about that has stalled in the Senate, I have to admit 
that all we need to do is take the backdrop of 9/11. It is sad 
that sometimes our memory fades. The absolute horror and fear 
that struck America and certainly struck all of us as we 
watched our cities, New York and Washington and other cities 
whose names were floating around. I recalled standing on the 
grassy knoll of the Capitol watching the Pentagon, phones 
jammed but rumors floating. Commissioner Kelly your predecessor 
Lee Brown was the Mayor of Houston at that time. We were very 
fortunate, and finding out or thinking or getting a rumor that 
planes also were headed to Houston, Texas. Why? Because it is 
noted as the energy capital of the world.
    But as I look at my own set of circumstances I find that 
even though we might be in the mix, we were subjected to, 
Houston, a 10 percent decrease in funding and if you compared 
our 2006 funding to our 2005, we actually got in 2005, 2006 
dollars, $3 million less. And these are cities I think that 
clearly speak to the question or the, I think, formula that you 
have utilized, Mayor Bloomberg, which is threat and risk as I 
understand it. And I think your point was just because there 
are critical sites does not make it a risk and we should 
combine threat and risk together. And I think both you and 
Mayor Williams are clearly in that vein.
    Let me cite for you a process utilized by the DHS, and I 
would welcome your comments. Information Bulletin 99 said, 
essentially it told the State and local governments that DHS 
could not answer questions about the application process. The 
bottom line, DHS was not going to provide guidance but only 
directives.
    So you could not engage, as I understand, to even find out 
whether you were off the beaten path. And let me add this point 
and I yield to you for questions. When I look at the language 
that is used for these grants, again, I said simply how do we 
fight terrorists on our soil, I see these words, ``relevance, 
the relationship of the investment to the tenets of the interim 
national preparedness goal.'' Commissioner Kelly, I guess you 
have to spend some time trying to understand what that is all 
about.
    Regionalization, which I think ``communications'' would 
have been a good word, ``sustainability,'' ``implementation 
approach,'' ``impact,'' and then they go down to say ``the peer 
review committee.'' ``Relevance to interim national 
preparedness goal implementation.'' ``Connection to the 
enhancement plan.'' ``Complete picture.'' ``Innovativeness, 
feasibility and reasonableness.''
    My question to you is if we are in the business of fighting 
terrorism that raises its ugly head every day, can you instruct 
us on what you would think would be the fine points that we 
need to ask as the bureaucrats of DHS are doing the best they 
can do to get to the crux of the problem in terms of providing 
dollars where they need to go?
    Now you made the general statement about risk and threat, 
but if we wanted to be fair and say there was a criteria what 
should it be, putting aside the fact of course that you have 
talked about the needs, and I will start with you, Mayor 
Williams, the needs that you have before general crime 
fighting? And I am sorry we cut the COPS program and a number 
of other programs that would help you. What would be something 
that we could point out and give directive as we write 
legislation as it makes its way back to the House.
    Chairman King. If the gentlelady would yield, I was going 
to say Mayor Bloomberg has to leave in about 15, 20 minutes. I 
would ask the witnesses to limit the answers to 30 seconds, and 
each of the other questioners to stay within the 5-minute limit 
so we can get as many people to question Mayor Bloomberg, and 
then any follow-up we can give you in writing.
    Mayor Williams. I would just say, again, and I will be 
brief, recognizing that Mayor Bloomberg has got a tight 
schedule. Again, you have got risk out there in terms of, you 
know, the probability of something happening, the severity of 
something that happens, it is not based on area. It is not 
based on the quality of someone's application. If I get a lower 
SAT score than Mayor Bloomberg, so what? Because the country is 
advancing, because of a higher SAT score people are moving 
forward. This isn't like that.
    Let's assume my application wasn't written well, and you 
step in there, and you fix the problem because again the risk 
is based on locality. That is the number one consideration.
    Chairman King. Mayor Bloomberg.
    Mayor Bloomberg. Number one, let me thank the people of 
Houston for everything you have done for the people of New 
Orleans. You are a role model, and I was lucky enough to have 
the Mayor of Houston Bill White as our guest to look at how we 
are doing, building affordable housing. And I think Mayor 
Williams said it exactly right. This is not a competition of 
who gets the highest SAT scores. This is a competition of who 
needs something and it is the Department of Homeland Security's 
obligation to help them write an application that presents the 
facts, not to put them in the competition. They just seem to 
have the objective wrong here.
    Chairman King. Gentleman from the State of Washington, who 
is the chairman of the Emergency Preparedness Subcommittee and 
former sheriff of King County, Mr. Reichert.
    Mr. Reichert. Thank you, Mr. Chairman. First of all, I can 
certainly identify with the chief and the commissioner on 
managing your resources on much smaller scale, as sheriff in 
Seattle with 1,100 employees, not 40,000, but still struggling 
with the same sort of issues. And Seattle is one of those 
cities that has been identified as a risk in this Nation, and 
we have had several instances that have occurred within our 
region. And we took a 24 percent cut in our grant funds.
    But I wanted to just focus on--everyone on the panel today 
has made similar comments in that we are in a new world, that 
we need to think anew, and recognize and realize that the 
attack on September 11 changed the world and changed this 
Nation, and we should be focused on protecting our country and 
those cities that are most vulnerable, and threat and risk is 
the way that we need to move. There are some questions about 
grant moneys, and I wanted to just ask--I have a list here of 
moneys. First, responder funding. Both cities receive first 
responder funding, funding from DHS?
    Mayor Bloomberg. Sure.
    Mayor Williams. Sure.
    Mr. Reichert. Do you know the amount?
    Commissioner Kelly. I don't know if you break it down into 
first responders. It would depend on what category you are 
talking about. As far as the police department is concerned, I 
mentioned before we had received a total since fiscal year 2002 
of $280 million. Obviously we are first responders. Fire 
department has received over a $100 million in New York City.
    Mr. Reichert. These are grant categories. You want to 
receive moneys. That is certainly why we are here today, State 
Homeland Security Grant Program, moneys from that. Law 
Enforcement Terrorism Prevention grants, Port Security grants.
    Commissioner Kelly. Yes. Yeah. We received, I think, $28 
million of that. That program, by the way, is being eliminated, 
I believe, the Terrorist Prevention Program next fiscal year.
    Mr. Reichert. Firefighter assistance grants, those are 
all--I just wonder, how much money--first to Mayor Williams. 
How much money does the City of Washington, D.C., get in 
Federal grants to assist them in their efforts to protect?
    Mayor Williams. Yeah, comprehensively--
    Mr. Reiskin. Congressman, the State this year--as a State, 
the District of Columbia is getting about $7.5 million from the 
Department of Homeland Security outside of the UASI process. 
That is the State Homeland Security Program, Law Enforcement 
Terrorism Prevention Program, and $165,000 for Citizen Corps. 
That is what we get as a State. There is no separate first 
responder program that I am aware of.
    Mr. Reichert. What is the total Federal grant moneys to the 
fire department, police department, emergency management, Mr. 
Mayor? Would you know?
    Mayor Bloomberg. This year, under the proposed budget we 
will get $124 million. As I pointed out earlier, our budget, if 
you add $5.5 billion annually for the police department, which 
doesn't count our capital budget, if you add another billion 
and a half or so for our fire department, which doesn't count 
our capital budget, so a lot of things in homeland security 
where they give you money for capital items, that is just a 
whole separate thing for us and then all of these other 
agencies. The problem is that sometimes the ways that Homeland 
Security divides out, and I understand they are trying to craft 
something that applies nationwide. I tried to make the point 
before that as the old joke about clothing, one size fits all, 
fits nobody.
    Mr. Reichert. Yes. The $250 million that you say you spend, 
that comes directly out of the police department's budget? Or 
does the city increase the police department's budget to 
accomplish that? Do you have to remove personnel from the 
streets from other assignments, sir?
    Commissioner Kelly. The $280 million we receive--
    Mr. Reichert. The Mayor mentioned the $250 million a year 
figure you spend in the police department.
    Commissioner Kelly. Yes. Right. Again, it fluctuates from 
year to year depending on the threat to a certain extent, but 
it comes through the police department budget, yes, sir.
    Mr. Reichert. Since September 11, you have received Federal 
grant moneys and you have purchased some equipment in both 
cities and also accomplished some training. What are some of 
the things that you see? First to Mayor Williams, what are the 
things--specific things today that you need to spend some of 
your money on as far as equipment and training? Does the 
chief--
    Mayor Williams. Yeah. The chief in an answer to a previous 
question, Congressman, mentioned the need for training, 
mentioned the need for enhancement of intelligence analysis, 
which asks that it be based on the ground level.
    Mr. Reichert. The fusion center.
    Mayor Williams. Exactly, yes. Fusion center process. And in 
response to another part of your question, talked about in 
terms of the impact, not only are we failing to keep up with an 
ever changing and increasing threat, which is serious in and of 
itself as to the terrorism aspect of this, there is a back felt 
aspect of this, other consequence of this, which is resources 
you are putting here, right. Mayor Bloomberg alluded to this. 
You only have a limited number of funds. If you say that anti-
terrorism, counterterrorism is your number one priority, then 
those are funds that would have been going into your 
neighborhoods, would have been going into better health care, 
would have been going into other things that a city necessarily 
has to do.
    Mayor Bloomberg. Congressman, a lot of times people ask the 
question, well, you got this money last year. Why do you need 
more money? And the truth of the matter is virtually everything 
that we do to provide homeland security for our homeland is a 
recurring expense, the moneys we spend with police on the 
ground, we are going to have to have people next year. The 
training, every year there is turnover but there is also new 
things to learn and there is refresher stuff. Equipment, it all 
has service lives, it all requires maintenance. You buy a 
computer, the software--ongoing maintenance and software costs 
more than the computer every single year. So this argument that 
we gave you some money at one point in time, therefore, you 
should be protected forever, just isn't very realistic.
    Chairman King. The time of the gentleman has expired.
    Mr. Reichert. May I make one comment, Mr. Chairman?
    Chairman King. Of course.
    Mr. Reichert. Mr. Mayor, you just made my point for me. 
Thank you very much.
    Chairman King. The time of the gentleman has expired. I 
would advise the committee we will have to end this first panel 
at 12:15 and then 15-minute recess, we will go to the second 
panel.
    The gentleman from Paterson, New Jersey, my good friend, 
Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Chairman King. Who has been patiently waiting.
    Mr. Pascrell. It is good to talk and listen to fellow 
Mayors. There is only 26 of us here, you know. That is part of 
the problem. This is a sham, not this hearing, but this whole 
operation, and we blame the folks that come before us in 
Homeland Security because we look for scapegoats, but you know 
better, let's be honest. Your funding--each of you in your 
cities, Mayor Williams, Mayor Bloomberg--was cut 50 percent in 
areas that we haven't even talked about. State homeland 
security money, yours was cut 50 percent, yours was cut 50 
percent, Mayor, so when we talk about the urban part of this, 
the urban side of this, which both of you were devastated, 
unless you understand the day-to-day operations of the 
community, small or large in this country, you have no idea. So 
the pressures that are placed on both of you in terms of--you 
have heard it mentioned on both sides of the aisle, of the COPS 
program being decimated, the administration attempting to cut 
by 35 percent the fire grant dollars that puts more pressure on 
you to get the job done on a day-to-day basis. So there is 
bipartisanship here, but when we leave this room, it is not 
bipartisanship. I don't mean the people in this room. I am 
talking about what is happening here and across the street. So 
we are going to have Homeland Security come after you, and they 
have to bear the brunt. They have to protect the folks down the 
street that have given us a budget that literally cut your 
funding for the whole country by $1.4 billion. So the pie got 
smaller, and we have decided to cut it up in a different way. 
So that is where we are in this moment of time.
    The per capita even makes it look worse, makes it look 
worse. So what you brought up weeks and months and months ago, 
Mayor Bloomberg, about the per capita was not just a sidebar, 
it goes to the very, very heart of the matter, of what you need 
to do day to day. I asked Governor Ridge when he was in charge 
of this monstrosity that we put together, I asked him, did you 
ever see the terror on people's faces in neighborhoods that 
don't know whether their kids are going to come back from 
school? You ever see that terror? How do we respond to that 
terror? We respond by putting uniformed police officers, as we 
have done since 1993, out in the street. Of course if they are 
there, we can do that in community policing. What has that got 
to do with terror? It has a lot to do with what you have to 
deal with day in and day out. And frankly, I don't know how the 
hell you do it.
    I am being honest with you. I have got a question for both 
of you.
    Much has been said about the massive $83 million cut in New 
York City. Much has been said about the $31 million cut in the 
UASI money imposed on Washington, D.C. These are obviously 
significant sums of money, but I think that sometimes we all 
lose sight of the real significance of these cuts when we just 
speak in terms of dollars. Can either of you or your chiefs 
respectively in their areas, can you speak about how these cuts 
will impact your daily operations? What happens to New York and 
Washington, D.C., when we have to increase the alert? Does it 
cost you anything? If we understand your plight, we don't make 
these dumb moves that we are making in this budget. Either one 
of you or all--
    Mayor Bloomberg. Congressman, I think, you know, Mayors--I 
probably speak for all the Mayors of small towns and big 
cities. We have budgets that we have to live within. The public 
wants more services and doesn't want to pay any more local 
taxes. We have to make decisions, allocations, pick and choose, 
cut back and increase depending on what there has--what the 
needs of the day are. But what we can't do is we can't adjust 
our security kinds of activities every day or every year based 
on funding. We have to hire people and train them, we have to 
build buildings, we have to buy equipment, we have to train, 
and those are--as Chief Ramsey said, those are long-term 
commitments that require a consistent funding stream, and that 
is one of the things that makes dealing with this so difficult.
    Mr. Pascrell. Mayor Williams.
    Mayor Williams. Congressman, again there is two parts to 
this. I keep saying there is a risk assessment and then there 
is a funding. Now, based on the risk assessment, really we 
shouldn't have any problem because I am going to expect to see 
80 percent fewer requests for aid over the next year because 
apparently everything is fixed. Now, that is not going to 
happen. We know that. Look at the presidential inauguration, an 
unprecedented level and show of force at the presidential 
inauguration, recognizing that like New York the financial 
center of the world, Washington is the political center of the 
world, right? How has that changed? I can't even fathom that. 
And the chief can talk to you, as he has in our previous 
answers to questions, the impact material, substantive impact 
this has in trying to make the city work, as you suggest, Mr. 
Congressman.
    Mr. Pascrell. And Mr. Chairman, in New Jersey--and we 
responded together, as you well know, in New Jersey. What 
happens to New York impacts us across the river appreciably, 
and we are here to tell you that we are going to do everything 
in our power to get the Homeland Security Department--I have 
given up on the folks down the street. I don't know what party 
they belong to, to be very honest with you, but I am trying to 
get the Homeland Security Department to understand your plight 
every day and to give us a real simple explanation about what 
effectiveness means. Of course you have high risk and yet you 
weren't very effective in your application. Doesn't make any 
sense whatsoever.
    Thank you, Mr. Chairman.
    Chairman King. Time of the gentleman has expired. Chief 
Ramsey and then we will close the panel.
    Chief Ramsey. Just a real quick response because there is a 
hidden cost in what you are saying. We get--does not cause the 
alert level to go up. If the alert level goes to orange, we can 
seek reimbursement. It stays at yellow yet the information 
coming in is no less important that would be actionable for us 
at a local level, which cost us resources. I am sure it happens 
in New York all the time. It certainly happens in Washington 
all the time. There is no reimbursement for that, but it causes 
you to have to extend hours, call people in especially to 
handle a particular situation, or what have you, and those are 
the kinds of hidden costs that are incurred.
    Chairman King. I would like to thank our panel. Mayor 
Williams, Chief Ramsey, Deputy Mayor Reiskin, Mayor Bloomberg, 
of course Commissioner Kelly. I excuse the first panel. I thank 
them for their testimony. They are excused, and the committee 
will stand in recess until approximately 12:30.
    [Recess.]
    Chairman King. The committee will come to order. First of 
all, Secretary Foresman, I deeply regret keeping you waiting 
and I do appreciate your coming back before the committee. I 
know we had a classified meeting with you several weeks ago, 
and you and I have had a number of personal conversations and 
what we will do in the next session since--Chairman Lungren, 
you can begin the next session since you were here first. And 
with that, recognizing Secretary Foresman.

         STATEMENT OF THE HON. GEORGE FORESMAN, UNDER 
    SECRETARY FOR PREPAREDNESS, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Foresman. Thank you, Mr. Chairman and Ranking Member 
Thompson and members of the committee. I appreciate the 
opportunity to appear today to discuss the 2006 Homeland 
Security Grant Program and specifically their Urban Areas 
Security Initiative. Mr. Chairman and members of the committee, 
I will say I both appreciate and acknowledge the perspectives 
offered by Mayors Bloomberg and Williams. I consider Ray Kelly 
and Chuck Ramsey to be two of the best police professionals in 
America and I think it was a good discussion. And I will note 
that both Mayors are forceful advocates for New York City and 
Washington. Their communities are well served by their 
leadership.
    But Mr. Chairman, just as the Mayors are advocates for 
their communities and their individual ability to ready for the 
risk of terrorism, the Department of Homeland Security must do 
the same for our entire Nation. These are not competing goals. 
They are complementary, albeit from different vantage points.
    Mr. Chairman, I would like to be clear with several facts. 
Number one, New York City has the highest risk from terrorism. 
Their ranking in this year's analysis did not change. It is the 
highest funded city in the UASI program, $124 million this year 
and that is $44 million higher than the next urban area on the 
ranking list. In fact since the inception of the UASI program 
in 2003, New York City has received $525 million, more than 
twice the amount of any other city in the Nation.
    The National Capital Region also ranks among the top six 
urban areas and ranks third in total UASI funding, having 
received $167 million since the start of the program.
    Two, the changes in allocated funds for New York City and 
the National Capital Region were primarily driven by two key 
factors. First, there was less money available this year for 
UASI, specifically, 14 percent less or a total reduction of 
$125 million. Secondly, we have a better understanding of the 
risk in the other urban areas that comprise the UASI program. 
It is not that New York City's or the National Capital Region's 
risk is less. It is because the measure of risk in other areas 
outside of New York and the National Capital Region has 
increased. Forty-four of the 46 urban areas saw their relative 
risk measure rise this year, in some cases by three or 
fourfold. Why? Because we are improving in our ability to 
measure urban risk beyond the borders of New York City and 
Washington. Until now, there was little data available to 
support an analysis on a nationwide level outside of these two 
metropolitan areas.
    In fact, Chicago, Newark, Jersey City, L.A., Long Beach, 
Houston and San Francisco required an additional $53 million to 
address their increased risk rankings relative to New York 
City.
    Incidentally, after considering the 14 percent across the 
board reduction in UASI funding, this corresponds about 
approximately to the change to New York City.
    Risk does not equal threat, and this is my point number 
three. In conducting our risk analysis, we considered 
population, population density, critical assets, threats based 
on law enforcement and intelligence data, vulnerability and 
consequences among other factors. Threat is one element of risk 
analysis. For instance, last year 11,300 critical facilities 
nationwide were factored into our risk analysis. This year 
there were more than 260,000. These are facilities that if 
attacked could cause grave impacts on those who live and work 
inside or nearby or could cause a national level impact similar 
to what Mayor Bloomberg described an attack on New York City 
doing.
    New York City had the highest risk ranking. New York City 
received the highest amount of funding. I have personally 
looked at the classified threat summaries over the last several 
days. We have all seen public reports in the media about 
arrests, investigations and the like. Commissioner Kelly 
underscored many of these. New York City and the National 
Capital Region are the most discussed, but there are threat 
concerns across our entire country.
    Point number four, the investment justification and 
effectiveness of the review process was not--and I repeat, was 
not a measure of grant writing skills or how well programs in a 
particular community were performing. It was simply an analysis 
of how a particular urban area was tying its use of Federal 
funds to previously developed local, State and national 
strategies as well as program guidelines. It also assessed the 
ability of the community to ensure sustained commitment of 
effort beyond the availability of Federal funds. Each community 
can pursue any or all investment justifications with their 
funding that they do receive this year as long as it is not 
prohibitive by program regulations. My point being that the 
City of New York will not have to stop doing any of its 
programs if it chooses to apply all of its funding against 
those areas that it applied for funding for. None of those are 
exclusively prohibited.
    Five, there have also been innuendos that contractors 
providing routine and administrative support to the 
effectiveness review process may have played a role in the 
allocation decisions. Let me be clear. All policy development 
and decision making during the fiscal year 2006 Homeland 
Security Grant Program, UASI allocation process was initiated 
and approved by Federal staff, specifically staff from the 
Department of Homeland Security. Contract staff is routinely 
used throughout the Federal Government to provide 
administrative support for everything from grant management to 
top secret weapons system design.
    Mr. Chairman and members of the committee, what the facts 
demonstrate are this: New York City and the National Capital 
Region only received less money this year because Congress 
provided less money to give out this year and because we 
understand that other urban areas had higher risk than 
previously understood in previous years. New York and 
Washington, the National Capital Region are still the most at-
risk cities in the Nation, and that is why they are both 
receiving the vast majority of grant money this year.
    That being said, Mr. Chairman, and members in the 
committee, we at the Department of Homeland Security have a 
responsibility to look at the risk for the entire Nation, not 
just the risk for one or two select cities across the country. 
We remain committed in that effort to providing flexibility in 
how we assess risk and how we apply resources.
    The process this year represents the lessons of 9/11. As a 
nation, we must understand the methods terrorists may use to 
kill and injure and to inflict pain on our Nation. New York 
City and the National Capital Region were the targets of the 
last attack, and they will likely be target of future attacks. 
But they are not alone. The risks they face are shared by every 
State and every community to some degree. We at the Department 
of Homeland Security are charged with America's safety and 
security, and that is what drives the allocation of our UASI 
resources.
    DHS continues to balance the need for maximum transparency 
in the funding processes with the need to avoid publicly giving 
our enemies a roadmap to our national vulnerabilities. We will 
continue to work closely with our partners at the State and 
local level, with Congress to ensure that we protect the entire 
Nation and that we provide a clear understanding of the 
progress we are making in reducing America's risk from 
terrorism.
    Thank you, Mr. Chairman and members of the committee, and I 
look forward to your questions.
    [The statement of Mr. Foresman follows:]

                Prepared Statement of George W. Foresman

Introduction
    Chairman King, Ranking Member Thompson and Members of the 
Committee, thank you for the opportunity to appear before you today to 
discuss the Homeland Security Grant Program and specifically, concerns 
raised about the allocation process for the Urban Areas Security 
Initiative (UASI) funds.
    There has been much debate and discussion during the past several 
weeks. Some of the information presented in public has been accurate 
and some has not. The debate itself is positive - it is welcome and 
necessary for us to be engaged in discussion over homeland security 
priorities and funding.
    One thing however is very clear: the discussion on funding should 
not be an issue of placing the safety and security of any one person, 
community or State in America ahead of another. This is very much about 
making our entire nation safer and more secure by managing risk in a 
way that lessens the vulnerability of the entire country.
    The safety and security of each and every American lies at the core 
of the mission of the Department of Homeland Security (DHS), and it is 
a mission that the men and women of the Department take seriously.
    However, a safer and more secure America is not an exclusive 
mission of the Department of Homeland Security. America's safety and 
security is a shared national responsibility. It is a mission that is 
shared among local, State and Federal agencies, the public and private 
sectors and the American people. In the context of terrorism, it 
requires an unprecedented mix of efforts - border and immigration 
controls, security in our ports, and airports and protection of 
critical assets and infrastructure, including transportation, 
communication, financial and energy. Homeland security is about 
managing risk for the entire nation based on a comprehensive national 
approach; it is about applying limited resources most effectively based 
on our understanding of America's overall risk.
    Let me be very clear, there is a critical distinction to be made: 
Threat is not synonymous with risk, nor is risk analysis synonymous 
with risk management, as I will discuss later.
    There are many tools employed every day and in every way to keep 
our nation safer and more secure from the threat of terrorism and a 
host of other hazards and threats that comprise our national risk 
continuum. Today, I would like to focus on the Homeland Security Grant 
Program (HSGP).
    The HSGP is the Department's primary means of homeland security 
assistance to the states and local communities, and it includes the 
State Homeland Security Program (SHSP), the Law Enforcement Terrorism 
Prevention Program (LETPP), and the Urban Areas Security Initiative 
(UASI), along with the Metropolitan Medical Response System and Citizen 
Corps Programs. As such, HSGP is one of the Department's most important 
and visible mechanisms to manage national strategic risk.
    Today's testimony will focus on the method DHS utilized to evaluate 
the risk of terrorism to States, territories, and Urban Areas; the peer 
review process we employed to determine the expected effectiveness of 
proposed solutions, and ultimately, the risk management techniques we 
used to determine allocations for Fiscal Year (FY) 2006. I will go into 
great detail regarding how the Department strived to employ an 
objective, comprehensive, and fair process for allocating FY2006 HSGP 
grants to improve nationwide terrorism preparedness.
    The debate about "who got how much" has overshadowed the more 
important discussion about the best way to use limited financial 
resources to increase America's security. We used an approach this year 
that expands our understanding of what constitutes risk while taking 
into account Congressional guidance encouraging our nation to move away 
from "reaction" to "strategic preparation."
    As Secretary Chertoff said in recent remarks pertaining to this 
program,

"We cannot protect every single person at every moment in every place 
against every threat. What we have to do is manage the risk, and that 
means we have to evaluate consequence, vulnerability, and threat in 
order to determine what is the most cost-effective way of maximizing 
security."

    The Department's grants programs have traditionally provided 
financial assistance to all 50 States, the District of Columbia, the 
Commonwealth of Puerto Rico, and the U.S. Territories. By the end of 
Fiscal Year (FY) 2006, states and localities will have received from 
DHS over $18 billion in assistance and direct support from the 
Department of Homeland Security since September 11, 2001. This does not 
account for the additional billions made available from the Departments 
of Health and Human Services and Justice.
    The Department is making significant, important, and vital changes 
to HSGP, both with the analytic capabilities that support the program 
and the management techniques we use to determine allocations. And, as 
we have all seen from the reaction to our FY 2006 allocations, 
implementation of risk management will not necessarily be an easy or a 
popular shift. However, it is an important shift and one that we take 
seriously. We have and will continue to solicit feedback on our 
processes and are willing to listen to criticism and suggestions for 
improving our processes. With billions of dollars being allocated each 
year, this is a serious business--and we believe that healthy debate 
about risk management principles will only make these processes better 
and more transparent. Despite recent successes globally in the war on 
terror, America's security will be a marathon and not a sprint. We need 
an objective funding process that will sustain improvements for the 
longterm.
    Today, I hope to articulate the following policy considerations:

    1) The objectives of the Homeland Security Grants are to enhance 
capabilities to prevent, deter, respond to, and recover from acts of 
terrorism, to be allocated based on risks, threats, vulnerabilities, 
and unmet target capabilities. It is long-standing Administration 
policy that the limited pool of Federal grant resources should be 
primarily used to improve long-term capabilities that provide a maximum 
return on investment, instead of to finance day-to-day occurring local 
personnel operational costs.
    2) The new DHS risk assessment process incorporates the tremendous 
increase in relevant individual risk of urban communities, this risk in 
relation to other communities,and the distribution of risk across our 
entire nation.
    3) In applying risk assessments to the grant process, DHS has 
emphasized the principle of risk reduction, including the peer-review 
assessment. This includes the likelihood that Federal resources can 
help reduce long-term risk and address short falls in capability. The 
new allocation formula, based on risk and effectiveness, strives to 
provide an objective process that is flexible to account for improved 
information on a national scale.

FY 2006-A Transition Year
    In past years, DHS' risk analysis was largely driven by both 
population size and density. But over time we have been able to develop 
enhanced techniques to analyze risk. In FY 2006, the risk analysis 
considered three primary components: Threat, Vulnerability, and 
Consequence. The Threat component represents an adversary's intent to 
attack a specific target and its potential capability to execute the 
attack; the Vulnerability component embodies the susceptibility to an 
adversary's attack and the likelihood that it will achieve an impact; 
and the Consequence component measures the possible impact from such an 
attack.
    With the enhanced methodology and broader set of data inputs, we 
were able to capture a truer estimation of relative risk for all urban 
areas. The footprint used to analyze the risk to both assets as well as 
geographic areas and populations was adjusted this year. This 
adjustment more accurately reflects the regional context in which these 
jurisdictions operate and the critical infrastructure that provides 
higher potential targets and requires protecting. There is better data 
better data about not just New York City and NCR, but about the entire 
country and across a broader range of sectors. As a result of these 
improvements, many areas' risk scores changed significantly, a 
reflection of an enhanced analytical approach to gauging the risk urban 
areas face relative to one another.
    It is important to understand the downstream impact of these 
changes in relative risk. New York City and NCR do not suddenly have 
less risk in an absolute sense. New York City and NCR continue to be 
among the highest risk Urban Areas. However, the relative values for 
virtually all other candidates increased this year due to our better 
understanding of their risk and its analysis. The relative differences 
among the higher risk candidates is what changed from last year to this 
year. Indeed, Urban Areas such as Los Angeles, Chicago, and Houston saw 
their share of national risk relative to New York City and NCR increase 
considerably, in some cases doubling or tripling compared to previous 
analysis. These changes in relative risk were key drivers in the 
changes in funding allocations.
    FY 2006 also marks the first HSGP grant cycle in which the Interim 
National Preparedness Goal is in place to identify National Priorities 
and help focus local and state expenditures. This common planning 
framework, and the tools that support it, allows us individually as 
communities and states and collectively as a Nation to better 
understand how prepared we are, how prepared we need to be, and how we 
prioritize efforts to close the gap. The absence of this type of 
consistent preparedness target is at the forefront of many of our 
national shortcomings over the past 25 years. The Interim National 
Preparedness Goal demands that we focus attention on "raising the bar" 
of preparedness across the country to establish minimum capabilities 
and be prepared for the risks we face. This, along with measurement of 
risk, gives us an important management consideration for our grant 
programs.
    Accordingly, the Department of Homeland Security has been 
aggressive in:

    1) improving the risk analysis tools used to determine a National 
risk profile, so that we can target funding at higher risk locations, 
and
    2) clarifying the risk management objectives for the HSGP, within 
the context of the Interim National Preparedness Goal
    This year we have also implemented another significant change in 
how funds under the HSGP are allocated. In previous years, States and 
Urban Areas knew their funding allocations prior to submitting grant 
applications. Based on substantial input from the national preparedness 
community Congress, and our focus on risk management, Department has 
moved towards a risk-based approach that incorporates a competitive 
analysis element, to allocating funds for HSGP. This is a critical step 
in achieving a Homeland Security Grants Program that emphasizes risk-
informed grant making, increased accountability and is focused on 
maximizing the return on investment of federal grant funds.

Risk-Based Analysis and Management
    I would like to explain how we analyzed risk for determining the 
2006 grant funding.The Department of Homeland Security has many risk 
management resources at its disposal people, technology, and funding 
are just a few. The HSGP is among the most valuable of these tools 
because it allows us to partner with our States, Territories and Urban 
Areas and First Responder communities, and support national 
preparedness goals.
    The Administration, Congress, State and Local stakeholders, first 
responder organizations, and industry groups have called for more risk 
management approaches to inform homeland security grant allocations. 
There has been a clear recognition that our national approach requires 
that we apply federal funding resources in a way that maximizes 
resources to benefit all Americans.
    Key to this year's process is a much better understanding of our 
national risk.In our effort to improve our methods for risk management 
of the terrorist threat we considered several key factors.
    1. Ultimately, it is the States, Urban Areas and Territories that 
own the risk in their respective areas, and they must make investments 
locally that will build needed capabilities and address identified 
risk. DHS's risk management job is to provide them guidance, and within 
available resources, financial assistance to make these investments. In 
this program, we have been directed to invest in initiatives that 
promote unity of effort at the community, regional, state, and national 
levels. They must continue to provide tangible benefits beyond the flow 
of Federal dollars.
    2. When managing risks, we must rely on analysis of risk to inform 
our management process, but be cognizant of the inherent uncertainty of 
this analysis. Consider this definition of risk analysis from the 
Society for Risk Analysis:

    "Risk analysis uses observations about what we know, to make 
predictions about what we don't know."

    I think this sums up risk analysis in the context of homeland 
security quite nicely. We have carefully considered the factors that 
experts believe lead to risk, and we have confidence in our approach. 
But we are realists and we understand that risk in the terrorist 
context is new, constantly changing, and lacks the measuring history of 
data flow found in other hazards.
    Terrorist threat cannot be predicted with the reliability of 
hurricanes or floods, or mechanical failures. No matter how much we 
invest in scientists and algorithms, we cannot measure terrorism risk 
in an absolute sense. Therefore, we emphasize building capabilities to 
manage risk nationwide based on the best estimations possible. Our 
profile is built on an analysis of relative risk based on what is 
known.
    3. Risk Analysis DOES NOT EQUAL Risk Management. In fact, the 
Society for Risk Analysis definition makes this point better than I 
can:

    Risk analysis seeks to inform, not to dictate, the complex and 
difficult choices among possible measures to mitigate risks.

    As this indicates, the risk analysis is only one input to the risk 
management process that should be considered for Homeland Security. In 
any risk context, risk management typically involves considerations 
beyond the quantifiable analysis. Risk management includes many other 
considerations such as management objectives, fiscal constraints, one's 
ability to actually impact the risks one faces, and the strategy that 
best serves our overall national interests. The primary risk management 
objective of the HSGP is to: raise the bar of preparedness across the 
at-risk states, territories and Urban Areas as part of an 
interdependent national effort by directing funds to areas of greatest 
risk and need.
    These two objectives announced by Congress require the Department 
to balance the desire to focus resources on areas at relatively greater 
risk, with the desire topromote use of federal resources for strong 
solutions that "raise the bar" of national preparedness and address 
national risk.
    Thus, common sense dictates that managing risk through the HSGP 
program involves much more than just distributing dollars in proportion 
to the relative risk data that we generate each year. Rather, it is 
viewed as a means for reducing risk and promoting national objectives.
    As previously noted, DHS defines risk by three principal variables: 
Threat, or the likelihood of a type of attack that might be attempted, 
vulnerability, or the likelihood that an attacker would succeed with a 
particular attack type, and consequence, or the potential impact of a 
particular attack. The risk model used as input to the HSGP process 
includes both asset-based and geographically-based terrorist risk 
calculations. DHS combines these complementary risk calculations to 
produce an estimate of the relative risk of terrorism faced by a given 
area.
    Our enemies still wish to inflict both physical and economic harm 
on the United States. Recognition of this threat is underscored by both 
the Administration's and Congress's desire to assess and categorize our 
national assets - things such as key transportation hubs, financial 
processing sites, nuclear power and chemical plants, priority 
communication and energy systems. These are sites that, if attacked, 
would have an extraordinary impact not only on the surrounding 
population and community, but in some cases, the nation as a whole. In 
the first year of this grant program we had categorized approximately 
200 sites, in 2004 some 1700, in 2005 approximately 11,300. This year, 
we further expanded the number of sites to include many considered to 
be `high risk' by the surrounding state and local jurisdiction, which 
brought the total number of sites in the analysis to over 260,000 
sites.
    This asset-based approach uses strategic threat estimates from the 
Intelligence Community of an adversary's intent and capability to 
attack different types of assets (such as chemical plants, stadiums, 
and commercial airports) using different attack methods. DHS analyzes 
the vulnerability of each asset type relative to each attack method to 
determine the forms of attack most likely to be successful. 
Additionally, DHS estimates the consequences that a successful attack 
would have on each asset type, including human health, economic, 
strategic mission, and psychological impacts. This analysis yields a 
relative risk estimate for each asset type, which DHS applies to a 
given demographic area, based on the number of each asset type present 
within that area.
    The geographic-based approach allows DHS to consider general 
characteristics of a geographic area mostly independent of the assets 
that exist within that area. First, DHS evaluates reported threats, law 
enforcement activity, and suspicious incidents reported during the 
evaluation period.
    Next, DHS considers vulnerability factors for each geographic area, 
such as the area's proximity to international border.
    Lastly, DHS estimates the potential consequences of an attack on 
that area, including human health, economy, strategic mission, and 
psychological impacts.
    DHS's ability to analyze risks to the Nation is improving each year 
in both breadth and sophistication. Despite the known limitations of 
the Department's analysis, the results confirm two fairly intuitive 
points:
    1) The majority of the risk is contained in a handful of locations 
throughout the country. This is the argument so strenuously made by 
that handful of localities. However,
    2) There are risks to other urban areas that we have begun to 
assess more accurately. These areas have previously received relatively 
small amounts of grant funding. The HSGP risk analysis considered much 
more than the final number of cities that made the Urban Area list. 
Those that made the list did so because they had a level of risk. In 
this case, the urban areas under UASI contain 85% of our national urban 
area risk. Attachment A reflects both the funding and risk curve and 
you can see these correspond.
    Given these two results, and drawing on intuition and common sense, 
it seems reasonable that while we must fortify higher-risk locations, 
we cannot ignore the risks in the other locations.

Effectiveness
    For FY 2006, States and Urban Areas submitted grant applications, 
called Investment Justifications, to formally request FY 2006 HSGP 
funding in support of their strategies and related program planning 
documents. These applications were reviewed through an intensive peer 
review process. The FY 2006, competitive grant process to allocate 
funds to States and Urban Areas was based on two factors:

    1) The relative risk to assets and populations within the eligible 
applicant's geographic area, and
    2) The anticipated effectiveness of the individual investments 
comprising the Investment Justification, in aligning to the Interim 
National Preparedness Goal and addressing the identified homeland 
security needs of each applicant.
    Finding the right balance between these two factors is the central 
risk management challenge. It requires us to conduct extensive analysis 
of relative need and risk, thoroughly review applications, and 
rigorously analyze the potential effectiveness of the grant funds. The 
Department of Homeland Security conducted an unprecedented amount of 
analysis to arrive at decisions about grants funding. We took into 
consideration alignment with other national policy initiatives and 
statute objectives, as well as ensuring consistency of approach both 
over time and between the HSGP programs.
    The major considerations of project requests were the following:

    Relevance--Connection to the National Priorities, Target 
Capabilities List, State/Urban Area Homeland Security Strategy goals 
and objectives, and the Enhancement Plan.
    Regionalization--Coordination of preparedness activities across 
jurisdictional boundaries by spreading costs, pooling resources, 
sharing risk, and increasing the value of their preparedness 
investments.
    Impact--The effect that the investment will have on addressing 
threats, vulnerabilities, and/or consequences of catastrophic events.
    Sustainability--The ability to sustain a target capability once the 
benefits of an investment are achieved through identification of 
funding sources that can be used beyond the current grant period.
    Implementation Approach--The appropriate resources and tools are 
(or will be) in place to manage the Investment, address priorities, and 
deliver results.

    States and Urban areas each submitted up to 15 investments for 
consideration. These investments were submitted with an Investment 
Justification, which allowed them to describe specific funding and 
implementation approaches that would help achieve initiatives outlined 
in the Statewide Program and Capability Enhancement Plan. This plan 
developed in the Fall of 2005 establishes how Urban Areas and States 
will work to develop their individual capabilities as part of a broader 
national effort. The Investment Justification allowed the States and 
Urban Areas to request funding for allocation to their near-term 
priorities, consistent with the National Priorities articulated in the 
Interim National Preparedness Goal.
    The effectiveness review is a method to evaluate a state or Urban 
Area proposal in relation to others submitted and against the grant 
program criteria provided. It is not, I repeat it is not an evaluation 
of how well an initiative is or is not performing in a particular State 
or Urban Area. This element, added with Congressional direction and 
support, is designed to encourage uses of funds in accordance with pre-
announced program guidelines and that will both enhance community, 
state and national preparedness beyond a grant period.

Peer Review Process
    As we are not allocating funding to specific investments, our risk 
management objective was to determine the "anticipated effectiveness" 
of the investments contained in the Investment Justification. To do 
this, DHS convened a panel of a cross section of representatives from 
States, Territories, and Urban Areas, and from a variety of Homeland 
Security and Emergency Management disciplines.
    States and Urban Areas sent high ranking officials to be reviewers; 
for example, three States sent their most senior Homeland Security 
Directors. From the Fire and Rescue community, an Assistant Deputy Fire 
Chief, Battalion Chief, Fire Operations Chief, and a Fire Emergency 
Management and Communications Chief participated, from Law Enforcement, 
an Assistant Chief of Police, Captain of a Sheriff's Department, 
Commander of a Special Response Team, and a Lieutenant from a Homeland 
Security and Tactical Operations. All used their knowledge and 
experience to evaluate the anticipated effectiveness of proposed 
solutions from their peers. These examples are only a subset of the 
vast experience of peer reviewers who participated in the HSGP process.
    Peer review panels were made up of reviewers from varied 
backgrounds and experience--and to avoid potential conflicts of 
interest--diversity was emphasized. Each panel included a balance of 
representation from each region (Eastern, Central, and Western). The 
peer review panels reviewed and scored each individual Investment 
included in the Investment Justification as well as the Investment 
Justification submission in its entirety. The peer review panels also 
reviewed the Enhancement Plan to ensure alignment among Initiatives 
from the Enhancement Plan with proposed Investments.
    As expected, the scores for the individual investments followed a 
distribution from very low to very high, with the majority of scores 
falling in the mid-range.
    The peer review process provides a significant incentive for States 
and Urban Areas to spend the limited pool of Federal resources on 
projects that will provide a meaningful return on investment and a 
lasting impact on reducing the risks of terrorism.

HSGP Guidance to All Communities
    Prior to the release of the HSGP guidance, DHS provided extensive 
assistance to States and local governments in their development of 
updated Homeland Security Strategies and the Capability Enhancement 
Plans, which link investment planning to the National Priorities 
outlined in the Interim National Preparedness Goal. This guidance for 
the development of Enhancement Plans was a critical precursor to the 
development of successful Investment Justifications that meet the 
criteria assessed by the Peer Review Panel during the HSGP application 
process.
    Between the time that the FY2006 Homeland Security Grant Program 
(HSGP) guidance was released on December 2, 2005, and the application 
due date of March 2, 2006, the DHS Grants and Training (G&T) 
Preparedness Officers for both the State of New York (NY) and the 
District of Columbia (DC) had frequent contact with NY and its Urban 
Areas, and DC and the National Capital Region (NCR) Urban Area. The 
officers were available to answer technical questions regarding the 
process. Due to the competitive nature of the application process, G&T 
staff members were not able to discuss or offer advice regarding 
specific program or budget proposals that may unfairly benefit one 
application over another.
    G&T provided technical assistance to assist with the Program and 
Capability Review (PCR), which was the core planning process each State 
was required to conduct prior to submitting proposals. The PCR 
justified how any FY 2006 funds would be invested. Approximately 34 
representatives from NY State, to include representatives from both the 
New York City and Buffalo Urban Areas, participated in the PCR 
technical assistance on November 30, 2005. Approximately 65 
representatives from DC and the NCR Urban Area participated in their 
PCR technical assistance on January 5, 2006. Both of these sessions 
stressed the need to emphasize broad regionalization and include 
additional stakeholders, such as other local regions and the private 
sector, in the program planning process.
    In addition to the formal PCR technical assistance deliveries, G&T 
Preparedness Officers had frequent, often daily, contact with the NY 
and NCR Urban Areas. As an example, the New York Preparedness Officer 
attended the NYC Urban Area Working Group meetings on a monthly basis, 
and a special meeting regarding the PCR process was held on November 
28, 2005, for the NCR Urban Area Senior Policy Group. Representatives 
from DC and the NCR participated in the pilot development of the PCR 
technical assistance program on November 4, 2005, and served on the 
pilot working group to assist in shaping the PCR technical assistance 
offering. Feedback provided during the pilot was used to refine the 
design and materials prior to deployment to States and Territories 
across the Nation.

Allocation
    To support the management objectives of HSGP, we investigated 
several allocation techniques, and ultimately arrived at two management 
decisions. First, we gave particular attention to the analysis for New 
York City and the National Capital Region to ensure that the allocation 
process optimally accounts for their risk information and 
infrastructure assets. In addition, we selected a two-by-two matrix 
approach that allows us to evaluate Investment Justifications based on 
the Relative Risk to the Applicant vs. the anticipated Effectiveness of 
the Investment Justification submitted by that applicant.
    This two-by-two matrix approach provided us with the following 
benefits:
     It allowed us to assemble a picture of the challenge recognizing 
that the two factors we value: Relative Risk and anticipated 
Effectiveness are distinct and not inherently correlated
     It gave us a relatively simple lens through which to view the 
decision space as policy makers, while still allowing a known model to 
drive final allocations.
    To generate final HSGP allocations, we assembled two of these 
matrices: one for States and Territories subject to SHSP and LETPP 
dollars, and one for Urban Areas subject to UASI dollars. The matrices 
worked the same. Each applicant was plotted in the matrix by using 
their relative risk score and their Investment Justification 
Effectiveness rating.
    Once plotted in the matrix, each applicant fell into one of four 
quadrants:

    Quadrant 1: higher relative risk/higher anticipated effectiveness
    Quadrant 2: higher relative risk/lower anticipated effectiveness
    Quadrant 3: lower relative risk/higher anticipated effectiveness
    Quadrant 4: lower relative risk/lower anticipated effectiveness

    Once allocations were determined for each of the four quadrants, 
final dollar allocations were determined. For that, Relative Risk was 
weighted two-thirds and anticipated effectiveness was weighted one-
third to emphasize the risk-based nature of the programs while 
recognizing strong program solutions. Using our analytic model, we 
generated the final allocation results you have seen, and which are 
illustrated by the chart below.

[GRAPHIC] [TIFF OMITTED] T3785.001

[GRAPHIC] [TIFF OMITTED] T3785.002

    The allocation process used this year to distribute the nearly $711 
million in UASI funding, $125 million less than FY 2005 (overall HSGP 
funding was reduced $343 million below the President's request), to 46 
metropolitan areas was structured to take into account both the risk 
and effectiveness of the proposed investments.

New York City
    NYC remains the highest-ranked city for relative risk; of the more 
than 260,000 assets considered in the risk analysis process, nearly 
7,000 came from New York City alone. However, due to the increase in 
information in our analysis and our better understanding of risk in 
regional areas, the "lead" that NYC had over other urban areas is 
smaller than it has been in past years. In simple practical terms, this 
means that there are very large UASI areas out there whose relative 
level of risk has "gotten closer" to that of NYC.
    Since the creation of the Urban Area Security Initiative (UASI) 
program, New York City has received approximately 19% of the program's 
total grant funding, or more than twice the amount of the second 
largest recipient, even though the program now covers dozens of 
American cities. The next largest recipient, Los Angeles, has received 
approximately 8% of the funds awarded through the program.

National Capital Region
    The National Capital Region has received, on average, approximately 
8 percent of all funding through the Urban Areas Security Initiative 
since the program's inception, and has received almost $214 million 
overall from the UASI program since 2003. Over that period, the NCR 
urban area has received third highest amount of grant funding from the 
UASI program, behind only New York City and Los Angeles/Long Beach 
Urban Areas.
    The relatively high risk ranking played a major factor in the NCR 
receiving 7 percent of the total UASI funds available this year, nearly 
$46.5 million, and the allocation is clearly consistent with previous, 
annual allocation percentages.
    As we look at investing Federal dollars, within the National 
Capital Region or elsewhere, we are seeking investments that promise to 
increase the overall capability of a region through funding such things 
as equipment and specialized training. Washington, DC, and its partners 
have worked hard in this area. However, we must also ensure that 
resources are also available to enable other at-risk communities to 
enhance their preparedness.
    We must also consider the unique resources available to the 
National Capital Region through the permanent station of Federal 
operational resources that supplement what is being done by local and 
state officials. This includes air patrols, Federal law enforcement 
agents and other specialized federal response teams whose vigilance and 
capability may not be quickly available to other American urban areas. 
Together, these assets contribute to an integrated network that 
protects the National Capital Region.

Conclusion
    Mr. Chairman it is essential to recognize the distinction between 
risk and threat. Although threat is a large component of risk, risk 
does not equal threat, but considers it along with vulnerability and 
consequences. Likewise, risk analysis informs, but does not equal risk 
management. We now have a much better understanding of nationwide risk 
then we have in the past, along with the ability to evaluate risk 
mitigation strategies. As a result we now have a dynamic process for 
managing risk that reflects the Nation's priorities. We have come a 
long way in our understanding of risk and as we learn we will continue 
to improve this still evolving process.
    Managing risk is a national responsibility. We would not be acting 
responsibly if we simply looked at each individual state or Urban Area 
as its own entity in making risk-based decisions. America's security 
requires a comprehensive approach and the federal government has an 
obligation to protect the entire nation. We must take steps necessary 
to ensure that all of our high risk areas increase their levels of 
capability. The grants allocation process is not about making Omaha, or 
Chicago, or Washington D.C. safe and secure it's about making America 
safe and secure.
    Providing grants to the states and Urban Areas is just one aspect 
of managing risk. Whether it's through border security, ensuring the 
security of nuclear plants, food storage facilities, financial centers 
across the country or cracking down on illegal immigrants, what we do 
in one area of the country will make a difference everywhere else.
    Terrorists are working hard to exploit gaps in our efforts and the 
American people deserve no less than our very best effort to thwart 
those who would do us harm. I am confident in our ability to work 
together to do just that.
    I would like to thank the committee for its time today and I 
appreciate this opportunity to bring further transparency on this 
process.

    Chairman King. Thank you, Mr. Foresman. Gentleman from 
California, Mr. Lungren.
    Mr. Lungren. Thank you. Thank you, Mr. Chairman. I don't 
know. I have a whole lot of questions. I had questions for the 
other panel as well. I am one of those committed to a risk-
based assessment. I had some concerns with the Department's 
database in the formulas that you use because I was informed 
that, for instance, in the Sacramento region while it goes up 
this year, it falls off the table next year. San Diego goes 
down somewhat--actually substantially this year and then drops 
off the table next year. So that brought me to a question of 
questioning what the data is and the way you formulate it.
    I have a lot of other questions based on what was said in 
the prior panel. The Mayor of New York told us that most of 
these are recurring costs, which suggests that this is a 
permanent program that ought to be funded by the Federal 
Government. And then there was a suggestion at least by one 
member of the panel that somehow this wraps into the COPS 
program, which was a program initially started, as you may 
recall, in a previous administration with the promise that the 
government would pay, the Federal Government, 100 percent the 
first year, 75 percent the second year, 50 percent the third 
year, 25 percent the fourth year, and nothing the fifth year, 
and it became a permanent program here on the Federal level 
where all of a sudden we on the Federal level are given the 
responsibility of funding essential services at the local 
level, which is what I thought law enforcement was. And the 
Mayor made a statement which is very similar to what I hear 
from local officials in my area, which is look, I have got 
constituents who don't want to raise taxes or who don't want to 
have taxes raised on them. It is almost like there is one 
animal called the local taxpayer and there is another animal 
called the State taxpayer and there is another animal called 
the Federal taxpayer and we are on the far end of the food 
chain and therefore we can either tax or go into debt and it 
doesn't affect anybody, but what it gets down to is certain 
priorities.
    I think that is what we are all about here, and I have a 
fundamental question about the way you have assessed the data 
that you bring to bear because we have heard the bragging, 
frankly, by your Department by now you have billions of data 
points instead of tens or hundreds, and yet when I see those 
data points brought together, you have a phenomena and I hate 
to change the focus of this place to the other side of the 
country, but let's take San Diego, which last time I checked 
was near an international boundary, has military installations 
there, has a nuclear facility within 10 miles, has a lot of 
foreign visitors, is vulnerable from any number of standpoints. 
Yet it falls off the table when it would seem that with the 
additional data points suggested by your Department and the 
different formulation that that would actually have a community 
like that move up.
    So I guess what I am saying is, I don't have all of the 
deep analysis into the formula that you have used, but that 
doesn't seem to pass the reasonable test to me. Am I that far 
off base? Or does the Department acknowledge that there needs 
to be some refinements of a substantial nature to take into 
account some of these things that don't otherwise seem to be 
explainable?
    Mr. Foresman. Congressman, let me see if I can give you 
three short answers on that. First with regards to the 
infrastructure discussion. Mayor Bloomberg brought up the 
discussion of the Brooklyn Bridge, and there has been a lot of 
discussion. We counted the Statue of Liberty as we did the 
analysis. We counted the Brooklyn Bridge, the Empire State 
Building. They were grouped into categories that get a higher 
score, if you will, but you know the bottom line is we have got 
to make sure the data set is correct. We have had cases out in 
California with dams, for instance, that were not counted that 
I think as we go back and look we are looking to make sure we 
are going through a process to do quality control on the data 
sets and to make sure they are accurate with regard to the UASI 
program, both Buffalo and San Diego fall into the same category 
that we previously when we did the UASI program didn't consider 
proximity to the border in terms of doing that piece of risk 
analysis for the urban areas, and I think, Congressman, that 
part of where we are at, is we did not have a risk assessment 
process in this country for doing terrorism prior to 9/11. We 
had plenty of risk assessment processes for doing natural 
disasters because we have decades of history dealing with 
natural disasters. So we were charged with creating a process 
and it continues to move forward. To the degree that one draws 
kind of a straight conclusion, if the information had presented 
to us that New York City was not at the top of our risk chart 
and had it indicated to us that New York City should not have 
received the lion's share of dollars then I would have been 
much--I would have been exceptionally concerned, but what is 
key to understand, and I believe you all have the handout, is 
if you look at the risk curve and funding allocations they 
pretty closely track one another.
    Mr. Lungren. Mr. Chairman, if you will indulge me one 
minute to ask a follow-up.
    We have all heard risk has been there. People were 
penalized because they didn't do a good job of grant writing, 
and therefore we ought to get better grant writers and that, 
boy, if that is the case we are really missing the boat. Do you 
take into account things like moneys already allocated and 
therefore expended--do you take a look back, so to speak, to 
say how effectively moneys that have already gone through a 
program are expended or is that not part of your determination?
    Mr. Foresman. No, Congressman, that is actually a 
phenomenally good example and part of the justification process 
is to take into account dollars that are being committed 
locally or that are provided to urban areas by a State as well 
as those that will be committed if the Federal funds are not 
forthcoming and will it be sustained over the longer term, and 
the effectiveness justification certainly serves as the basis 
for the allocation piece of it, but it is not a factor of bad 
grant writing skills or bad programs. They were just simply a 
measure of how the communities were articulating the cost 
effectiveness of these solutions. I will tell you I think we 
have got to do a lot of work on the terminology that we use to 
describe these things because that has contributed to the 
confusion.
    Chairman King. Gentleman from Mississippi, the ranking 
member.
    Mr. Pascrell. Mr. Chairman, could I have a colloquy with 
the gentleman from California for a second?
    Chairman King. If the gentleman from Mississippi would 
yield for a second?
    Mr. Thompson. I will yield.
    Mr. Pascrell. I am concerned about what I just heard and I 
want to make sure I heard it correctly. You are talking about 
the possibility--correct me if I am wrong. You were asking 
questions of the Secretary--that this may become a permanent 
program, and you used in your analogy the COPS program. If you 
know what the conditions are of the COPS program, universal 
COPS program started in 1993 to put close to 100,000 police 
officers on the streets in an effort to demonstrate how 
effective community policing would be, and it did. It was a 
tremendous reduction in crime based partially on the number of 
police officers. But you could not simply have people leave 
your department and then replace them through the COPS program. 
You had to add and there had to be a deficiency within the 
department. There were very strict qualifications here.
    Chairman King. If I could ask the gentleman to--
    Mr. Pascrell. And I don't want this analogy that he has 
made to stand.
    Chairman King. Gentleman can address that in his own time. 
Secretary Foresman is here to testify.
    Mr. Pascrell. This is something that has been said, Mr. 
Chairman.
    Chairman King. I know. But Secretary Foresman is here to 
testify. Ranking Member from Mississippi.
    Mr. Thompson. Thank you very much. Mr. Foresman, you were 
talking about effectiveness and the overall rating. As you 
know--do we have a tracking system to find out how these 
communities have spent their money, whether they bought it 
correctly? And how does that system follow into the next year? 
Sort of in line with what Mr. Lungren was talking about.
    Mr. Foresman. Mr. Congressman, we had a very rudimentary 
approach to it, as I would offer, and we have been focused in 
the Department on product, sometimes to the extent of process, 
but as a good example the question was raised earlier just how 
much of the urban area security dollars had been spent either 
in the New York or the Washington region, for instance. And you 
know the best data that we have inside the Department is 
probably two or three weeks old. They have clearly obligated 
100 percent of their money. They have great projects that they 
are working on, but to date they have drawn down about 41--
between 41 and 45 percent of the dollars they have available to 
them. So the next question becomes, how have those dollars been 
applied and do we have a back-end process that goes on to it? 
And Congressman, the reason we have dedicated to these urban 
areas and to these States a full-time individual who does 
nothing but work with them on the grants is to provide that 
level of back-end auditing, if you will, program compliance 
piece of it. It is also one of the reasons why we had to do the 
investment justifications on the front end so that we have an 
idea of being able to say this is what the urban area said they 
were going to spend their dollars on, and when we go back in 
afterwards, we need to have some basis by which to check 
against that.
    Mr. Thompson. So your testimony is we have a tracking 
system that you are comfortable with?
    Mr. Foresman. Well, Congressman, I am not comfortable with. 
And I am going to offer to you I am not going to be comfortable 
with it until we have realtime visibility among the State, 
local and Federal partners in terms of where we are with dollar 
utilization and until we have stronger auditing processes in 
place because you know I feel bad when we get into a situation 
where a community misuses or abuses a program and it lessens 
the funding that is available for a place like the National 
Capital Region or New York.
    Mr. Thompson. So have you requested or recommended a 
tracking system to get you to where you want to be?
    Mr. Foresman. Yes, sir, Congressman. We are looking at a 
grants management system in just tailoring some of the existing 
grants management systems that we use for the fire grants, for 
instance, to help us do this, but this is more process and we 
are redeploying personnel to provide for this, and I will tell 
you that I think within the space of about 90 to 120 days I 
will be able to sit in front of you and say I feel 100 percent 
comfortable. I feel 80 percent comfortable today, but not 100 
percent.
    Mr. Thompson. So you are going to use personnel rather than 
technology?
    Mr. Foresman. In the case of it, it is a combination but a 
large part of it is personnel. I mean, it is having someone who 
can work with the States and the communities on program 
eligibility and how they are applying their dollars.
    Mr. Thompson. So the system you are using now, can you tell 
me what the tracking information has brought back to you?
    Mr. Foresman. Well, there is very little tracking 
information. We actually right now have to use the Department 
of Justice's financial management system, and we are migrating 
so that that is a DHS-driven activity but basically all that 
tells us is that we have obligated dollars to a particular 
community, that they have obligated those dollars and we know 
what the drawdown is against those dollars, but we don't have a 
significant amount of detail in terms of, you know, if you have 
drawn down $20 million what was it drawn down to be used for. 
It is getting that greater level of visibility into an 
electronic system as well as by putting people in the 
communities, working with New York City and Washington, D.C., 
and other places, and this is why we want to have people with 
them all the time.
    Mr. Thompson. Well, but that seems to be an archaic method 
of tracking rather than a state-of-the-art system.
    Mr. Foresman. And Congressman, let me offer it this way, I 
believe in technology. I think we will harness technology but 
technology empowers good business processes, we need to make 
sure we have the good business processes inside the Department, 
inside our grants and training shop, and once we have got those 
solid business processes in place then we can overlay the 
technology to empower it to be more efficient and more 
effective. But right now, Assistant Secretary Henke and myself 
are focused on making sure our core business processes are 
sound and good.
    Mr. Thompson. Sir, at what point will you be able to do the 
technology part?
    Mr. Foresman. Congressman, I actually would hope that we 
would be there by the end of the calendar year if not before. 
Frankly, all of the business processes are in place. They are 
just not amalgamated and pulled together. We have a terrific 
example with the fire grant program that has served us well 
over the last several years and we are building off of that.
    Mr. Thompson. Thank you, Mr. Chairman.
    Chairman King. Thank you, Ranking Member. The gentleman 
from Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman. Thank you for being 
here. This hearing of course is focused on the UASI 
allocations. What I am trying to understand is, well, this year 
we are talking about New York City losing about $83 million in 
UASI funding from the previous year. I also notice too that in 
2003 to 2004 New York City took about a $100 million hit. In 
other words, if I look at this from fiscal year 2003, New York 
took in about $150 million through UASI, then in 2004 they took 
in about $247 million. What was the cause of the substantial 
reduction in that fiscal year?
    Mr. Foresman. Well, Congressman, I was not in the 
Department in the context of that fiscal year, and I was 
actually serving in my other job as a State homeland security 
official, and a large part of this was I think just driven by 
frankly the absence of having a very empirically driven 
analytically based ability to be able to allocate dollars and, 
frankly, I would be more than happy to go back and get some 
additional detail for you and find out what drove it.
    Mr. Dent. And also I think you provided this chart, this 
pie chart.
    Mr. Foresman. Yes, sir.
    Mr. Dent. Where it says New York City is receiving about 18 
percent of the 2006 UASI allocation. What percentage--I guess 
we will move it back up. We are talking about UASI and 
allocation. You also have--you have the State and local law 
enforcement grants. Are there other dollars New York City may 
be receiving beyond those terrorism preparedness grants that I 
am not aware of or that I am not very familiar with?
    Mr. Foresman. Congressman, yes, they are, and for instance 
we have limited this discussion to the UASI program and the 
State Homeland Security Grant Program, including those dollars 
that go down to New York City. Overall New York State has 
received a little over $1.1 billion in terms of the State 
Homeland Security Grant Program Urban Areas Security 
Initiative, port security grants, transit grants and the share 
of New York City is about $666 million, give or take a couple 
of dollars there. That is outside of dollars that may have come 
down through the Department of Health and Human Services for 
their bioterrorism program and these types of things.
    Mr. Dent. Well, I am just trying to get a sense of the 
total amount of homeland security spending that New York and 
the capital region are receiving. Clearly they deserve a great 
deal of funding because they are such likely targets but for 
example, you are showing here New York City is getting 18 
percent of the UASI allocation in 2006. I would be curious to 
see that in 2005 and 2004.
    Mr. Foresman. If you look at it over the life of the 
program, they have received about 18 percent over the life of 
the program. The same being true for the National Capital 
Region, I believe is the same. They have received about 7 
percent, 8 percent. They have received about equal over the 
life of the program.
    Mr. Dent. I would also be curious in seeing the total New 
York City is receiving. I am assuming, for example, they may be 
receiving some port security funds, maybe more this year than 
they did in a previous year, the same for their very fine 
intelligence unit and counterterrorism. I would like to see the 
totality of funding to New York because many communities don't 
have as sophisticated an operation as the City of New York 
does. I would just like to get a better sense of this so I can 
explain this program better to my constituents. I don't know if 
you have any of that information here today.
    Mr. Foresman. Congressman, we will get you a written 
response to that and I just want to go on record I agree with 
what Commissioner Kelly said, the importance of human 
intelligence. We understand that but we also recognize that 
some of the personnel limitations, the ability to pay for 
personnel costs is in part driven by what congressional 
direction is provided to the Department. But I will tell you 
the one thing that we have pushed real hard, considering what 
Commissioner Kelly has been able to do, we have given them the 
approval to use a limited amount of their dollars for intel 
analysts in New York City. So we are trying to be as flexible 
as we can within program guidelines and within the guidelines 
that are provided to us as a result of congressional direction.
    Mr. Dent. Thank you. I yield back.
    Chairman King. Gentlelady from Texas recognized for 5 
minutes.
    Ms. Jackson-Lee. Thank the Chairman. I thank the ranking 
member. Secretary Foresman, let me congratulate you on your 
appointment and as I indicated to you earlier, we are looking 
for stick-to-itness and of course consistency in this 
Department. Your addition will be I think a great asset. I am 
going to start--I wanted to put in the record the impact on 
Houston, which was considered among the top 50 percent of all 
urban areas based on the fiscal year 2006 DHS comparative risk 
analysis and among the top 25 percent of all urban areas in 
effectiveness proposed solutions subjected to a more than 10 
percent decrease in funding by UASI, and moreover my State of 
Texas faced even more severe cuts in 53 percent of funding from 
the State Homeland Security Grant Program and 29 percent in 
UASI funding. I say that because I am not afraid to hold this 
chart up, and I think you all provided this so that you could--
we could get the impact of how large a segment of the moneys 
went to New York and that 50 some percent was left on half the 
area in the other major cities such as Los Angeles and Chicago. 
And I hope that the political forces will not undermine you 
because you made a very important point. You are suffering from 
a 14 percent cut rather than the administration going upwards 
or Congress' funding going upwards. Unfortunately it went down, 
and therefore you were obviously operating with a smaller pot. 
And for us to be truthful in how do we reform this process, we 
need to at least give you that measure of fact, and that is you 
were operating with a much smaller pot. And might I also say 
since I incorporated my remarks and in his absence, I want to 
thank Mayor Bloomberg for his kind remarks about Houston 
because we were talking about these kinds of grants dealing 
with security. We of course almost a year ago faced an enormous 
influx of evacuees that needed a lot of, if you will, impact 
money and how could we be expected to respond to the Federal 
Government's failure by taking evacuees and not have those 
dollars that are necessary.
    So this spreads across a number of issues and a number of 
areas, but I think it is our job as members of the Homeland 
Security Committee, in fact, to be problem solvers. So I want 
to juxtapose your needs against comments that were made because 
I made the comments about the COPS program has been cut, the 
State Byrne program has been cut, the local government law 
enforcement block grants have been cut. And the question is 
whether we make them permanent. The American people want them 
to be permanent, law enforcement wanted them to be permanent. 
Coming from your position in State government, I know you 
utilize those programs very effectively. We know that because 
we got the return on it and we saw the decrease in crime. So it 
makes no sense for us to cut programs like this program because 
the American people want to be secure. So I would ask you to 
follow me on these questions.
    You had a statement in your--a quote in your testimony that 
brings to mind the nightmares of philosophical gobbledy-gook, 
for lack of a better word. This analysis seeks to inform, not 
to dictate, the complex and difficult choices among possible 
measures to mitigate risk. I only say that because we have got 
to get down to the nuts and bolts of how you get these grants 
to the right places. Tell me, did you vet the methodology with 
experts like yourself in local and State government before you 
utilized this risk criteria? And what did--again, you are now 
telling me that you have after the fact and you are right. Will 
you vet that criteria with experts in the field? And do you 
know whether DHS did that?
    My second question is more pointed. I am told that State 
and local officials are still trying to get transit port 
security grants that are not out yet and they can't get any 
answers from the Department. If the goal of the Department is 
to quickly get funding to those on the ground that need it and 
given the fact that we are two-thirds through the fiscal year, 
when do you think that funding might occur? But how do we solve 
this in terms of getting the right kind of parameters to give 
to the experts on the ground? The firefighter, the police 
officer, the commissioner, the police chief, the mayors have no 
time for theological philosophical grant making.
    Mr. Foresman. Congresswoman, thank you for that question, 
and let me address it two ways. One, when I came into this 
position I had conversations with both Congressman Thompson, 
Chairman King and others and said that we wanted to improve the 
level of communication with the Congress. And we have had our 
focus up here briefing on this risk assessment process. We have 
had our folks briefing and interacting with State and local 
officials on this risk assessment process, but it had no 
meaning to everybody until they saw dollars attached to it and 
I completely understand that. Everything looks fine in the 
theoretical form. What does it mean to my community in terms of 
dollars and resources? So yes, we were engaging the State and 
local community. Yes, we were engaging primarily through the 
staff in the discussions but we will--I am absolutely committed 
and I talked to the staff about this, we were already scheduled 
to bring the State and local stakeholders together in July for 
a meeting after action, if you will, on this year's grant 
cycle. I have told the staff I want them within a couple of 
weeks to schedule the next session of how do we look forward to 
next year and take some of the lesson from this year and apply 
it to our grant process next year.
    With regard to the trends in port security, Congresswoman, 
I will tell you that I have personally read through all of 
those grant packages, each one of them, more than five times 
and they are not leaving the office until they are easily 
understood and they make sense and it is not because our team 
did a bad job putting them together. It is simply because a 
whole bunch of people helped to put them together and we just 
needed to go through a real strong process. Having said that, 
we are days away and this goes to an issue that I discussed 
with Chairman King when the announcements came out on this. We 
are constrained by not being able to tell a wide range of 
stakeholders how much money they are going to get because we 
have a congressional requirement, and I think it is a 
reasonable requirement, that we notify you all on the Hill 
about allocations, that we notify the appropriators and so 
frankly, you know, this all looked fine on paper, but when 
people saw the dollars, it had a different effect on them and I 
think there is a good lesson on that and we have to find a way 
to be able to characterize--
    Ms. Jackson-Lee. Before you finish your sentence, will you 
reconfigure the formula? Will you work internally to make the 
formula more understandable and more relevant to what we are 
trying to do, which is to secure the homeland?
    Chairman King. Time of the gentlelady has expired. 
Secretary Foresman, just answer the question.
    Mr. Foresman. Congresswoman, without a doubt. And let me 
make this perfectly clear, I don't like the situation we all 
collectively find ourselves in in terms of this discussion and 
a lot of it goes back to we need to do a better job in terms of 
communicating with all the stakeholders.
    Ms. Jackson-Lee. Thank you. I will ask further in the 
direct conversation with you. Thank the Chairman.
    Chairman King. Secretary Foresman, let me again thank you 
for the time you have put in here today. I am sure it wasn't a 
totally pleasant experience listening to the first panel.
    Mr. Foresman. Mr. Chairman, if you might, it was actually a 
phenomenally positive experience from our standpoint because 
the opportunity we--Secretary Chertoff and I have had good 
conversations with Mayor Bloomberg. Of course I see Mayor 
Williams and Chief Ramsey on a regular basis, and this is how 
we are going to get better because we are starting here, we are 
trying to create something new and we are very much committed 
to that.
    Chairman King. Let me just ask some brief questions, try to 
find some meeting of the minds here. New York was number one in 
risk, and as we saw from the briefing, their application ranked 
somewhat near the bottom. Allowing for all limited amounts of 
money and the fact that other cities have acquired risk, if the 
New York application had been in the top one, two or three, is 
it fair to say New York would have gotten significantly more 
money?
    Mr. Foresman. No, sir, it is not fair to say they would 
have gotten significantly more money. In total it might have 
represented somewhere between a 5 percent and 8 percent 
increase, but we can run the exact numbers as it relates to New 
York, Mr. Chairman, and provide that to you.
    Chairman King. So then even if they had used the money for 
capital, even if they had used the money for equipment or 
technology, as the Department is suggesting, they still would 
not have gotten a considerable amount of money more, more 
amount of money?
    Mr. Foresman. That is correct.
    Chairman King. And yet we find other cities did go up 
significantly.
    Mr. Foresman. Yes, sir, Mr. Chairman. And there are a 
couple of examples of percentage increases but places like 
Omaha where we have a phenomenal better understanding of the 
risk, a much clearer understanding of the risk and remember 
risk is two-thirds of it, that is 66 percent of the total 
allocation process is based on that. It had those types of 
effects on it, if you will, when you have got outside of New 
York City. You and I both know that New York City and 
Washington are the two areas we understood the risk the best 
even on 9/11, and over the last several years, and we are just 
now beginning to get the visibility outside of those two 
regions.
    Chairman King. Yes. Part of my point is though it is not 
just a question of New York is number one and other cities are 
three, four and five, without going into all the details of the 
classified briefing, there is really a tremendous gap between 
New York and number one, the second city. It was basically New 
York, maybe number two and three, and then maybe all the rest 
of the cities. So it was almost in a rating by itself, no one 
else being close to it, and based on that, and even if they had 
submitted a proper application it is hard to say how we could 
have justified making the cut. But I guess we can go back and 
forth on it.
    Let me ask you another question. Assuming that there is 
more than enough money next year, and you continue to have the 
problems as far as the effectiveness of the applications, can 
you recommend a way that someone at your level or somebody at a 
decision making level could deal with somebody at a decision 
making level in the city or--I mean, to me it is really wrong 
that Commissioner Kelly, who is leading the largest police 
department in the country with all the counterterrorism, 
basically he found out about the cuts from me after I found out 
from you. I am not into that whole thing. That didn't bother 
me. I am just saying, Commissioner Kelly, he had no advanced 
notice at all that his counterterrorism, his intelligence 
communities units, all of that effort he had put in, he had no 
inkling whatsoever that that was at risk or that was being 
threatened. And it would seem to me it would make more sense if 
somehow you would have sat down with him and made it work. I 
mean, if they are number one risk and they are doing the best 
job, there should be some way to match the two rather than just 
after the fact the commissioner to find out there was some 
defect in the application.
    Mr. Foresman. Congressman, first, two things. Their 
application was not incorrect. Had their application been 
incorrect, they wouldn't have been considered. I guess what I 
would offer to you is the effectiveness score is not a report 
card on how well Ray Kelly--and he is doing a fabulous job with 
the Mayor in New York City. It is not a report card on what 
they are doing, and you know I have had the discussions with 
the management and budget folks since the conversation between 
Secretary Chertoff and Mayor Bloomberg. Those discussions also 
continue, but I think you make a very legitimate point and it 
is part of that after action review. This is the first year we 
have used a new review process. We are going to learn from this 
process and one of the chief things we are going to learn from 
this process is to make sure we are very well-connected at the 
right levels, and frankly, it is going to be a little bit of a 
wake-up call to make sure that you know when these things are 
submitted for hundreds of millions of dollars that they have 
passed off.
    I lived in State government in Virginia and frequently 
State agencies would submit an application without any level of 
oversight and that was not a good way to do because on behalf 
of a Governor we had a perspective that we needed to provide. 
So I think we can certainly look at the process.
    Chairman King. I will close on this. Leaving New York 
aside, I would hate to find out a particular city did not get 
the funding it needed, was entitled to, because they applied 
for the wrong program or they weren't doing it in the right way 
and no one in the Department sat down with them before the 
deadline to tell them that, to somehow work it out. That is all 
I would ask.
    Mr. Foresman. Mr. Chairman, I am in line with that. I would 
not want any American in any American city to be at greater 
risk because we didn't have a discussion that we could very 
easily have.
    Chairman King. Thank you. Gentleman from New Jersey, Mr. 
Pascrell.
    Mr. Pascrell. Mr. Secretary, I know what you don't want but 
I can tell you that what you have done to New York City does 
put them in greater risk, in my estimation, in every area, 
whether you are talking about the UASI allocation, which you 
explained in a forthright manner as you always have, whether 
you are talking about the State homeland security programs, or 
whether you are talking about the LETPP. Every one of those 
programs, New York got less money. And one could conclude from 
that that either there are less vulnerabilities in New York or 
they plugged it up, which you know is not the case. We have not 
done the job, the Federal Government. And this is a Federal 
responsibility. I am sorry I have to go back to the gentleman 
before from California. This is a Federal responsibility. That 
doesn't mean that local governments don't have responsibility. 
That doesn't mean that we are not in partnership. But the 
Federal Government has the primary responsibility of protecting 
our borders. We may need the backup, the local folks in doing 
that. They have the primary responsibility of providing the 
intelligence--God bless you--the police department in New 
Jersey have a great intelligence program, no one mentioned it 
this morning. It doesn't run on hot air. It is effective. It 
has even gotten the feds ticked off at it. Well, New York said 
we are going to protect ourselves. This is what we need to do. 
That costs money. In every one of these areas, New York got 
less money. And there is absolutely no rationale behind it 
because when we go to what you say--remember those columns we 
saw that one day in this highly classified meeting? We need 
this to be transparent, my friend, please. America, the public 
has a right to know what we saw that day. I don't know what the 
big secret is about that, to be very frank with you. I didn't 
see anything in there that I haven't partially read in Newsweek 
or Time Magazine or the New York Post or The New York Daily 
News. And when I look at what your criteria is, the breakdown--
not your criteria, but the Department's criteria, of the 
effective column, remember we saw a big drop in that area, and 
when you are talking about implementation, what you are 
implementing within the Department, within the city, and the 
sustainability of the investment--in other words, if the 
Federal Government is going to make--this is a real laugher. If 
the Federal Government is going to be making an investment in 
your counterterrorism activities, we want to know what is 
sustainable, what is not sustainable, and the relevance of the 
goals in the first place. I mean, we could learn a lot from New 
York City Police Department, and we could learn a lot from New 
York City in terms of how we protect our neighborhoods and our 
children, etc., etc. So in that light, I want to ask you some 
questions.
    Mr. Simmons. You didn't ask him any questions?
    Mr. Pascrell. Not yet. Do you think the Department of 
Homeland Security risk methodology vetted with experts in the 
risk field before it was given approval by the Department 
leadership to be used, was this risk methodology vetted with 
the experts? And was it vetted with the local people who are 
there geographically, psychologically in every one of these 
cities, and particularly now we are talking about D.C. and New 
York.
    Mr. Foresman. Congressman, with respect to the methodology 
process, we used the national labs, the same national labs that 
help the Department of Defense do threat assessment and develop 
risk methodology that is used every day by our Defense 
Department for a wide range of activities. So we had a wide 
range of additions and practitioners that were involved in it, 
folks from the intelligence community, folks from the law 
enforcement community. To the degree that we did the briefings 
with the State and local officials, I think it was probably 
more of an after briefing, after the methodology was put 
together. But it brings up the issue of being able to bring 
them in on the front end and have that--
    Mr. Pascrell. Right. And I think you are being very honest 
about this. Peer review. We have peer review in the FIRE Act. 
We have had that from the very beginning. A very competitive 
process. The folks in the field are going to make a decision 
about whether this application is meaningful and relevant. How 
come we have this problem here? Why? Because it was imposed 
from the top down. It makes no sense. The people who have to 
implement this, the people who have to deal with the services 
within New York City and Washington, D.C., who are on the front 
lines day in and day out, unlike you and unlike me, they 
weren't involved from the very get-go on this situation. Peer 
review has worked out very well in the FIRE Act. Competitors 
have worked out very, very well. The money goes directly to the 
community, doesn't even go through the State. So we have 
another component here. Not only should it be based--all the 
money should be based on risk, it should be based directly--the 
money should go directly to the community and directly to the 
service so we can look at the accountability here.
    Chairman King. Time of the gentleman is expired. Gentleman 
from Connecticut, Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. Mr. Foresman, many 
people I respect say you are a very capable man, and so they 
tell me that we should be grateful you are there. And I just 
want to put that on the record.
    Mr. Foresman. Thank you, Congressman.
    Mr. Shays. And I appreciate your candidness at the closed 
hearing that we had, and your approach at this hearing. Now, 
having said that, I would like to focus in on what I wrestle 
with. I was willing to see Connecticut cut if I felt everything 
was based on risk. And we said 60 percent would be based on 
risk, the Senate wanted more of it to be based on population. 
We had a compromise. I don't think it should just be 60 
percent. I think it should be based on risk. Now, any community 
needs the money but it should still be based on risk. What I 
wrestle with is that I feel the Department did something that 
it was not authorized to do unless I am just misreading it. You 
did two-thirds risk and one-third effectiveness. Now, I will 
change it to say whether it is--how it scores in terms of 
whether it is a good grant or not. I am using the word 
effectiveness, but it seems to me if the grant reached a 
certain threshold they got a passing grade, then it should have 
been based on what the Congress wanted, which was totally, 
completely based on risk. So walk me through why effectiveness 
took one-third of the score.
    Mr. Foresman. Congressman, let me address this in two 
parts. First with regard--we have always got to be careful to 
keep the programs separate, the State Homeland Security Grant 
Program, which every State receives a base minimum 0.75 percent 
and the remainder of it based on risk, which would be the type 
of program that would support the State of Connecticut versus 
the Urban Areas Security Initiative program, which is two-
thirds based on risk and one-third based on the effectiveness. 
In the context of the effectiveness score, it was designed to 
make sure that we were improving capabilities, and the 
congressional direction that we have gotten out of the 
appropriations act was twofold: One, to move towards a risk-
based approach and, second, to make sure we were building 
sustainable capabilities. The process that we chose to do that 
was a peer review process, and to work to ensure that it was 
targeted against the local and the State strategies, which 
Congress had directed us to make sure that communities and 
States were developing. So it was an approach that was 
identified as being reasonable.
    Mr. Shays. Okay. Let me just say to you, though, when I 
looked at what we did last week and the week before and now 
here, if New York gets a score of the highest risk, I do agree 
with the chairman that the next highest risk isn't even the 
second, third, fourth, fifth, sixth, seventh, eighth, ninth or 
tenth. I think 50 percent of the risk frankly is in New York 
City, and it just seems to me that even when you count it as 
scoring number one, it still gets cheated. And I would like you 
to tell me how I am not seeing this the way I should see it.
    Mr. Foresman. Congressman, I think that you have come up 
with a conundrum that we wrestle with from a policy standpoint 
every day. How do you come up with a process that is both a 
fair and equitable process that doesn't penalize the most at-
risk or the least at-risk. In a process that ensures that it is 
not--
    Mr. Shays. Not the least at-risk. I want them to not get 
any money.
    Mr. Foresman. When I say the least at-risk of these 46 
urban areas, what is important to understand of these 46 urban 
areas, they represent 45 percent of the Nation's urban risk 
that we are able to mitigate through the efforts as we 
understand that risk. So I cannot sit here with 100 percent 
surety.
    Mr. Shays. The fact is though that when you did do this, 
whoever became second in the--you didn't have gaps. You didn't 
decide this--that New York is the primary target, is the 
secondary target, is the third target or fourth or fifth, you 
had one and then you just moved every one right up behind it, 
correct?
    Mr. Foresman. I think that is a fair statement, 
Congressman.
    Mr. Shays. And it seems to me there has got to be a way to 
equate the risk so the number is not based on rank but based on 
something where you see the gap. I mean, I have been in this--I 
have been doing terrorist hearings since 1988, since 1998 as 
chairman of the National Security Subcommittee of Government 
Reform, and there is no question in my mind that all of us have 
a belief that New York City is always going to be the target 
and that everyone else, you know, may be.
    Mr. Foresman. But Congressman, and I want to be very clear 
with this, I would agree based on my work prior to coming into 
this position on a national commission, and we looked at the 
same issues, but again, we don't want to get caught up in one 
of the things that we had criticized, the Federal Government 
was criticized, about a failure in imagination, and we are 
trying to find the right balance of looking at the reasonable 
and likely threats against--
    Mr. Shays. I made my point. You have made your point. Let 
me just say Mr. Simmons is next, and he and I both have the 
same concerns about an urban State, Connecticut, given we don't 
have a large population--our largest city is 140,000, but we 
represent collectively a large population, and we hope we are 
not getting screwed.
    Mr. Foresman. I would like to continue this conversation 
with you.
    Mr. Shays. Do it with him.
    Chairman King. Time of the gentleman has expired. The other 
gentleman from Connecticut, Mr. Simmons.
    Mr. Simmons. Thank you, Mr. Chairman. Let me just follow on 
that thought. When we first got briefed on that formula on how 
the formula was going to work, I had a concern that reflects my 
concern whenever Connecticut is confronted with a Federal 
formula program. Unlike most States in the country, we do not 
have county-based government. It is an anachronism perhaps, but 
we like it. We call it home rule. We have 169 small towns. 
Looking specifically at New London County, we have the City of 
New London, adjacent is Waterford, the town of Groton, City of 
Groton, and the town of Ledyard. Now, within these five 
municipalities you have three nuclear power plants, the New 
London Submarine Base, Electric Boat, which is the premiere 
design construction facility for nuclear subs, Amtrak main 
line, I-95, Pfizer, Dow Chemical and a variety of other 
infrastructures, and yet when you look at these entities 
separately they don't add up. In fact, some would say when you 
look at them in the aggregate they don't add up. Now, in 2004, 
for whatever reason, New Haven added up. In 2005 and 2006, New 
Haven didn't add up and under the regs New Haven will no longer 
be considered for the UASI. And I just think that is an 
arbitrary standard at some future date based on changing 
realities, changing threat, changing information that some of 
those municipalities that were dropped under UASI may if 
reconsidered fall back within that domain, and so I would hope 
that these formulas are not so arbitrary that human 
intellectual intervention is not a possibility. And I think 
that is the point I would like to make, but you can comment on 
that if you wish.
    But before you do, I would like to get back to the issue of 
a human intelligence, and what I thought I heard you say 
earlier was that Congress directed that the money for human 
resources be spent in a certain way and that other dollars be 
spent for equipment, which I understand. But you know, when you 
are allocating dollars for human resources and it is going to a 
municipality, if it is going to a meter maid, if it is going to 
somebody who performs, I don't know, traffic duties, I 
understand why the Federal Government does not have an interest 
in necessarily funding that through this program. They can do 
it through COPS or some other program. But when we are trying 
to train and resource these departments now to engage in the 
intelligence mission and when we have the responsibility under 
the Constitution, we the Federal Government, to provide for the 
common defense, which we do, Article I, Section 8, and when we 
consider we are engaged in a global war on terrorism and that 
is certainly what we debated last week, then I think the 
Federal Government has to be much more judicious in how it 
considers those requests for funding for humans because as the 
preceding panel made very clear, yeah, they have standard law 
enforcement missions and they are trying to accomplish them, 
but this terrorism thing is totally new and they are being held 
accountable for it and they need the assistance of the Federal 
Government on that, so are you saying this committee or this 
Congress did not allow human resource investment for 
intelligence and counterterrorism purposes. Is that your 
feeling?
    Mr. Foresman. No, Congressman. That is not what I am 
saying. Let me address the first part of your statement with 
regard to infrastructure. You are right on point with the fact 
that we--our understanding of risk in a particular regional 
area changes and, for instance, if you all were to go back on 
the UASI list that would mean that we would have to apportion 
that limited pool of dollars even further than it has 
apportioned now. So we would be back here for another hearing. 
I will just let you know that but as long as we understand that 
going into it. A good example being down in Houston last year, 
the day before Hurricane Katrina went through Louisiana, 
Houston had 25 percent of the Nation's petroleum production. 
The day after Hurricane Katrina, it owned 45 percent of the 
Nation's petroleum production, which meant that the relative 
risk of Houston both as a target, inviting target and the 
potential impact on the Nation had potentially doubled 
overnight and so, yes, it is dynamic and jurisdictions that may 
be off at one point as a result of change of risk specific 
threat information could come back on.
    To the second part of your question with regard to funding, 
my point was this--intelligence analysts are the one area that 
we have been able to get an exception for being able to use a 
limited amount of these dollars for personnel costs. As I have 
noted, we have provided some additional flexibility to New York 
City prior to even this announcement. That was something that 
Commissioner Kelly had made a very articulate case about and we 
have provided that level of flexibility, but generally 
speaking, the guidance that has gone out to communities in 
terms of the cap, the total amount of money that they can use 
for overtime costs or personnel costs or those categories for 
personnel costs is limited, and that has been further 
reinforced by language in the appropriations act that has 
provided guidance to us.
    So we are in a situation where, yes, we can do a little 
more in the intel world, particularly in the analyst world, not 
necessarily for the big cop out on the street who may be 
collecting intelligence, but if you were talking about a SWAT 
team member or something of that nature, no, we don't have that 
level of flexibility.
    Mr. Simmons. So as I understand it, it is not necessarily 
the authorizing committees that are providing these 
limitations. It is the appropriations committees, and I think 
that, Mr. Chairman, that might be fertile ground for us to take 
a brief look.
    Chairman King. Thank you. I thank the gentleman. Ranking 
Member.
    Mr. Thompson. Thank you very much, Mr. Chairman. I would 
like unanimous consent to get into the record a statement from 
Congresswoman Sheila Jackson Lee.
    Chairman King. Without objection, it is made part of the 
record.
    [The statement of Ms. Jackson-Lee follows:]

         Prepared Statement of Congresswoman Sheila Jackson-Lee

    Mr. Chairman and Members of the subcommittee, I would like to thank 
you for having this hearing today, which is essential to the exercise 
of our oversight responsibility over the Department of Homeland 
Security and critical in ensuring our great nation's preparation for 
future terrorist threats. I would like to take this opportunity to 
welcome the honorable individuals serving as witnesses today: Mayors 
Michael Bloomberg and Anthony Williams, and Under Secretary George 
Foresman.
    This hearing today is intended to investigate how the Department of 
Homeland Security explains and attempts to justify why New York City 
and Washington, D.C., the two areas targeted by the terrorists on 9/11, 
and which remain the two most at-risk jurisdictions in our nation, 
received an approximately 40% cut in fbnding fiom the Urban Area 
Security Initiative (UASI) for FY 2006, despite the fact the Department 
broadened its new allocation process for FY 2006 to include both risk 
and need. In addition, New York City and Washington, D.C., are not the 
only high risk cities to be subjected to the Department's 
maldistribution of homeland security <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85e1eae9e9e4f7f6abc5ccfc">[email&#160;protected]</a> own district of 
Houston, which is among the top 50% of all Urban Areas based on the FY 
2006 DHS comparative risk analysis and among the top 25% of all Urban 
Areas in effectiveness of proposed solutions, was subjected to a more 
than 10% decrease in funding by UASI. Moreover, my state of Texas faced 
even more severe cuts of 53% in funding from the State Homeland 
Security Grant Program (SHSGP) and 29% in UASI funding)Accordingly, 
this hearing is crucial in highlighting the Department's ongoing 
failure on a wide range of issues including its inability to cogently 
articulate the distribution of its homeland security dollars. Moreover, 
the Department's ineptitude in the grants allocation process is 
emblematic of its handling of issues vital to our nation's security, 
such as disaster response, FEMA assistance, port and rail security, and 
contracting.
    As we proceed with the hearing today, I have serious concerns 
regarding the inadequacy of funding faced by DHS due to drastic cuts 
orchestrated by this Administration and Congress. One of the main 
reasons high risk cities have seen a cut in FY 2006 grant funding is 
because hding for the UASI program was cut by $120 million, the SHSGP 
was decimated by the 50% cut of $550 million, and the Administration 
has twice attempted to eliminate the Law Enforcement Terrorism 
Prevention Program (LETPP).
    As we struggle to ameliorate the prudence and effectiveness of the 
Department's new allocation process, which determines the allocation of 
funding based on a combination of risk and anticipated effectiveness of 
the proposed solutions to reduce such risk, it is imperative that the 
Department work closely with these high risk cities and states to 
improve their plans to utilize DHS funds rather than simply penalizing 
them for the quality of their applications.
    I eagerly look forward to the testimony and discussion today, and 
once again, I appreciate all of the witnesses for appearing today. I 
thank the Chairman, and I yield back the remainder of my time.

    Mr. Thompson. I don't have any further questions. I think 
Mr. Pascrell has some questions for the second round.
    Chairman King. Sure, he does. Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman, Mr. Ranking Member. 
Mr. Secretary, why did the administration propose cutting the 
entire Law Enforcement Terrorism Prevention Program, which is a 
third major area where New York and the other cities get a lot 
of money?
    Mr. Foresman. Congressman, I will be more than happy to 
provide you a written response for the record, but I will tell 
you those were decisions that preceded my arrival here in this 
position.
    Mr. Pascrell. Yes, because that would be quite an amount of 
money, too. It would be $26 million less for New York, $7 
million less for New Jersey, and about $1.5 million less for 
Connecticut. Excuse me. Yeah. Connecticut was getting $5 
million in a program. Now it is only getting $1 million this 
year.
    Many local and State officials continue complaining that 
they are kept in the dark. You have heard some comments about 
that today, Mr. Secretary, about the decisions that are made at 
the Department and decisions that impact upon their 
communities. Do you think--what is your opinion about this, do 
you think the creation of a first responder advisory group that 
could advise the Department on grants that could advise the 
Department on a national response plan and other issues would 
be useful or is that something that would be superfluous in 
your mind?
    Mr. Foresman. Congressman, my best guidance after having 
been brought to Washington over 25 years for discussion is 
whether we have a statutorily created or regulatory created 
group is not as important as whether we are having ongoing 
regular dialogue with our State and local partners. And I think 
the major measure of our success is the degree to [which this] 
we can get beyond reacting to the moment and sitting down and 
having frank discussions, nationwide plan review being a good 
example. When we released that information a number of folks 
said, gosh, it was a peer review, we understand, but you all 
are putting it out. Give us as much detail as you can on the 
front end. And that went better than this grant rollout, but it 
did not go as well as it could and it underscores the premium 
of that ongoing collaboration.
    Protecting America is a national effort, local, State 
public sector, private sector, and that is who needs to be at 
the table.
    Mr. Pascrell. In our haste to try to demonstrate to the 
American people that we are doing something, that we are really 
protecting--helping to protect communities throughout the 
United States, I think many times we rush into those decisions 
and don't take into account what is happening in the local 
level.
    They have a different approach in London. When we went--the 
chairman mentioned a little while ago--they have a different 
approach. This is always a bottom-up situation that I noticed 
in London, a very different approach to protecting their people 
than we have. We expect somebody up here is going to make all 
the decisions, slide them down the pole and then everybody is 
going to be protected. And that is not how it worked out at 
all. It is a very eerie feeling we have about that process, and 
I would ask that you take--at least consider that possibility 
of what I have just recommended and call it as you see it.
    If the goal of the Department is to quickly get the funding 
money to those on the ground that need it, and given the fact 
that we are two-thirds through this fiscal year, when do we 
think the funding is going to be released?
    Mr. Foresman. The funding--the UASI and the State homeland 
security grant funding?
    Mr. Pascrell. Yes.
    Mr. Foresman. Congressman, I don't have a specific date but 
let me provide you a written response by the close of business 
tomorrow.
    Mr. Pascrell. Well, we are two-thirds the way through the 
year.
    Mr. Foresman. Yes, sir.
    Mr. Pascrell. How did the Department of Homeland Security 
find the District of Columbia--if I am not clear on the 
question, please tell me--to be in the bottom 25 percent in 
terms of risk for the State homeland security grant program 
when the entire District falls within the borders of the 
National Capital Region which is deemed to be in the top 25 
percent for risk as part of the UASI program? How did you do 
that?
    Mr. Foresman. Congressman, that points to the abnormality 
of the process. The fact that the District is considered both--
    Mr. Pascrell. The abnormality of the process?
    Mr. Foresman. Of a process. Let me explain to you. D.C. is 
the one city that also has State status, if you will, under 
these programs. So when they are competing and the reference 
you made is with regard to the State homeland security grant 
program. When they are competing, they are competing against 50 
other States as it relates to population, population density, 
number of critical assets, these types of things.
    Also, remember that a large portion of this is based on the 
0.75 percent figure and 60 percent of it based on risk. So it 
is a simple fact that you are comparing a city to 50 States and 
six territories, which probably is not the best thing in the 
world unless you are the city here in the District of Columbia 
because you get to draw dollars both from UASI and the State 
homeland security grant program.
    Chairman King. The time of the gentleman has expired. You 
may ask one question.
    Mr. Pascrell. We plebeians have a difficult time 
understanding those contradictions and those abnormalities. 
Really, we need to take a careful look at this. You have to 
admit, Mr. Secretary, through all the discussions that we have 
had--it is not meant to embarrass the Department--we have to 
have answers when people ask us about these inconsistencies. 
When you have a high risk but your program that you submitted 
does not show enough effectiveness, and then when we go into 
the effectiveness, you know, you are spinning.
    Mr. Foresman. Congressman, you make a very valid point. And 
our job, our collective job between the legislative and the 
executive, between all levels of government is to reassure the 
American public that we are doing everything we can to secure 
the Nation and keep them safe.
    Having said that, we have to make sure that the discussions 
that we have about UASI and SHSGP reflect how can we fix those 
things that are unintended consequences of our rush to put 
programs together several years ago, and separate what is a 
discussion of a communication from where we may have good 
things about programs or where we may have things about 
programs we need to fix, and we are very much committed to 
doing that, sir.
    Chairman King. I thank the gentleman. Mr. Secretary, I have 
one final question. On the peer review panels, were they given 
access to classified intelligence to show, for instance, why a 
city may have been pursuing a specific application? In other 
words, were they able to put the application against the 
backdrop of specific threats or intelligence involving a 
specific city or region?
    Mr. Foresman. Mr. Chairman, let me provide a very detailed 
written response to that. But I want to give you the broad 
brush. A large part of what we asked them to do was to take the 
original strategy that was developed by the region, or in this 
case New York City, and by the State. And those strategies 
developed by those local officials and those State officials 
were based on their understanding of the threat and the risk. 
And so the peer review was assessing the investment 
justifications against how were they going to accomplish the 
strategies that prior to the application process they said they 
needed to do.
    So I will provide you a detailed written response, but I do 
not believe that we provided threat information and risk 
ranking because we simply wanted the peer review panels to look 
at these objectively in the context of do they make the case 
about how these dollars are going to address the strategy and 
reduce their risk.
    Chairman King. The reason I ask the question--and I will be 
careful how I phrase this--there are a number of situations 
that I am aware of in New York where the police have a 
particular response which in the abstract may not make sense 
but against the nature of the threat that they perceive it 
makes a lot of sense. That is why I asked the question.
    Mr. Foresman. Mr. Chairman, I might mention, I think we 
would do well--we are asking for a nationwide threat map, a 
visual showing the more serious threats that we have 
experienced over the course of the last several years. I think 
this is something that we probably do want to get back together 
and show it to you all, not that it is going to measurably 
change other than to underscore that threats are not limited to 
New York City and the National Capital Region.
    Chairman King. I would also say on at least one of these 
threats, it may be a threat that, at least in the eyes of New 
Yorkers, is not fully appreciated by the Federal Government but 
the NYPD would have a very good case to make why--at least in 
their eyes why they perceive it to be a threat and why certain 
methods are being used.
    Mr. Foresman. Mr. Chairman, if I might. This goes to the 
earlier question that you raised and I think Commissioner Kelly 
outlined the fact that our operational components work very 
closely with the City of New York. Our grants folks work very 
closely with the folks who do the preparation of the grant 
packages. We are at the stage where we need to make sure that 
the operational folks and the grant folks at local level, at 
the State level and the Federal level are all sitting in the 
rooms at the same time for these discussions. We are doing 
better. We could do much better. I want to get to the point 
where these type of discussions can occur before we get into 
the decision process.
    Chairman King. Well, on that grand note of harmony, why 
don't we end the hearing.
    Mr. Foresman. Thank you, Mr. Chairman.
    Chairman King. I thank you for your testimony, and the 
hearing is adjourned.
    [Whereupon, at 1:55 p.m., the committee was adjourned.]


                            A P P E N D I X

                 Questions and Responses for the Record

               Under Secretary George Foresman Responses

              to the Honorable Bennie G. Thompson Questions

    1. The "low-risk" status of some urban areas and the 
potential to make them ineligible for next year's UASI (UASI) 
funding have raised what appear to be legitimate concerns about 
the underlying risk assessment. Common sense suggests that 
places like San Diego and Las Vegas should be eligible for some 
funding. For example, we understand that an urban area's 
proximity to an international border and the partnership 
between federal, state, and local law enforcement was not a 
consideration, although it was for State-level risk. We also 
understand that the Department of Homeland Security did not 
consult with the Department of Defense to distinguish the 
scale, scope or value among military installations, or the 
municipal services that support the military presence, so a 
relatively remote National Guard outpost received the same 
weight as the nuclear ships in the Port of San Diego.
     Is the Department considering modifications to the risk 
assessment for next year that take such factors into account?
    Response:
    The Department will both consider the presence of 
international borders and include more Department of Defense 
(DoD) data into the risk analysis for next year. Inclusion of 
international borders will be considered as a potential factor 
in the formulation of Fiscal Year (FY) 2007 Urban Areas 
Security Initiative calculations. With respect to military 
installations, initial discussions were held with DoD prior to 
the calculation of the FY 2006 analysis. While these 
conversations proved useful, they were not meant to be all-
inclusive or final. Discussions with DoD are continuing and 
some important data has already been shared by them. This new 
data will be used in the upcoming analysis. However, it must be 
understood that these anticipated modifications must be 
approved by DHS senior leadership prior to the final 
calculations, and must be consistent with the Congressional 
Appropriations language funding these grants. Rest assured we 
will consider the full range of valuable input presented this 
year.

    2. Why did the Department of Homeland Security decide to 
redefine the Buffalo-Niagara UASI region to the just be the 
City of Buffalo and a ten mile buffer around the city?
    Response:
    In order to determine eligibility for participating in the 
Fiscal Year (FY) 2006 Urban Areas Security Initiative (UASI), 
DHS identified all cities with a population greater than 
100,000 and any city with reported threat data during the past 
year. Cities on that list with shared city boundaries were 
combined into a single entity for data count purposes. A 10-
mile buffer was then drawn from the border of that city or 
combined entity to establish the geographical area in which 
data was evaluated. This enhanced approach included a broader 
footprint for the data analysis than previous fiscal years 
under the UASI program when only data within the city limits 
was captured and evaluated. In this case, Buffalo does not 
share a border with a city that has a population of over 
100,000 residents.
    However, the geographical area used to determine 
eligibility and the geographical area in which the UASI program 
is actually implemented at the local level are two separate 
issues for consideration. Jurisdictions participating in the 
Urban Areas Security Initiative have been and continue to be 
responsible for defining the actual geographic region in which 
the program will be implemented. At a minimum, those areas have 
included a core city and the county in which that city was 
located. Many urban areas have expanded the region covered 
under program implementation to include additional cities and 
counties, something the City of Buffalo has the opportunity to 
do. The UASI program has historically afforded flexibility to 
each Urban Area to determine implementation structures that are 
sensible both programmatically and operationally. This was done 
in recognition of the fact that each Urban Area is unique and 
that no single structure or approach can effectively apply to 
all participants in the program nationwide. However, for the 
purpose of eligibility, DHS developed a definition of a 
geographic area which it believes to be fair, and which was 
applied consistently across the country.

    3. Has the Department of Homeland Security declined to 
provide either unclassified or classified briefings on the UASI 
awards process to Buffalo-Niagara officials and representative 
from other urban areas? If not, what has been the delay in 
meeting with many of them to discuss their area's risk 
assessment?
    Response:
    The Department has not declined unclassified or classified 
briefings to Buffalo-Niagara officials or representatives from 
other areas. Rather, the Department has encouraged 
jurisdictions to wait until all explanatory materials are 
released on the Homeland Security Grant Program allocation 
process to see if these materials address their questions or 
concerns.
    Additionally, the Department's regionally-assigned 
Protective Security Advisor recently met with the Buffalo Urban 
Area working group and has begun to work with them on their 
concerns related to the Urban Areas Security Initiative program 
and the area's risk assessment. The Department is currently 
working with Representative Slaughter's office to schedule a 
briefing for the Buffalo delegation. Additionally, I have 
personally traveled to Buffalo to meet with area officials 
about their concerns.

    4. In January, the Department of Homeland Security 
announced that 11 urban areas did not fall within the top 35 
urban areas most in need of UASI funding. These 11 cities were 
told that they could apply for "sustainment funding" to allow 
for continuity in ongoing projects, but Buffalo-Niagara 
officials were given the impression that they would receive 
much less than FY 2005. While Buffalo did in fact receive a 48 
percent cut in UASI dollars, other sustainment areas -- Tampa, 
Louisville, Sacramento, and Omaha -- received significant 
increases in funding.
    Can you explain why certain sustainment areas got cut 
whiles others did much better than past years?
    Response:
    In Fiscal Year (FY) 2006, DHS introduced a new allocation 
methodology for evaluating applications under the Homeland 
Security Grant Program (HSGP), including the Urban Areas 
Security Initiative program. The new methodology is 
representative of a broader trend within DHS to prioritize 
homeland security resources on the basis of objective measures 
of risk. For the first time, DHS is able to align HSGP 
resources with the National Priorities and target capabilities 
established by the National Preparedness Goal as well as 
jurisdictional specific strategies.
    The methodology bases HSGP allocations primarily on two 
factors:
    1. An analysis of relative risk to assets as well as risk 
to populations and geographic areas.
    2. The anticipated effectiveness of State and Urban Area 
grant proposals in addressing their identified homeland 
security needs.
    DHS targeted resources so as to balance protection of the 
areas of our Nation at greatest risk with support for 
applicants who have undertaken significant efforts to present 
effective solutions. The applications were reviewed and scored 
by teams of peer reviewers from States and Urban Areas across 
the Nation, who evaluated each applicant's submission based on 
a standard set of criteria to determine the final effectiveness 
score.
    Ultimately, each applicant's final funding allocation was 
determined using a combination of risk and effectiveness 
scores. The relative risk ranking for each Urban Area, 
including sustainment areas, may have driven part of the 
change. This is especially so when considering that the 
Department's information regarding risk across the entire 
nation was far greater in FY 2006 than in prior years. 
Additionally, in FY 2006, with the introduction of investment 
justifications into the allocation process, Urban Areas 
receiving higher effectiveness scores based on the peer-review 
evaluation may have also received a larger allocation.

    5. How does the Department of Homeland Security account for 
the fact that in some areas of the United States there are 
extremely large urban unincorporated areas or cities that are 
very large geographically?
    Response:
    In order to analyze relative risk of candidate Urban Areas 
and determine eligibility for the Urban Areas Security 
Initiative program, DHS utilized a multi-tier analysis which 
was applied consistently and uniformly across the nation.
    This analysis began by identifying all cities with a 
population greater than 100,000 and any city with reported 
threat data during the past year. Cities on this list with 
shared city boundaries were combined into a single entity for 
data count purposes. A 10-mile buffer was then drawn from the 
border of that city or combined entity to establish the 
geographical area in which data was evaluated. Unincorporated 
areas are captured through the 10-mile buffer.

    6. Does the risk analysis process take into account that 
damage to critical infrastructure outside the arbitrary 10 mile 
radius can have a devastating effect on an Urban Area?
    Response:
    The risk analysis used in Fiscal Year (FY) 2006 did not 
take into account specific cascading effects based on analysis 
regardless of distance from the Urban Area or its core city. 
Such effects are the primary topic of study by the National 
Infrastructure Analysis and Simulation Center (NISAC)., 
Directed by the DHS Risk Management Division, NISAC is a 
collaborative effort between Sandia National Laboratories and 
Los Alamos National Laboratory. NISAC analyses are extremely 
complex and require a great deal of data from the private 
sector. Partnerships with private entities and their sharing of 
data are an ongoing challenge, but are, in part, being 
addressed by the Preparedness Directorate's Risk Analysis 
Method for Critical Asset Protection (RAMCAP) efforts. Planning 
for the FY 2007 Homeland Security Grant Program includes 
incorporating at least some aspects of cascading effects. 
However, as Hurricane Katrina clearly demonstrated, some limits 
must be placed on whatever data is used for such an analysis as 
the possibilities for data inclusion on interdependencies are 
potentially endless.

    7. The Department of Homeland Security noted in a written 
response to a letter from Representative Doris O. Matsui (CA-
05) that, "The Department is continuing to develop a more 
robust risk model as it gains the capabilities to increase its 
knowledge of interdependencies, cascading effects and refine 
data sets."
    Since the Department of Homeland Security will begin 
evaluating risk to determine grant eligibility for the FY 2007 
program in the next few months, how does the Department of 
Homeland Security plan on creating a more robust risk model 
that takes into account interdependencies, cascading effects 
and refined data sets?
    Response:
    The Office of Grants and Training held an After Action 
Report conference in San Diego on July 11-12, which included a 
three-part session on the DHS risk analysis methodology and 
means to improve it. The feedback at that conference, which 
includes suggestions and recommendations for the grant 
programs, is in the process of being consolidated. Both the 
interdependencies and data quality and review by local entities 
were included as issues for the Department to address.

    8. Which data and timeframe was used to evaluate threats to 
a specific urban area or state? Did the Department of Homeland 
Security make any attempt to validate or reconcile the types of 
FBI investigations?
    Response:
    There were three factors used in quantifying the threats to 
urban areas and states: Intelligence Community Reporting, 
Suspicious Activity Reports, and law enforcement activity. The 
Homeland Infrastructure Threat and Risk Analysis Center 
(HITRAC) performed the analysis and had no visibility into the 
specifics of any law enforcement data received from the FBI, 
beyond the fact there was a terrorism nexus, however, only 
Full-Field Investigations were utilized. The evaluation of both 
the reports and law enforcement activity data covered October 
1, 2004 to September 30, 2005.

    9. Does the Department of Homeland Security give greater 
credence and weight in the analysis model to critical 
infrastructure than to population and population density?
    Response:
    Neither data have greater credence. Population and 
population density are factors in what is termed the 
"geographic risk", and infrastructures are factors in what is 
termed the "asset risk". Additionally, within the consequences 
portion of the asset risk, human casualties are the most 
heavily weighted.

    10. After all the state and urban area totals were 
computed, did the Department of Homeland Security take a step 
back from the empirical data and see if the resultant analysis 
could pass a reasonableness test?
    Response:
    In past years, DHS' risk analysis was largely driven by 
both population size and density. But over time DHS has been 
able to develop enhanced techniques to analyze risk. In Fiscal 
Year 2006, the risk analysis considered three primary 
components: threat, vulnerability, and consequence. With the 
enhanced methodology and broader set of data inputs, we were 
able to capture a truer estimation of relative risk for all 
urban areas. The footprint used to analyze the risk to both 
assets as well as geographic areas and populations was adjusted 
this year. This adjustment more accurately reflects the 
regional context in which these jurisdictions operate and the 
critical infrastructure that provides higher potential targets 
and requires protecting.
    The new DHS risk analysis process incorporates the ability 
to assess the increase in relevant individual risk of urban 
communities, this risk in relation to other communities, and 
the distribution of risk across our entire nation. As a result 
of these improvements, many areas' risk scores changed 
significantly, a reflection of an enhanced analytical approach 
to gauging the risk urban areas face relative to one another. 
DHS is confident the results of the analysis are reasonable and 
more accurate than prior years. We will, however, maintain a 
constant evaluation process to ensure results remain 
reasonable.

    11. How does past performance in accomplishing the Homeland 
Security Grant program preparedness objectives influence future 
awards?
    Response:
    Fiscal Year (FY) 2006 marks the first year in which states 
and urban areas applied for funding under the Homeland Security 
Grant Program by submitting an investment justification for 
evaluation through a peer review process. Included in those 
submissions was information about regionalization, impact, and 
the overall implementation approach for each proposed 
investment. Peer reviewers evaluated each individual investment 
as well as the overall portfolio of investments against 
specific criteria. In future years, DHS will look to include 
past performance as an element for consideration in the peer 
review process, allowing reviewers to evaluate the performance 
of investments from the FY 2006 process in order to better 
understand the scope and feasibility of related proposed 
investments in future years.
    12. As the Department of Homeland Security works with the 
private sector it is equally important for local authorities to 
play a part in any discussion on infrastructure protection and 
preparedness.

    What is the Department of Homeland Security doing to 
incorporate local authorities in partnerships with private 
sector owners of infrastructure?
    Response:
    DHS has provided both strategic direction and programmatic 
support to encourage the coordination of State and local 
homeland security and critical infrastructure protection 
efforts with the private sector. This is especially evident 
with the release of the National Infrastructure Protection Plan 
(NIPP) and the National Priorities in the National Preparedness 
Goal, particularly those parts of the goal titled Expand 
Regional Collaboration and Implement the NIPP. The NIPP, in 
particular, provides the unifying structure for the integration 
of existing and future critical infrastructure protection 
efforts and delineates roles and responsibilities for security 
partners in carrying out implementation activities.
    Further, the Department's Infrastructure Protection Program 
grants provide a means by which State and local governments and 
private sector owners and operators can collaborate on targeted 
security enhancements for critical infrastructure at the local 
level. For example, port security grants, which emphasize 
prevention and detection against improvised explosive devices 
(IEDs), facilitate collaboration among government officials and 
private owners and operators on proposals for and 
implementation of specific projects that enhance security at 
the highest risk port areas. Similarly, in the case of buffer-
zone protection grants, responsible local jurisdictions review 
and assess ways in which they can work with relevant Federal, 
State, local, tribal, and private sector agencies to coordinate 
their prevention and protection activities. Additionally, 
jurisdictions responsible for the protection of identified high 
priority assets and the development of the Buffer Zone Plans 
are required to coordinate their activities with the private 
sector, including asset owners and operators.
    Lastly, the Business Executives for National Security 
(BENS), in partnership with DHS' Office of Grants & Training, 
have developed and implemented BENS Business Force Teams across 
the country. BENS Business Force Teams help build public-
private partnerships in selected regions across the nation by 
connecting businesses and government officials in order to 
mutually support and strengthen homeland security efforts in 
the region. Each partnership is directed by its region's 
government and business leaders; has membership that cuts 
across industry sectors and all levels of government; and 
implements multiple initiatives that improve prevention, 
protection, response and recovery capabilities - addressing 
both national and regional priorities. The BENS Business Force 
partnerships help fill key gaps in security by taking on 
initiatives that include: Business Response Network; Biological 
Event Preparation; Intelligence/Information Sharing; and 
Critical Infrastructure Risk Assessment.

    13. We have heard complaints from state and local officials 
that the Transit and Port Security grants still aren't out yet 
and they are not getting answers from the Department.
    If the goal of the Department is to quickly get the funding 
money to those on the ground that need it and given the fact 
that we are 2/3 through the fiscal year, when do you think the 
funding will be released?
    Response:
    Funding for these programs was announced on July 6, 2006. 
Applicants will have through August 4, 2006, to submit 
applications, and awards will be made no later than September 
30, 2006.

    14. What effort is your office making to track and monitor 
the delivery federal homeland security funds to tribal 
governments? What outreach efforts have your office developed 
to communicate to tribal nations about availability of homeland 
security grants?
    Response:
    Based on the Homeland Security Grant Program guidance, all 
state and local programs and expenditures are subject to 
review, monitoring and audit at all times. The Office of Grants 
and Training's (G&T) preparedness officers aggressively manage 
the programs and monitor the spending of all 56 states and 
territories. All state investments and spending plans are 
reported to the Department through initial Investment 
Justification reports and monitored through biannual financial 
progress reports.
    G&T has a preparedness officer assigned to coordinate and 
liaise with tribal governments and communities in an effort to 
ensure the effective delivery of Homeland Security programs, 
technical assistance support and funds to tribal communities. 
To ensure full recognition of tribal needs the tribal liaison 
works directly with the assigned State preparedness officers as 
well as State, local and tribal governments to ensure the 
threats and risks faced by tribal communities are reduced and 
that State, regional and tribal jurisdictions are fully 
collaborative and coordinated.
    In addition to the appointment of a tribal liaison, the 
state preparedness officers conduct regular financial and 
programmatic reviews through frequent program office monitoring 
efforts and site visits to ensure Native American communities 
are equitably targeted for funding and support appropriate for 
the identified threats and risks. The preparedness officers 
coordinate directly with senior state officials to address 
questions or concerns when they arise.
    Regarding the outreach efforts, the Native American liaison 
has attended several tribal training events, conferences and 
focused meetings at every opportunity. State preparedness 
officers have also met with Tribal governments and 
representatives throughout the Country and provided focused 
communication dedicated to tribal leaders. G&T also reaches out 
to Tribal leaders and encourages their full participation in 
available conferences and training opportunities. G&T included 
a Tribal representative as a subject matter expert on Tribal 
issues at the FY 2006 HSGP peer review session.

    15. Although many cities including New York have discussed 
the value of their 3-1-1 non-emergency numbers during 
disasters, the Department of Homeland Security has deemed that 
3-1-1 systems were not eligible for homeland security grants.
    Can you please provide the legal or administrative basis 
for the decision? Is the Department willing to review its 
position on 3-1-1?
    Response:
    Homeland Security Grant Program (HSGP) funds are 
appropriated for the purpose of assisting State and local 
governments in building their capacities to prevent, protect, 
respond to, and recover from major events including acts of 
terrorism. In Fiscal Year (FY) 2006, DHS has allowed grantees 
to leverage HSGP funds to address an "all-hazards" approach to 
emergency planning, response, and recovery.
    3-1-1 systems provide access to non-emergency services, and 
are intended to help divert routine inquiries and non-emergency 
concerns or complaints from the public away from the 9-1-1 
emergency system. Examples of calls intended for 3-1-1 systems 
include issues such as debris in roadway, noise complaints, 
non-working street lights, etc. DHS continues to believe that 
purchase of such systems is considered to be outside the scope 
of the Homeland Security Grant Program as it does not enhance a 
jurisdiction's ability to carry out any of the mission areas 
for which the HSGP funding is provided.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
